<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



         INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 JIM KOLBE, Arizona
 JOE SKEEN, New Mexico
 CHARLES H. TAYLOR, North Carolina
 GEORGE R. NETHERCUTT, Jr., 
Washington
 ZACH WAMP, Tennessee
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     NORMAN D. DICKS, Washington
                                    JOHN P. MURTHA, Pennsylvania
                                    JAMES P. MORAN, Virginia
                                    ROBERT E. ``BUD'' CRAMER, Jr., 
                                    Alabama
                                    MAURICE D. HINCHEY, New York

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 7
                                                                   Page
 Secretary of the Interior........................................    1
 Bureau of Land Management........................................  159
 U.S. Fish and Wildlife Service...................................  251
 National Park Service............................................  445

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 64-251                     WASHINGTON : 2000

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio
 JERRY LEWIS, California
 JOHN EDWARD PORTER, Illinois
 HAROLD ROGERS, Kentucky
 JOE SKEEN, New Mexico
 FRANK R. WOLF, Virginia
 TOM DeLAY, Texas
 JIM KOLBE, Arizona
 RON PACKARD, California
 SONNY CALLAHAN, Alabama
 JAMES T. WALSH, New York
 CHARLES H. TAYLOR, North Carolina
 DAVID L. HOBSON, Ohio
 ERNEST J. ISTOOK, Jr., Oklahoma
 HENRY BONILLA, Texas
 JOE KNOLLENBERG, Michigan
 DAN MILLER, Florida
 JAY DICKEY, Arkansas
 JACK KINGSTON, Georgia
 RODNEY P. FRELINGHUYSEN, New Jersey
 ROGER F. WICKER, Mississippi
 GEORGE R. NETHERCUTT, Jr., 
Washington
 RANDY ``DUKE'' CUNNINGHAM, 
California
 TODD TIAHRT, Kansas
 ZACH WAMP, Tennessee
 TOM LATHAM, Iowa
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     DAVID R. OBEY, Wisconsin
                                    JOHN P. MURTHA, Pennsylvania
                                    NORMAN D. DICKS, Washington
                                    MARTIN OLAV SABO, Minnesota
                                    JULIAN C. DIXON, California
                                    STENY H. HOYER, Maryland
                                    ALAN B. MOLLOHAN, West Virginia
                                    MARCY KAPTUR, Ohio
                                    NANCY PELOSI, California
                                    PETER J. VISCLOSKY, Indiana
                                    NITA M. LOWEY, New York
                                    JOSE E. SERRANO, New York
                                    ROSA L. DeLAURO, Connecticut
                                    JAMES P. MORAN, Virginia
                                    JOHN W. OLVER, Massachusetts
                                    ED PASTOR, Arizona
                                    CARRIE P. MEEK, Florida
                                    DAVID E. PRICE, North Carolina
                                    MICHAEL P. FORBES, New York
                                    CHET EDWARDS, Texas
                                    ROBERT E. ``BUD'' CRAMER, Jr., 
                                    Alabama
                                    MAURICE D. HINCHEY, New York
                                    LUCILLE ROYBAL-ALLARD, California
                                    SAM FARR, California
                                    JESSE L. JACKSON, Jr., Illinois
                                    CAROLYN C. KILPATRICK, Michigan
                                    ALLEN BOYD, Florida

                 James W. Dyer, Clerk and Staff Director

                                  (ii)
    Offset Folios 2 Insert here

<SKIP PAGES = 001>


 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              

                                        Tuesday, February 29, 2000.

                       DEPARTMENT OF THE INTERIOR

                               WITNESSES

HON. BRUCE BABBITT, SECRETARY OF THE INTERIOR
JOHN D. TREZISE, DIRECTOR OF BUDGET
    Mr. Regula. We will get the hearing started this morning. 
We are happy to welcome the Secretary of the Interior Mr. 
Babbitt, and I guess this is your last shot at this 
subcommittee or our last shot at you, however you characterize 
it.
    Secretary Babbitt. Mr. Chairman, I am not ready to make any 
concessions of any kind.
    Mr. Regula. Jim suggested the President-elect might keep 
you on. We will see.

                examples of secretary's accomplishments

    Okay. Well, Mr. Secretary, before we start, you have been 
there 7 plus years, and I would just like you to take about 5 
minutes and tell us what is your three or four items that give 
you the greatest satisfaction as you leave your stewardship of 
the Department of Interior. And you may want to reflect on that 
because you are dealing with our most precious asset in a way, 
our land, and what do you think 50 years from now will be your 
greatest legacies?
    Secretary Babbitt. Mr. Chairman, numbers one, two, and 
three have been working with this committee.
    Mr. Regula. I am not sure we have the same priorities.
    Secretary Babbitt. Seriously, the last 7 years have been a 
remarkable time in terms of our relationship with the Congress 
and what we have done. They have been marked by the following: 
Nothing has happened in the authorizing committees in the areas 
that I work in the last 7 years, absolutely nothing.
    What that means is that everything we have been able to 
achieve, and I think we have done a lot together, has, in fact, 
been done through the appropriations committees. I say that 
almost without exception, and it has taken a great deal of give 
and take. I really marvel at it. For example, I think in the 
Florida Everglades we have really put together something that 
is absolutely unprecedented in that State in terms of looking 
not at just the national park or a wildlife refuge or a 
particular species problem, but trying to get a hold of how we 
live on that entire landscape. This is a really remarkable 
situation.
    Miami is one of the most dynamic places in the country, and 
Florida is one of the fastest growing States. Again and again 
and again for seven years, we have grappled with this issue of 
where to find the balance. How do we maintain that system--it 
is the reason the people go there in the first place--and how 
do you grow without destroying it?
    The remarkable thing is there hasn't been a single line of 
authorizing legislation in what is probably the largest 
restoration project in the history of the world. We have done 
it right here through the appropriations process. We have put 
together partnerships with the State of Florida. We have got 
the local water management district involved. We have got all 
this remarkable stuff.
    I choose that particular example, because I think it 
illustrates a lot of points that I want to go into that are 
applicable all over the country, and that is that these land 
and wildlife and species and pollution and water issues really 
have come to be seen very differently.
    The legacy of the past century was we will create a park, 
put a fence around it, and put a Ranger in front of it, and 
that is it. We have taken care of it, because if we protect the 
back 40, then we are free to let everything kind of take place 
on the rest of the landscape.
    I was with Mr. Dicks--another wonderful example--last week 
out at the Elwha Dam, the Elwha/Glines Canyon. It is a 
wonderful example because one of those dams is not even in the 
national park. The issue is what is the impact of those dams on 
a landscape which extends up to the national park and out into 
the Pacific Ocean clear up to Alaska. And once again, the 
remarkable thing is that we have worked that all out right here 
in the appropriations process. It is the largest precedent-
setting dam decommissioning that has ever taken place.
    Now, while the authorizing committees are busy having an 
ideological debate about the future of dams, we have taken one 
specific project and worked it out and hasseled it through, 
found a consensus, and set an example for lots of things that 
will follow.
    So those are just two examples of what I am most proud of, 
and I just shake my head in wonderment that we have managed to 
do it without all this ideological rhetoric and impasse that 
has characterized much of this town over the last seven years. 
I actually feel pretty good about it.
    The average tenure in my office, I think, is about two 
years. In my first term, I said to people I am going to go down 
in history if I make it through four years in office without 
going to jail, and here I am still standing seven years later. 
I don't mean to be too sweet and sappy about it, but I feel 
really good about it, and it has been a good relationship, and 
we have got one more year to go, and we have got a lot on our 
plate. I hope you are not asking me to do this in lieu of an 
opening statement.
    Mr. Regula. No.
    Secretary Babbitt. Okay.
    Mr. Regula. No. Since it is, theoretically at least, our 
last hearing, we may want to have you come back with additional 
information.
    You are in charge of about 500 million acres which is an 
important legacy for those that follow. I think this committee, 
as much as any, at least in terms of management of resources, 
is working with the executive branch so that it does have a 
very substantial impact on what it will be.
    Mr. Dicks, do you have any comments?

                            elwha river dams

    Mr. Dicks. I just would say to the Secretary--first of all, 
I want to thank him for coming out for the ceremony in Port 
Angeles. And I think the word that you used that I liked the 
most was consensus, because after a period of time--and there 
was an authorization bill, as you remember, on the removal of 
the two dams on the Elwha River, the Glines and the Elwha, but 
it was not a consensus at first, and that is why it was 
difficult to do, but eventually, as the community came to grips 
with this, a bipartisan consensus emerged that this was the 
right thing to do. And I would just say to the Secretary that 
is a very powerful concept, a bipartisan consensus in a 
community, and I think it is going to take a bipartisan 
consensus to do this in other places, and I think you know what 
I am speaking of.

                     pacific northwest forest plan

    I would hope that the Secretary would think that the 
efforts in the Pacific Northwest for a forest recovery plan, 
protecting the last remaining old growth, restoring ecosystem 
health, now coupled with a west coast salmon recovery 
initiative, which isn't all within the jurisdiction of the 
Department of Interior, but I happen to think that is one of 
the important accomplishments of this administration. As 
controversial as that was and still is in some respects, I 
think that is one of the most important things that you have 
accomplished.

                       habitat conservation plans

    The other thing that I would say in reflecting upon the 
last seven years is the advent of the habitat conservation plan 
as a powerful tool for the private sector to come into 
compliance under the Endangered Species Act, and to me that 
ability to work out these conservation strategies is another 
thing that I would put up there at the top of the list, along 
with the Everglades, as being some of the important things 
accomplished, and, of course, as controversial as some of the 
monuments have been, I think that is going to live on as one of 
the major accomplishments of this administration as well.
    So I think there are some things here that we can point to 
that are very, very important, and yet there is still some 
things I think that we need to focus on. The Chairman, I think, 
has properly raised the issue in this committee about the 
maintenance of our existing national parks, our national 
forests, our fish and wildlife refuges, also the condition of 
the tribes. The President has recently spoken on that, have we 
accomplished what we really want to do in helping the American 
Indian. To me those are a couple of examples of things we have 
not yet fully come to grips with.
    And so I want to welcome the Secretary here today. I think 
we have made a tremendous amount of progress in the Northwest. 
I am proud of the fact that in the Pacific Northwest, when you 
look at option nine, the President's forest plan, you look at 
the State DNR habitat conservation plan, all the conservation 
plans in place, over half of the land in the State of 
Washington is now under a conservation plan, more than any 
other State in the Union. And I think it is because of the 
leadership of the Department of Interior that we have been able 
to accomplish that by working with people and developing 
consensus and getting things done. And I wish you well in your 
last year, and let us keep getting things done. Thank you.
    Mr. Regula. I would like to ask Mr. Kolbe if he has any 
comments.
    Okay. Mr. Secretary, we are going to try to move this 
hearing rather quickly, so we await your opening statement.

                       Opening Statement, Summary

    Secretary Babbitt. Excellent. I will try to be brief, and I 
am going to play straight off Congressman Dicks' wrap-up 
remarks about the nuts-and-bolts issues that remain to be taken 
care of and that you have so insistently and correctly urged 
upon us, and where I think we have made a lot of progress.

                             fte increases

    The increases in this budget are really in three areas. You 
see a 12 percent increase, and you kind of step back, but the 
fact is that this budget is still administering a very tight 
ship. It has a two percent increase for FTEs after eight years 
that will bring us up to about 70,000 FTEs, which is still 
almost 10,000 below where we began eight years ago, despite 
enormous workload increases. I think we have managed very 
effectively.
    Land operations, the nuts and bolts of what we do, has a 
7.6 percent increase. Two percent of that is for 
uncontrollables. So we are not really requesting any 
significant changes in terms of the administration of the core 
responsibilities of the Department.

                            budget increases

    There are three areas where the increases are and, Mr. 
Chairman, by pure coincidence in our last year together, two of 
those three areas are responsive to your concerns, and, kidding 
aside, I really mean that. There are three areas where these 
increases are. One is Indian Affairs. The second one is taking 
care of what we have; construction, maintenance, and a variety 
of issues there. The third, of course, is one that I think we 
are going to explore some differences on, and that is the 
President's Lands Legacy proposal.

                             indian affairs

    Let me start with Indian Affairs and just say that I am 
enormously grateful, Mr. Chairman, committee members, for the 
way I have managed to deal with these over the last couple of 
years. It has been kind of a rocky road. I have been in court, 
you know, being pistol-whipped by Federal judges and the press, 
and this committee could have piled on. But the committee 
didn't, and you have been responsive to the requests for the 
extraordinary resources that we have needed to get this issue 
sorted out after 150 years.
    Now, notwithstanding what you read in the paper, I think we 
are on our way toward getting the Indian trust issues sorted 
out, but we have been back before the judge. I think things are 
settling down in the courts. The information management systems 
are coming up. We have been very cautious about bringing up the 
architecture of this system that is being built. I am very 
sensitive to the ALMRS experience. It is working. The systems 
are being tested and deployed in an incremental fashion, and it 
has taken an enormous amount of money. We have a new special 
trustee that I think everybody is really comfortable with. He 
has not yet been confirmed, but it looks like things are moving 
on that front.
    This year on the special trustee front, there is about a 
$35 million increase for the BIA side. In previous years you 
have really taken care of us on the special trustee side. We 
have got to beef up the probate system, the land record systems 
on the BIA side.
    The NAPA study, Mr. Chairman, that you urged upon us for 
the BIA has been very helpful. It highlights the need for some 
more FTEs and resources in the central administration of the 
BIA, and the NAPA study basically says a combination of deep 
budget cuts back in the early 1990s plus the decentralization 
of the organization both went too far. We need to pull some of 
the central management and accounting and financial functions 
back from Albuquerque, put them in the central office, and 
staff them up so that we have the planning and budgeting 
capacity that we have lost.
    There are other components to the Administration's Indian 
Affairs initiative in predictable places. There is an increase 
for law enforcement. We have increases for tribal programs and 
for education, and we present those in the spirit of the past 
years. They are important. You have been enormously responsive, 
and I hope we can continue to work together.

                      taking care of what we have

    Second, taking care of what we have. Mr. Chairman, I think 
we are getting a handle on these issues at your request, and 
under your wise hand, I think we have made significant 
progress. First of all, under John Berry's leadership last year 
and the year before, working with your staff we have developed 
a prioritized Safe Visits 5-year plan to take care of the 
obvious important health and safety increment of the backlog of 
facilities and maintenance needs in the land management 
systems. There is another increase for that this year. It is a 
part of the 5-year plan. I think it is playing out 
appropriately, and I appreciate the leadership that you have 
shown in sort of leading us to the water hole and saying do 
something about it.
    Now, there is another piece to this that we are working on 
this year, which Mr. Berry, with his penchant for slogans, 
refers to as ``MAXIMO.'' I have no idea what ``MAXIMO'' means, 
but I can tell you what it is. It is a system that is 
responsive to the committee's concerns that once we get a 5-
year plan up, it doesn't make any sense to fund it and build it 
out only to have the problem accumulate all over again. So we 
need to build an information and management system which is 
uniform across land management agencies, which is updated on a 
real-time basis, so that for every building in the system, we 
have got depreciation schedules and the appropriate response in 
terms of updating the entire list.
    Now, interestingly enough, there is a piece in the 
Washington Post this morning that goes to this. It is from the 
government performance project. It is a foundation-funded 
study. I read this in the Post and immediately dismissed it 
this morning as another do-gooder project for people who don't 
know what the hell they are talking about, and the reason I 
dismissed it is because they gave the Army Corps of Engineers a 
higher rating than the National Park Service. I said, oh, man, 
here we go again.
    Now, Mr. Trezise came to me and said, don't be arrogant and 
dismissive, read the report, and I am sure it is from the 
government executive publication. They go after, very 
constructively, this issue of computerizing a uniform system 
for showing what our physical facilities are. It is nicely done 
and very appropriate.
    The cumulative total of this taking care of what we have is 
up substantially this year, but I think the real way to look at 
this is all of the things that we have managed to do 
cumulatively. We have the TEA-21 funds now being deployed, and 
there is a nice bump-up in that for the road construction. The 
fee demonstration program is now a very significant part of our 
taking care of what we have, and if I may suggest, Mr. 
Chairman, I think it is important that your success with this 
program needs to be made permanent this year, and obviously we 
have an interest in getting that done. I won't go into all of 
the successes of this program, but there is something. It 
really works very nicely, the way this program motivates people 
to look at what it is their land unit system is about, and to 
go straight to the heart of the matter. I think it has been 
very appropriate.

                              lands legacy

    Lastly, a word about Lands Legacy, and, Mr. Chairman, I 
know there will be questions, so I am going to step back onto 
my soap box for this one. There is a tremendous demand in this 
country to deal with open space issues. It is everywhere. I 
didn't recognize it until it had sort of come down upon us, but 
I recognize it now.
    I was up in New Jersey several weeks ago in Morris County 
looking at an open space project. The State of New Jersey has 
committed $3 billion over a 6- to 8-year period, $3 billion at 
the State level. At the county level they have an open space 
program, Morris County, and then there is a community open 
space program. What I was hearing from them is: where is the 
Federal Government? This is not 100 percent funded with local 
dollars. What we want is to see, if the city, county, and State 
can come up with this kind of money, where is the Federal 
match?
    Another example that is much on my mind is the Royal Teton 
Ranch out on the north boundary of Yellowstone. This is the 
bison problem, and we have struggled with this thing. Every 
year the State of Montana is slaughtering bison, and it is a 
national scandal, and everybody is all whipped up about it. The 
key to solving it is some low-country winter range. The ranch 
that is available was on the market in 1981 for $7 million. The 
decision was made then not to buy it. Here we are 20 years 
later, and in today's environment and at today's prices we have 
finally succeeded in acquiring half the ranch for twice the 
price at which we could have bought the whole thing when 
Malcolm Forbes was offering it.
    Mr. Kolbe's District is a really fascinating example. There 
is a grassroots movement in Tucson on these open space issues 
which is a sight to behold, and it is bipartisan. It is 
everybody. It is the city council, the county supervisors, and 
they have taken the Endangered Species Act--this is what we 
were talking about earlier in terms of trying to make these 
things work proactively. They have taken that, they have taken 
Corps of Engineers money, they have taken State and local money 
to put together a green space program around Tucson, and they 
are looking to us for help. They put up literally tens of 
millions of dollars.
    We had a spectacular success in Florida. You are aware of 
that. We have completed the buy-out of all of the inholdings in 
Everglades National Park. That is really something. It is done. 
The acquisitions are not done, but they are all funded, and you 
will see in this year's budget a movement from the National 
Park Service, a movement to do a similar thing with the fish 
and wildlife refuge units. There are myriad examples of that, 
and I submit that given the promise, the implicit promise that 
was made in the Atlanta Water Conservation Fund back in the 
1970s, given the current fiscal situation of this country, 
given the popular demand, and giving credit to you, Mr. 
Chairman, for the fact that we are getting our arms wrapped 
around the taking care of what we have, that it really is time 
to see if we can't step up to this issue.
    Now, the administration has proposed a plan which would 
enable the appropriations committees to deal with this outside 
the authorization process. That is a tacit recognition that 
nothing has happened in the authorization process for the last 
eight years, and that by fencing this as a discretionary 
appropriation, this committee could approve the program and 
keep control of the appropriations by fencing it and saying the 
money won't be spent unless it is appropriated, and it won't be 
counted in any other account. I urge you to have a look at that 
now. There is authorization moving, the Miller-Young bill. 
There is going to be a lot less flexibility in that bill than 
there would be for the appropriators to fence this money and 
keep complete discretion over it. Thank you.
    Mr. Regula. Okay. Thank you.
    [The statement of Secretary Babbitt follows:]
    Offset Folios 19 to 30 Insert here

<SKIP PAGES = 012>

    Mr. Regula. I do want to mention that one of the key 
successes has been a good staff. We have John and Ann here, 
both of whom have been key people in the success of your 
Department, and many others who are in the audience.

                           stateside funding

    Your statement is not totally consistent in this respect. 
You are saying in the Lands Legacy that we should give 
essentially $415 million to the States. Yet you say we need 
this ranch for the bison. We have inholdings that we have to 
complete. We still have the billions of dollars of backlog 
maintenance, and it seems to me the States do have their own 
sources of revenue. They have the 3-mile zone off their coasts 
where there is drilling. They get that money. They have their 
share of federal off shore revenues almost to the tune of a 
billion dollars that already goes to the States, and they have 
now the tobacco money.
    It seems to me that when we are faced with a need to 
acquire inholdings and with a need to acquire lands that are 
important to the development of our responsibilities, to take 
out $415 million to go to States and local communities is not 
necessarily good management. Our first obligation is to take 
care of what we have, these 379 parks, to buy the inholdings 
that become available, and we don't begin to get that job done. 
Why do we want to take away from our ability to do that by 
sending more money out to the States and local communities, 
especially when every State in the Union has a surplus balance 
today. In Ohio they have even cut the income tax because they 
were so flush. And I would like your response to that.
    Secretary Babbitt. Mr. Chairman, I recognize that there is 
a philosophical issue here. This amounts to a directed revenue 
sharing program and----
    Mr. Regula. More than philosophical, it is practical.
    Secretary Babbitt. Let me address the practical one. An 
awful lot of this money comes back to projects where there is 
an enormous Federal interest. The habitat conservation plans in 
southern California are a good example. They are really 
working. The State is putting up enormous sums of money for 
land acquisition in the San Diego County HCPs, but it rebounds 
to our benefit because this is a cooperative attempt to manage 
a landscape solution on a systemic basis.
    Another example of this is surely going to be the HCP, the 
Sonoran Desert Conservation Plan around Tucson. The money that 
would go to Arizona under this would start to come back to the 
fillout of the Sonoran Desert plan in Tucson, and it buys the 
States support for this process. It gives them some discretion, 
not an endless amount of discretion, but I tell you it is a lot 
easier to deal with Governor Hull on all this stuff when there 
is some money flowing into State agencies, and they are willing 
to step up and get some of the credit, and be a participating 
partner. It makes it a lot easier.
    Mr. Regula. Well, as an example, the Fish and Wildlife 
Service has enormous maintenance problems on our national 
Wildlife refuges, and yet your budget has an increase of 
$500,000, pretty meager. At the same time you are proposing to 
give the States $415 million. And I find an inconsistency 
because we do have enormous amounts of responsibility here with 
maintenance, with the inholdings, and the States already have 
surplus balances. They now have tobacco money. I think they 
should meet their own obligations. If anything, I suggested to 
one of the Governor's people they ought to contribute to our 
budget.
    Secretary Babbitt. Well, I have not been sufficiently bold 
to make that kind of suggestion.
    Mr. Regula. They didn't react very positively.
    Secretary Babbitt. Mr. Chairman, let me just give you 
another example of why I think this is so important. Part of 
the President's program is State Non-Game Wildlife Grants. The 
game and fish management enterprise of the United States has 
been an enormously successful State-Federal operation. It has 
been that way for----
    Mr. Regula. I think it is great that they cooperate.
    Secretary Babbitt. The Pittman-Robertson Act and the other 
revenue-sharing acts provide that State game and fish agencies 
automatically get revenue-sharing for hunting and fishing. They 
don't get anything for nongame management, which is dealing 
with these endangered species issues, and the result is that 
the power that you see from State game and fish in managing 
fresh-water fisheries, salt-water fisheries, big game hunting 
is absent when it comes to these endangered species crises. 
They are nowhere to be found because they are saying we can't 
use the Federal revenue-sharing for that. And this nongame 
proposal is an attempt to extend a system that has really 
worked to get a buy-in from the States in the management of 
these endangered species issues, making an enormous difference. 
Because when the States have some buy-in, then instead of 
characterizing it as a Federal mandate and triggering these 
firefights, what the Governors do is take credit for part of 
the solution.
    Again, Arizona is a perfect example right now. Arizona Game 
and Fish Commission is a tremendous agency. They really care 
about these things. They aren't suited up to get in this game 
because Governors don't view themselves as having a stake in 
the solution.
    Mr. Regula. But they should. Here you have the Fish and 
Wildlife Service that has $4 billion needed to complete land 
acquisition at the refuges it already has, and yet we are 
talking about giving away money to the States. Don't you think 
we need to take care of those needs that we are primarily 
responsible for?
    Secretary Babbitt. Mr. Chairman, the bottom line is I am a 
pragmatist. After 16 years in public office, I think I can say 
with assurance to you that unless we buy the States and the 
Governors and the mayors into a cooperative effort designed to 
protect open space, it is not likely to happen.
    Mr. Regula. Well, I think they have responsibility. I was 
in State government for eight years, and I think the States 
need to take that responsibility. But likewise, we have a lot 
of responsibilities with the inholdings and the maintenance, 
and we are not meeting those.
    Secretary Babbitt. In a policy argument you can drive me up 
against the wall, I acknowledge that. You can put me to the 
wall on this. I am making a plea in aid of a pragmatic solution 
to enlarge the pot for the total effort by bringing everybody 
together in a traditional way that has been used very 
effectively.
    Mr. Regula. I think we are doing the bringing together, 
though, with our resources.
    Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman. And if you want to 
bring John up here to talk about this, since he seems to be 
your go-to person on backlog of maintenance, that is fine with 
me, Mr. Secretary.

                          maintenance backlog

    Let me ask you this: We have been told that the backlog of 
maintenance needs for Department of Interior properties is 
somewhere between $8 and $14 billion. Are those numbers still 
accurate estimates of the need?
    Secretary Babbitt. No.
    Mr. Dicks. Now, John gave us a piece of paper that says it 
is.
    Secretary Babbitt. That is why he doesn't get to testify 
today.
    Mr. Dicks. We will allow you to revise and extend, too.

                              ellis island

    Secretary Babbitt. Congressman, the reason these things are 
educated guesses is that they are a function of a number of 
things; first of all, agencies crying wolf and their supporters 
crying wolf. Second is what I would call the Ellis Island 
syndrome. Go up and take a look at Ellis Island. We have 
refurbished the main entryway in that building. It is a 
scintillating, emotionally moving place of the first order. It 
is really fabulous.
    Now, go look at the rest of the island. There is a small 
city there, and three-quarters of it is falling down. It has 
been falling down nonstop for the last 40 years. It is all 
suddenly in the National Park System.
    Now, the Ellis Island syndrome says we are going to restore 
all of this to the same standard that we have restored the 
entry hall. Nobody has made that decision, and it shows up in 
here. Now, at some point these committees, I think, are going 
to need to make a decision whether or not you intend to do that 
and whether or not it is fair to stack probably $500 million 
into that one account. But that is not the same as suggesting 
that the system is falling apart. It isn't.

                          many glaciers hotel

    Now, I would next take you to Many Glaciers Hotel. Do you 
know about Many Glaciers Hotel?
    Mr. Dicks. No.
    Secretary Babbitt. After my first look at Many Glaciers 
Hotel, I said my solution to this is a match and a can of 
gasoline. The Many Glaciers Hotel was built by the Northern 
Pacific Railroad in 1908. It has its original steam boiler in 
the basement. If you drop a marble on the floor, it will roll 
from one end of this hotel to the other. There is not a 
vertical or a horizontal plane in this entire hotel. We have 
had great managers, hotel people. We had 1,000 consulting 
studies done, thinking of ways that we could finance the--I 
think it is about $100 million that is necessary. It can't 
possibly be done, and the question is, is it preordained we are 
going to spend millions of dollars on that project? That is 
what that $14 billion or $15 billion is about.
    Mr. Dicks. Mr. Secretary, why don't you then edit your 
report that you sent to the committee and take out those things 
that you think should not be repaired or to be taken down?
    Secretary Babbitt. I am terrified of doing that. I don't 
want the National Trust for Historic Preservation to lynch me 
on a street corner.
    Mr. Dicks. So we have a problem.

                  deferred maintenance five-year plan

    Let us move on here. Last year you submitted to the 
committee a 5-year plan to deal with the most urgent deferred 
maintenance problems. This plan called for investing $2.4 
billion between fiscal year 2000 and 2004 to deal with the most 
urgent problems. These funds were in addition to normal 
expenditures for construction and maintenance, according to 
your staff. We understand there may be an updated 5-year plan. 
Is there one, and do you favor it? I assume you do.
    Secretary Babbitt. The answer is yes and yes. I think most 
of the difference is the plan for accelerating school 
construction and replacement of BIA schools. This has been a 
subject of much discussion, and the President's budget now has 
a very substantial amendment. We have got to deal with these.
    Now, in this year's budget, I neglected that in my 
protecting what we have discussion. We have got an increase of 
approximately $126 million for, I think, six or seven schools. 
We basically accelerated replacement schools on that whole list 
and said we ought to nail that in the next five years. We just 
ought to commit to doing it.
    Mr. Dicks. Mr. Secretary, there are a lot of numbers 
floating around regarding the baseline for expenditure for 
operation and maintenance versus new investment to work through 
the maintenance backlog. Your staff has indicated that fiscal 
year 2000 spending on construction and maintenance is $1 
billion, $37 million, an increase of $100 million. For fiscal 
year 2001, your budget reflects $1 billion, $172 million for 
these costs, an increase of $135 million. Are these numbers 
compatible with your 5-year plan?
    Secretary Babbitt. Yes, I believe they are. This year's 
budget is $1.2 billion, which includes maintenance and current 
maintenance and deferred maintenance and construction, and I 
think the deferred maintenance piece of that is about half of 
that.
    Mr. Dicks. As we understand it, your 5-year plan calls for 
spending $461 million in fiscal year 2000 for the highest 
priority problems, the so-called health and safety increment. 
As we understand this, and maybe you could put this in the 
record, that you know part of your funding is just for the 
standard construction and maintenance, but then there is this 
additional increment, and if you could put in the record or 
have your staff put in the record how this is funded, I would 
deeply appreciate it.
    Secretary Babbitt. Mr. Dicks, I will be happy to do that.
    [The information follows:]
    Offset Folios 40 to 42 Insert here

<SKIP PAGES = 003>

                          lands legacy program

    Mr. Dicks. Now, let me ask you this. On the Lands Legacy 
issue, and I realize that in the environmental community 
everyone wants new acquisition, but isn't there some possible 
way that we could try to look at--maybe in order to reach the 
goals of this committee is to have some kind of a split on this 
where we could take part of that money and use it for the most 
high priority, you know, maintenance requirements, in order to 
maintain the things we already have? I think some compromise 
here would be something that I would certainly want to think 
about or entertain.
    Mr. Regula. If you would yield, you would include 
inholdings, too?
    Mr. Dicks. You could have a split between new things and 
then taking care of your backlog. I mean, I just throw it out 
on the table for consideration, knowing full well that in some 
quarters it will be criticized.
    Secretary Babbitt. Mr. Dicks, let me just say a word about 
proportions here. There is this sort of notion that there is--
the Lands Legacy program is indeed large. The total is $1.4 
billion. Now, bear in mind that only half of that is in 
Interior and Related Agencies. So that takes it down to 
approximately $700 million, and existing expenditure levels are 
included in that $700 million. Now, what that means is that 
land acquisition, direct land acquisition, is part of existing 
expenditures. Now what that means is that the land acquisition 
request that is being made in Interior and Related Agencies is 
$71 million more for Federal land acquisition, that is all, $71 
million. Now, bear in mind that our construction, maintenance, 
taking care of what we have budget is $1.2 billion. We are 
asking for another $71 million for land acquisition.
    Now, to be totally comprehensive about this, there are some 
other requests that I should go through that are in the Lands 
Legacy piece. The State grants piece, we have already talked 
about that, is $150 million. That money must be matched. That 
is part of the answer to the State issue here. For every dollar 
we are sending out, we are getting another State dollar 
commitment. I have talked about the non-game piece. The 
endangered species piece is $65 million. If I were to finger my 
first priority, that would be it. We have kept the ball in the 
air on these habitat conservation plans, in the Northwest, in 
California, in Arizona and elsewhere, because we have some 
discretionary money to do some land acquisition to take the 
sting out of these plans.
    Well, that is the bottom line. I think that you have got to 
break that $1.4 billion down. We get half; a whole bunch of it 
is already in our base. The Federal acquisition increase of $70 
million, we need it.
    Mr. Dicks. Thank you.

                       land acquisition criteria

    Mr. Regula. One question on the Lands Legacy. Would you 
have criteria as to what land could be purchased, and would it 
be limited to land only?
    Secretary Babbitt. I think those are all excellent 
questions, and I think I would start with a yes answer to all 
those questions.
    Mr. Regula. It would seem to me that would be a minimum.
    Secretary Babbitt. I agree.
    Mr. Regula. Mr. Kolbe.
    Mr. Kolbe. Thank you, Mr. Chairman.
    Mr. Secretary, again, welcome to the committee. It is 
always a pleasure to have a fellow Arizonan here.

                    sonoran desert conservation plan

    You talked a little bit about--in fact, you spoke several 
times about the Sonoran Desert Conservation Plan, and I want to 
just talk a little bit more about that because, as you pointed 
out, it is a fairly unique and special plan. It really is 
ground-breaking and in many ways an attempt to bring the 
community together in a long-term effort to address the 
protection of endangered and threatened species, the 
conservation of habitat for wildlife, open spaces, and to deal 
with the issue of appropriate and sustainable growth.
    And what really is amazing to me is to watch how the 
community has been coming together to try to develop this 
balance, but as you well know, it is not an easy task, and we 
still have a long ways to go.
    There is really a very broad coalition that supports this 
plan. That is pretty unusual when you get developers and 
organizations like Defenders of Wildlife, Sierra Club, 
ranchers, home builders, and realtors and 20 government 
agencies at the Federal, State and local levels all working 
together. We also have a tribe that has taken action in support 
of the plan. University of Arizona and Pima County are all 
working together on this. So it is a pretty phenomenal 
achievement to bring together such a diverse coalition.
    We do have a lot of hurdles that face us on this. A 
significant amount of land is in an urban setting, and one of 
the major endangered species that is under consideration here, 
the pygmy owl, has significant far-reaching implications on 
land use decisions; but the community is pulling together, and 
I think everybody deserves credit. I can't say enough about the 
success story, and by the way, in response to something the 
Chairman said earlier here about the States being flush with 
money, this money does not go to the State of Arizona. It goes 
to the county, which certainly is not flush at all, with a 
very, very high tax rate for that county.
    It is the most complex plan that has ever been developed. 
Just by way of comparison, Mr. Chairman, the Sonoran 
Conservation Desert Plan is 10 times the size of the San Diego 
Multispecies Conservation Plan, and that was considered to be 
the most complex permitted conservation plan ever developed in 
the United States. It has to be based on sound and unbiased 
science.
    We are developing in the county a biological evaluation and 
an economic analysis so that environmental and fiscal impacts 
will be known. A lot has been done. Just to mention them, we 
have already accumulated over 1,000 geographic system aid areas 
and collaborated with numerous scientists and national experts. 
We have produced between 20 and 50 technical reports that will 
establish the preliminary Sonoran Desert Conservation Plan that 
is going to be published this summer. Regular meetings are 
being held by the steering committee. There has been four or 
five meetings a week at the neighborhood and interest group 
level. The younger population has been involved in the schools, 
in the Youth Conservation Employment Program, in recovery of 
species, and we have formalized the relationships between 
Forest Service and Interior as well as the Corps of Engineers 
and the EPA.
    I think it is the right way to do it, and I commend you and 
your Department for the efforts to support this. So my 
questions are kind of softballs in a sense to you because you 
have already spoken about it, but I just want to reiterate the 
importance of this and ask you to tell me how you view this 
Sonoran Conservation Desert Plan as setting a national standard 
and as a national priority, how you view it.

                        development of the plan

    Secretary Babbitt. Mr. Kolbe, there is not much I can add 
to that except to say that what I find to be so really 
encouraging about this is that this process is rooted in all 
the factions in the community. It is really quite remarkable. I 
am on my way out to Tucson Friday to meet with your dearest 
establishment supporters. They are a group of megadevelopers 
who are bought into this because they genuinely believe that 
the development values of Tucson are going to be maximized by 
this, and to understand that, all you need to do is pass 
through Phoenix on your way to Tucson, where the impulse of 
everybody does their own thing has simply destroyed the 
ecological setting of the city. It is nonexistent. You go to 
Tucson, and all of the sudden, here is a city which says, we 
are going to avoid the mistakes of the past, and they are 
engaged in doing it.
    I have a personal representative in Tucson now whose entire 
task is to facilitate the development of this plan. That is the 
extent of my personal commitment on this.
    Mr. Regula. Is this the largest HCP in the country?
    Secretary Babbitt. Well, the timber ones in the Northwest 
would cover more territory, but certainly among urban areas it 
is. And all of the Federal agencies are lined up right now 
working together. But don't you see, what it illustrates to me 
is that I believe when people look back at what happened during 
the late 1990s in this area, they are going to say, we moved 
from fragmented landscapes where the Sonoran National Monument 
was our exclusive commitment in Tucson, where Olympic National 
Park was our exclusive concern in the Olympic Peninsula, and 
said, as these landscapes begin to fill up and come under 
intensified pressure, you can no longer think of them in 
jurisdictional segments. You have to find ways to pass a 
landscape vision.
    It is incredibly complex stuff, but we have got enough 
working examples now that have come up over the last 6, 8, 10 
years that I think, inevitably, it is the way we will do 
business in the future, and it is therefore very important.
    And I have told this to my staff. We have about 300 of 
these HCPs in motion, in process right now. There were six when 
we arrived. I said we must devote our efforts to nailing down 
the ones that are under way and bringing them to conclusion. We 
have got to kind of slow down taking on new projects because 
these models must work. They have huge precedential value.
    Mr. Kolbe. Mr. Secretary, very quickly, the funding for 
this, the work that has to be done, the Federal share of the 
funding would come in the Cooperative Endangered Species Fund 
as I understand it. Do we have adequate funds there? Does your 
budget request contemplate moneys being set aside to make sure 
this plan gets done? This is one you don't want to see fail.
    Secretary Babbitt. Mr. Kolbe, we have a line item request 
in the Cooperative Endangered Species Fund of $65 million. We 
are not yet prepared to commit any of that in Tucson until the 
plan is done. I am keenly aware of your interest that there be 
adequate Federal funding.
    Now, let me just say that these other line items all 
relate. We are going to have strings on this matching State 
money, and I don't think there is any question that----
    Mr. Regula. What are the strings?
    Secretary Babbitt. Well, they need to be devised, and that 
is why your question is so important.
    Mr. Regula. I think we have to have those if we are talking 
about appropriating $400 plus million dollars.
    Secretary Babbitt. I accept that suggestion.
    Mr. Regula. Will they be in the record in your response to 
questions?
    Secretary Babbitt. I would be happy to address that with 
you, absolutely.
    [The information follows:]
    Offset Folios 51 to 59 Insert here

<SKIP PAGES = 009>

    Mr. Kolbe. Thank you.
    Secretary Babbitt. There are a variety of other 
possibilities. The Corps of Engineers' budget turned out to be 
a source of money for some of this. It all can be brought 
together.
    Mr. Dicks. The Corps isn't so bad, Mr. Secretary.
    Mr. Regula. There are 300 of these, none of which have 
reached fruition. Are you comfortable with the one that is 
happening in your area?
    Mr. Kolbe. I am comfortable with the process that is going 
on. Whether it is going to be done in a timely enough fashion, 
we have set a very aggressive time frame for it that is going 
to be very tough to meet. In the meantime, of course, an awful 
lot has stopped in the community while this is going on. So we 
need to be sure we have everybody working together to make sure 
that it is done in a timely fashion.
    Secretary Babbitt. There is also a ramp-up at the end of 
these. The reason is once all the biology is done, once you 
have brought everybody in, once the planning and zoning people 
have come in, there is always land to be acquired.

                           role of the states

    Now, to emphasize the importance of the role of the States. 
We were coming up against that brick wall in San Diego where 
this has all played out, and there was a $200 million gap at 
the very end, which we have now reached, and you know where it 
is coming from? It is going to be on the ballot on March 7th in 
California, a statewide bond issue which has enough money to 
fund the complete buy-out of the San Diego plan. That is why 
working with the States is so important.
    Mr. Kolbe. Let me just say that if we can get this done 
faster, and one of the ways we can get it done faster is if the 
Interior Department makes some of the funds available, we can 
push this up on a faster basis, and I think we will be talking, 
obviously, with you about that.

                            las cienegas nca

    Just one sentence, Mr. Chairman. I know my time has 
expired. I just wanted to say on a different subject, the Las 
Cienegas NCA, that I appreciate very much the cooperation that 
we have had with the BLM folks to make this a reality, and we 
hope to do this, what we think is the right way, without fiat 
by you and the Department, but rather to work cooperatively to 
bring this legislation to fruition. We are working along. We 
are working through all the problems. I think we are going to 
get there with the authorizing committee, meeting later today 
with the Governor on this subject. I appreciate the work that 
we have with the BLM on this.
    Mr. Regula. I want to say before we lose Members that any 
of you that would like questions for the record, please get 
them to Debbie, and we will get them to you, Mr. Secretary. 
Could we expect responses in 2 or 3 weeks?
    Secretary Babbitt. Sure.
    Mr. Regula. We may have additional follow-up we want to do.
    Mr. Nethercutt.
    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. I wish you well in your last year 
of service in the Department.

             washington state monuments and land purchases

    You have been quoted in the newspaper as one who is 
interested in having more national monuments. I am wondering if 
you have recommended to the President any designation of new 
monuments or wildlife refuges or wilderness-type designations 
or national parks in Washington State.
    Secretary Babbitt. I have not.
    Mr. Nethercutt. I am wondering if under the Lands Legacy, 
which is part of the administration's program, if you have 
advised the committee of any land acquisitions that are part of 
that Lands Legacy in Washington State. Are there any?
    Secretary Babbitt. Mr. Chairman, I can provide you that. 
What I would have to do is go back through the land acquisition 
budget of the land management agencies. There is not a separate 
label called Lands Legacy. That is the label for the program. I 
am sure there are acquisitions in the State of Washington in 
the budgets of land management agencies.
    Mr. Nethercutt. You believe there are in the 2001 budget?
    Secretary Babbitt. There have been for the last eight 
years, and there is for the next year, I am certain.
    Mr. Nethercutt. Do you have that there?
    Secretary Babbitt. Yeah. The request for this year is for 
the Willapa National Wildlife Refuge down on the Pacific coast; 
for Ebey's Landing, I believe that is a Pacific coast one. That 
is a national park unit. That is it for 2001.

                               dam issues

    Mr. Nethercutt. With respect to dam issues, I noticed a 
comment you made in a newspaper out West in connection with the 
Elwha Dam activity that you have an idea of requiring Federal 
hydrofacilities to go through a full-scale review and 
environmental impact statement, and my understanding is that 
under current law only one Federal facility, the Glen Canyon 
Dam in Utah, was forced to change its operations because of 
environmental damage. Is that your recollection?
    Secretary Babbitt. Congressman, the issue is this. It is 
really very interesting. The private sector gets a hydro 
license, and they build a dam which is up for renewal every 25 
years. It was a utility company executive who said to me, you 
have a double standard. You require that of the private sector; 
the public dams don't have to meet that burden, demonstrating 
their viability. My proposal is that we treat the public sector 
like we treat the private sector and say the dams should, in 
fact, go under license review every 25 years.

                            glen canyon dam

    Mr. Nethercutt. And the Glen Canyon Dam has undergone 
review and made some environmental changes; is that correct?
    Secretary Babbitt. Yes, but it is apples and oranges.
    Mr. Nethercutt. I understand it may be apples and oranges. 
I am trying to get a sense of what the cost was for 
environmental changes to Glen Canyon Dam, Utah.
    Secretary Babbitt. Okay. The review was triggered by a 
proposal to rebuild the generators to upgrade the generating 
capacity in the power plants at Glen Canyon. That was an action 
requiring an EIS process, and it turned into a really 
wonderfully productive review with support from this committee. 
It was a 10-year science program which was brought up in 
Northern Arizona University under the direction of the USGS 
called the Glen Canyon Environmental Studies, and they produced 
a plan. It is pretty expensive. I am sure it cost $10 or $20 
million of Federal money. And the changes were by consensus, 
including those the power companies and WAPA put in place.
    Now, the ongoing delta for power production was probably $2 
million a year less in hydropower revenues as a result of 
moving from peaking power to a more kind of steady-state 
generation.

                          environmental review

    Mr. Nethercutt. What is the status of your proposal that 
these Federal dams undergo environmental review? Is it just an 
idea at this point? Have you recommended it to the President? 
Is it going to be acted upon this year, as far as you know?
    Secretary Babbitt. It is my proposal. This is not an 
administration proposal.
    Mr. Nethercutt. This is your idea?
    Secretary Babbitt. This is a Secretary of the Interior 
proposal. Now, the future of it I think I will leave you to 
judge as to whether or not a recommendation from the Secretary 
of the Interior is to be viewed as just another offhand comment 
or as the beginning of an inevitable process of change.
    Mr. Nethercutt. I assume that you have given this some 
thought beyond just the idea stage. I have an appreciation for 
the cost that it would require to be done. And I assume you 
have some methodology for paying the cost for the 29 Federal 
hydrofacilities in the Pacific Northwest if they have to go 
through this review, and my question is, at what benefit?
    Secretary Babbitt. Well, that is why I cite Glen Canyon, 
because of the benefits; no one imagined the scope of the 
benefits. We proved that at Glen Canyon was that the way a dam 
is operated could recreate the original condition of the Grand 
Canyon downstream. You can see that below Glines Canyon on the 
Elwha River what happens when you put up a dam that traps all 
the sediment. Everything washes out downstream, and pretty soon 
there is a downstream corridor that looks like it was on the 
surface of Mars.
    What we learned at Glen Canyon is you can operate the dam 
in a way that recreates some of the original hydrography and 
you can bring what sand is left, stick it on the beaches, and 
recreate them. Is that worth doing? I think so. It has been 
enormously popular. Everybody was bought into it.
    Mr. Nethercutt. I understand everybody buys into it in that 
particular instance. However, you have 29 dams, and you have 
$10 to $20 million at least on that one dam. You try to 
replicate that, sir, I think you are looking at a tremendous 
cost, and I guess the question is, who is going to pay for it?

                    Platte River Dam FERC Licensing

    Secretary Babbitt. Bear in mind, this review isn't going to 
lead to the end of civilization. It is going to be once every 
25 years, and it would not have any predetermined outcome. It 
would say to people who operate dams that Pacific Corps does 
it, and all of your treasured private utilities do it. I might 
say that in the FERC licensing process, we have also had some 
spectacular results. The most interesting one is on the Platte 
River in Nebraska at McConaughy Lake. A FERC proceeding has--
and the context around the proceeding--has led to a remarkable 
systemic review of how to operate the Platte River dams that 
has yielded huge benefits to the whooping crane and all of the 
bird populations down the river at Grand Island. It can be 
done.
    Mr. Regula. What is the total number of Federal dams?
    Secretary Babbitt. Probably in the neighborhood of 20,000. 
Most of them we don't even know about. Many of them have simply 
been abandoned. Nobody knows about them. We discovered a 
wonderful non-Federal dam in California, really wonderful. It 
is 200 feet high. This is not a small dam. It is entirely 
filled with gravel and sediment. There is not one acre of 
storage space in it. Everybody walked away, and it is just 
sitting there. It would be worth revisiting some of these 
things.
    Mr. Nethercutt. Keep it in the idea stage, and maybe in the 
private sector that will be something that you can pursue.
    Secretary Babbitt. Congressman, your questions have 
reminded me that I am going to have to get busy on this one.
    Mr. Regula. Mr. Kingston.
    Mr. Kingston. Thank you, Mr. Chairman.

                        Amphibian Disappearance

    Mr. Secretary, it is a pleasure to have you again, and just 
kind of quickly bouncing around a couple of issues. Last year I 
brought up with you the amphibian disappearance issue, and we 
were able to get on the House side, I think, $5 million, and it 
was trimmed back in the Senate, but I think somehow between two 
agencies the number came out to $5. This year you are 
requesting another $2 million, which I support. I am very 
concerned, though, about making sure that this is a scientific 
study and not a political study, and the U.S. Geological 
Survey, that is still going to be the lead agency, right?
    Secretary Babbitt. That is correct.
    Mr. Kingston. And you have in your report some language 
about them coordinating interagency cooperation better.
    Secretary Babbitt. Correct.
    Mr. Kingston. And I also just want to pledge my support on 
that. So I don't really need a response, just want to say I am 
with you on that.
    Secretary Babbitt. I really appreciate your interest in 
this. I don't think a Congressman is ever going to be elected 
or defeated on the basis of their affinity for frogs, and that 
is just a way of saying I really do.
    Mr. Kingston. It might not, but they will continue to hop 
around from issue to issue on their own.
    Secretary Babbitt. Did Bill Brown go down and have a look 
at some of your issues with you?
    Mr. Kingston. No. It is interesting that none of the 
studies are being conducted in the Southeast, but I have talked 
to the scientists, and your folks have been extremely 
responsive, and I appreciate it, but I really believe that it 
is something we need to know about.

                      Cumberland National Seashore

    Also, I wanted to say in our district we have Cumberland 
National Seashore. We have been working very closely in the 
last couple of years with Don Barry, and we have had an 
excellent consensus moving along. A lot of times, 
unfortunately, amongst constituency groups, the bipartisan 
consensus building that sometimes starts in Washington ends up 
to be philosophical sniping back home, and, you know, there is 
a little bit of guilt from all sides on that, but despite 
occasional flare-ups along the way, your folks have been real 
professional, and I really appreciate what you all have done 
and what Mr. Barry has done.

                          Lands Legacy Program

    And then on Lands Legacy, and this has been bought up by 
the Chairman, I think there is an aggregate of about $35 
billion in State surpluses. And then in Georgia, for example, 
we have another $2.5 billion coming in over 25 years on tobacco 
money, and yet, in fact, today State employees are up 
campaigning for CARA, and on State dollars I am sure. And it is 
very frustrating because I know there is a lot of, you know, 
political payoff for all of us in land acquisition, but I do 
think that it is yesterday's model in terms of habitat 
preservation.
    I raised this issue recently with Ms. Clark and wanted to 
hear your views that at some point when every third step that 
we take is on Federal Government land, in America we need to 
step back and say, okay, how much land do we really want the 
Federal Government to own or the State government in 
cooperation, and is there another way to do it. And I always 
point out Mt. Vernon, Monticello and Williamsburg are all 
privately owned historic legacies and gems that will be there 
for our children's children, and I would love, as I know many 
of the committee members would on both sides of the aisle, to 
see a little more private role, deputizing the private sector 
so that they can continue to be great land stewards that they 
are and without government command and control of anything.
    And so with that in mind, your thoughts on that, and then I 
will ask you a follow-up to that.
    Secretary Babbitt. Congressman, I think there is plenty of 
room for all of the above. I wouldn't overstate the magnitude 
of the CARA proposal or the administration's Lands Legacy 
program. I told the committee earlier that the Lands Legacy 
program this year has an increase of $71 million for Federal 
land acquisition. That is a very small piece of our budget. It 
is a very important piece. There is a proposal for $150 million 
for State assistance grants, which would be matching money.
    I think that goes to the core of the CARA debate. Is it 
legitimate to appropriate $150 million with guidelines as 
matching money for Georgia to undertake what is a remarkable 
program which the Governor has put forth? It is the most 
comprehensive open space program of any State, except for 
California and New Jersey and Florida probably, but it is 
comparable. Does it make sense, when localities and States put 
up these vast sums of money, to provide some matching money? I 
submit that it is. I agree that you can differ on that. It 
seems to be a nice way of saying everybody is in this together 
and generating some consensus. Everybody shows up with some 
money, everybody has a say in how the plan plays out, and 
everybody is brought together. I think it works.

                         Land Acquisition Study

    Mr. Kingston. Well, let us say that is the case, that, you 
know, $150 million is small, it is a dollar-for-dollar match, 
there is a legitimate reason to continue on the existing road; 
whereas there is legitimate concern to question that, hey, they 
have got plenty of money, let them spend their own money, that 
way they are going to prioritize it better. But since there are 
two different philosophies on here, but both want protection of 
the land, would you support us putting something in the bill 
saying let us have a study, you know, on how much land the 
Federal Government owns and what is our purpose, at what point 
will we reach the saturation point? It is a third now. Should 
it be a half? Should it be--and I think Mr. Dicks mentioned, 
was it Oregon, 50 percent now is under Federal conservation?
    Mr. Dicks. Washington.
    Mr. Kingston. Washington. Is that a good thing? I think in 
the East we would probably be very concerned and consider that 
high, whereas the West is a little more used to it.
    Secretary Babbitt. Congressman, I wouldn't be very 
interested in that study for this reason. It is basically a 
political judgment. You can get all the academies and 
scientists together to make studies, but the bottom line is 
what are people comfortable with, and I think you get that from 
history, from cultural considerations, from economic 
considerations. Bear in mind, there are a lot of ways of doing 
this. I think there is going to be a big move towards 
easements. We talked about that last year. The issue is not 
title to the land. The issue is are there patterns of land use 
that are reasonable, that people support, that provide a 
reasonable economic expectation for private landowners which 
are consistent with dealing with open space, sprawl, the kinds 
of things that are really on people's minds. I think that you 
and I were sent up here to make those judgments.
    Mr. Dicks. Will the gentleman yield for one point, a brief 
point?
    Mr. Kingston. Yes.
    Mr. Dicks. What I was talking about is habitat conservation 
plans, which are a means, under section 10 of the Endangered 
Species Act, for private sector people--let us say you have got 
Murray Pacific in the Pacific Northwest. They can go in and do 
a habitat conservation plan with the Department of Interior, 
Fish and Wildlife Service, and then have 50 to 100 years of 
certainty about the operation of their private property. So it 
is a way to meet your ESA obligation and then have the ability 
to operate in the future.
    Mr. Kingston. Which is exactly what I am raising it for, 
because it would appear that we should--for example, BRAC, the 
Base Realignment Closing Commission, the point of that was to 
in a nonpolitical way assess how many military posts and bases 
do we need and what should be open, and what I am suggesting is 
that we should make that same assessment of land in our 
policies, as a matter of Federal policy, not to be political, 
but to say do we want to have the government owning half, or 
should it be in easements, or should it be State, or should it 
be Federal. I really think as members of this committee we 
should not fear this. This is not some guise.
    Now, I would suspect that if Americans knew the Federal 
Government already owned one-third of the land, they would 
think we were kidding.
    But the point is that just as the Base Realignment and 
Closure Commission was very healthy for the military to go 
through, it might--not a BRAC-type commission, but an 
assessment of how much we own and what our policy is in the 
future, and, hearing from the forestry service the other day on 
the disappearing $2 billion and what gets cut and what doesn't, 
it should be something we should consider. I know my time is 
expiring.
    And, Mr. Secretary, let me say also, that is not a 
criticism, as Mr. Wamp pointed out the other day. The folks on 
this committee have disagreements here and there, but we are 
all in the same interests, you know, in terms of protection.
    Secretary Babbitt. Congressman, back in 1970 Congress 
chartered a public land review commission. They took it very 
seriously. They appropriated a bunch of money, had Presidential 
appointees, congressional appointees, put together a staff and 
went after this issue for two or three years. A report was 
published, which I think has served a useful purpose. I think 
it set out a number of ideas and directions to follow.
    Mr. Kingston. Maybe, you know, 30 years later we should do 
it again, and again, Mr. Secretary, this is not a criticism at 
all. This is just a concern.
    And, Mr. Chairman, I don't know if we are going to have 
another round.
    Mr. Regula. Well, it depends on the time. We want to wrap 
up here.
    I want to say, as you know, Mr. Kingston has had a great 
interest in frogs, and scientifically that is a very 
appropriate concern because they seem to reflect the impact of 
environment on life. When I was doing my Christmas shopping at 
the Nature Conservancy, I came across a frog tie. So I couldn't 
resist ordering it for Mr. Kingston. I want to present this to 
him this morning.
    Mr. Kingston. I appreciate that, Mr. Chairman. Well, I have 
no choice but to put it on. So, Mr. Secretary, I will get one 
for you, too.
    Mr. Regula. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Secretary. Thanks for the 
invitation to come see the condition of Ellis Island, and I 
plan on doing that in two weekends and look forward to working 
with your people and doing that very thing.

                       across-the-board reduction

    Let me ask, last fall we wrapped some of the final 
appropriations bills into one package and part of that 
agreement was this across-the-board reduction, I think a .38 
percent. Was that ultimately across the board? Did it apply 
within the Interior Department to everything equally, land 
acquisitions and maintenance and geographically? Was it really 
across the board in the final analysis?
    Secretary Babbitt. Mr. Wamp, let me say it was entirely 
nonpartisan in the final analysis. Was that your question?
    Mr. Wamp. Was it across the board? Were there any 
acquisitions that were reduced?
    Secretary Babbitt. No, it was not across the board. I would 
only add that the Office of Management and Budget, of course, 
made the deal, and they made the allocation decisions. So it 
was kind of above my pay grade.
    I would claim credit only for one thing. The reductions 
were made without regard to Members, districts or party 
affiliation, but it was an OMB decision.
    Mr. Wamp. I yield to my amphibian friend.
    Mr. Kingston. Mr. Chairman, I just want the record to 
reflect that this matches my pants perfectly. I appreciate your 
taste.

                             fte increases

    Mr. Wamp. Mr. Secretary, do I understand, and this, again, 
is all attempted to be submitted in a positive way, but if you 
include fiscal year 2000 and next year's request for 2001, your 
Interior Department will add 2,525 FTEs.
    Secretary Babbitt. This year and next year?
    Mr. Wamp. Yes.
    Secretary Babbitt. I think that is about right.
    Mr. Wamp. The people in Tennessee need you to explain to 
this committee how in an era that big government is supposed to 
be over and a time where we are reinventing government, why any 
Federal department has to add 3,000 employees in a 2-year 
period when we are looking for more efficient limited 
government that is more accountable to the people, why that 
kind of growth.
    Secretary Babbitt. Mr. Wamp, I would be proud to come to 
Tennessee and explain to your constituents and the people of 
Tennessee that during my tenure as Secretary of the Interior, 
we have slashed 10,000 FTEs from the payroll of this 
Department. In those eight years, the number of visits to 
national parks, the number of kids in Indian schools, the 
number of mine reclamation sites that we have worked on has 
gone up. I would be happy to explain to your constituents how 
it is we have handled the workload increase, by any measure, of 
more than 30 percent in eight years while cutting 10,000 people 
from the Department payroll. I will be happy to do that.

                 maintenance needs vs. land acquisition

    Mr. Wamp. Let me ask you this question. What do your 
related agencies, Interior agencies, hear from you as the chief 
on their compilation of their budget requests when we have a 
hard time getting them to commit their O&M needs that would 
have bearing on their acquisition requests? Do they hear from 
you that before they make requests for land acquisitions, that 
they must look at what their maintenance needs are? Because 
when we talk about a third of the land belonging to the Federal 
Government, that is a surprise to people in Tennessee, and it 
is also a surprise when we say to them in honesty that we take 
care of some of these assets very well, and others we ignore, 
others we do not maintain, and it continues to grow. Do you say 
to the people under your direction, you must look at the 
maintenance needs before you request any more land?
    Secretary Babbitt. We discuss these issues all the time. We 
discuss the trade-offs. I think it would be a terrible mistake 
to freeze land acquisition. Before you came, I gave several 
examples--the most interesting one I think being the Royal 
Teton Ranch, which was offered by Malcolm Forbes to the 
government in 1981. It had to be acquired if we were going to 
protect the bison herd at Yellowstone. We had to have a winter 
range. Using your kind of logic, the administration refused to 
make the acquisition. Here we are 20 years later after endless 
lawsuits, chaos in Montana, the bison herd becoming a national 
issue. We have managed to acquire the remnants of half of the 
Forbes ranch for twice the price we could have paid in 1980, 
and by the time we get around to acquiring the other half, the 
sum total of that exercise in wisdom is that the government 
will probably pay at least ten times what it could have gotten 
it for in one piece in 1981. That is the problem.
    Mr. Wamp. Using your passionate ``have to,'' we have to 
catch up on our backlog maintenance at the Fish and Wildlife 
Service, at the Park Service, at the Forest Service. We cannot 
borrow our way into prosperity, and we must make more headway 
on catching up with our backlog maintenance, or 10 years from 
now people on this committee are going to have nowhere to turn, 
sir. We can't keep adding to inventory until we take better 
care of what we have. The American people deserve the truth on 
that, and they haven't gotten it.
    Secretary Babbitt. Well, I take exception to that, of 
course, but I will let it lie there.
    Mr. Regula. Let me say that I think we have helped you on 
downsizing, i.e., by eliminating the Bureau of Mines, in a 
number of places. This committee has been instrumental in this 
regard.
    Mr. Peterson.
    Mr. Peterson. Thank you, and good morning. You were 
speaking to the power of the State game and fish commissions to 
promote wildlife and fisheries. You passionately shared with us 
your view that that is where the power is. They are the ones 
that can make the difference.
    Secretary Babbitt. Yes.

                   audit of fws federal aid programs

    Mr. Peterson. Pittman-Robertson funds, that was their money 
that went to those agencies. I have had a lot of comments in 
Pennsylvania about their concerns of the slush funds that were 
developed in the Fish and Wildlife Service, which was on your 
watch that were used for travel and for personal grant programs 
and special interests they had. What is your reaction to that 
revelation?
    Secretary Babbitt. Oh, I think the fund has been properly 
administered. I think it is a terrific program. I think the 
results of the audit may be some rebalancing of and redirecting 
of some of the priorities. It has been administered in an 
entirely legal and proper way. You can disagree with some of 
the allocations that have been made, but this witch hunt that 
is going on, alleging all sorts of illegalities, is just 
another political witch hunt, frankly.
    Mr. Peterson. You wipe that off totally as a witch hunt? 
You totally support the Fish and Wildlife Service?
    Secretary Babbitt. You didn't listen to what I said.
    Mr. Peterson. Yes, I did. I listened very closely, sir.
    Secretary Babbitt. Well, I stand on what I said.
    Mr. Peterson. Would you repeat that? I want to make sure I 
heard you correctly.
    Secretary Babbitt. Congressman, I offered to repeat it; you 
said I couldn't. Now you are asking me to repeat it.
    Mr. Peterson. I am asking you to.
    Secretary Babbitt. Okay. What I said was this: The audits 
of those funds are serving a useful purpose. They are raising 
some significant judgmental questions about the decisions that 
are made within the framework of the law. That is entirely 
proper, and I would be ready and willing to discuss whether or 
not there should be different priorities, whether there are 
some of those things that should not, as a matter of policy, be 
done.
    But the witch hunt that is going on is headed in a 
different direction. It is saying there are a bunch of 
criminals over there, public money is being abused, and that is 
simply not the case.
    Mr. Peterson. I guess I would share with you that it is an 
agency that refused to answer Mr. Regula's question last week, 
and he asked them--we had a discussion here about the their 
ability to purchase land without congressional approval, which 
is not normally done in government.
    Secretary Babbitt. It is normally done in government.
    Mr. Peterson. It shouldn't be.
    Secretary Babbitt. Well, that is another matter, and, you 
see, that is my point. We can disagree on policy, but this 
vindictiveness and antagonism, in my judgment, has no place in 
this committee. It has not been the norm of our relationships 
over the last seven years and I reject it.

                 notice to committee on land purchases

    Mr. Peterson. Okay. You are speaking to--let me finish my 
point here. Congressman Regula asked, I thought, a very fair 
question. He asked Ms. Clark if she was willing to give 60-day 
notice to the committee on land purchases, and she refused to 
say yes, and I was taken back by that. I thought that that was 
not permission or approval, just can you notify, and I shared 
with her my displeasure that any Federal agency didn't feel 
they should notify some government entity that represents the 
people because that is our job. So I guess----
    Mr. Regula. If you would yield, when that acquisition is 
made, we take on the burden of operation and maintenance of 
that land, and yet we are not party to the creation of that 
obligation.
    Mr. Peterson. And let me just share with you, Mr. 
Secretary, when an agency, any agency, reaches a level of 
arrogance that I have sensed with them, they will soon lose the 
public trust. That has happened in Pennsylvania. You know, 
Pennsylvania Game Commission is struggling to get its rightful 
place. A wonderful job they have done historically, because of 
some arrogance of past leadership where they lost the trust of 
the sportsmen and the hunters, and I sense personally an 
arrogance in the Fish and Wildlife Service that needs to be 
corrected. I mean, no agency should look down on the folks who 
sent us here to help them govern, and that is just a personal 
observation I would like to share with you, and I hope you 
would take it positively.
    You have talked a lot about taking care of what we have in 
your opening comments. You said you thought you were getting a 
handle on this issue, especially in health and safety. Mr. Wamp 
just raised that question with you, and for some reason you 
took offense to it and didn't answer it. I have always found 
Mr. Wamp to be a pretty decent guy. I didn't think it was that 
pointed a question, but let me just remind you that when you 
add up all of the agencies that manage land and property in 
this country, we are talking approximately a $30 billion 
backlog. Now, you said that was overstated, and let us say it 
is 20 percent overstated or 30 percent overstated, it is still 
a huge amount of money.
    And I want to tell you historically I have a 26-year 
business background, 8 years local government, 19 years at the 
State, and this is my 4th year in Congress, and at the State 
level, you know, it was historic. There was only about six of 
us that fought for money to manage the public properties, the 
State parks and historic sites and the Forest Service in 
Pennsylvania. There was only half a dozen of us that cared 
about their budget and were fighting to get money in them. Now, 
I see nothing different here.

                    managing the maintenance backlog

    Now, your administration has a huge effort to increase 
public ownership, but, I mean, I think you will be judged more 
in the end on how you have managed this, and would you 
reconsider your refusal to answer Mr. Wamp's question of how do 
you feel you have improved the management, the backlog? I think 
it is really what he asked you.
    Secretary Babbitt. Congressman, we had a lengthy discussion 
at the outset of this hearing. I would be happy to go back. My 
opening testimony went into this in some detail.
    Mr. Peterson. I heard it. I was here.
    Secretary Babbitt. Do you want me to go through that?
    Mr. Peterson. Well, you really think you are leaving the 
system with a lesser backlog than you inherited?
    Secretary Babbitt. Oh, certainly. There are all kinds of 
things that you might deign to consider. First of all, I didn't 
even mention the proprietary interest reforms that have been 
made in the National Park Service. One reason we have a 
maintenance backlog in the National Park Service is because the 
monopoly concession contracts put the burden of maintaining the 
place on the National Park Service and guarantee monopoly 
profits to the concessioners. I think we have turned that 
around. I think we have begun to make a real difference, 
notably in Yosemite where the concessioners are now, as part of 
their concession contracts, competitive concession contracts, 
being required to shoulder the maintenance and replacement 
burden.
    Mr. Regula. Which historically we have done.
    Secretary Babbitt. Yeah, exactly. What I would suggest, 
Congressman, if I may be respectful, but direct, is no one 
would ever accuse Jamie Clark of being arrogant. For some 
reason, committees up here have started on a process of beating 
up Jamie Clark, and I frankly don't understand it. Now, 
witnesses respond in some measure to the nature of the question 
and the attitude of the questioner, and it may well be that 
Jamie Clark was preserving her option as an agency head to come 
back and talk to her boss. There is nothing outrageous about 
that. This is something we can work out. I would be quite 
content to do it if we would all lower our voices and quit 
accusing people of being arrogant, mean-spirited, quasicriminal 
people. That doesn't describe Jamie Clark. She is a career 
civil servant.
    Mr. Peterson. Can I speak to that? I agree with you 
personally on her, but let me tell you agencies have an 
atmosphere that goes beyond the person who is leading them at 
the time. You know, I watched the Game Commission in 
Pennsylvania become a very arrogant organization. There were 
times the new leader tried to change that but couldn't change 
the character of the agency, and that can happen in a Federal 
agency, too. The person at the top doesn't totally change an 
agency because of how they are personally, but I think agencies 
can become arrogant. I think there is an arrogance in that 
agency that needs to be corrected, and that is not particularly 
her personally, okay, if I can correct that.
    Is my time over?
    Mr. Regula. Well, please be brief.

                   public vs. private land ownership

    Mr. Peterson. Just one quick here. You talked about the New 
Jersey open space program where the Feds--and there is a lot of 
those around the country, and I am supportive of those, but I 
guess the part that was mentioned earlier were 33 percent 
Federal ownership, and you include States where 45 percent 
government ownership is not a real good inventory of local, but 
I am told we are probably over 50 percent ownership. Now, when 
you are in a place like New Jersey where there is not a lot of 
public ownership, you need more, but when you look at States 
like some of the Western States that are 70, 80 and 90 percent, 
my district is probably 45, 50 percent publicly owned, State 
and Federal, there is immediately resistant to more. There is 
not a shortage of green spaces.
    There are lots of States looking where is some private land 
so we can have an economy so we can properly take care of 
public. You know, that is the side that I think is often 
forgotten. Is 50 percent of America owned by government 
agencies adequate? Is there public land, especially in the 
Federal system, that maybe should not be somewhere else where 
we could swap dollars and free up some land for the private 
side so there is room for a private sector? Would you answer to 
that?
    Mr. Regula. Let me add. Do you think we should make the 
exchange procedures easier to do to accomplish some of these 
goals as part of this overall picture?
    Secretary Babbitt. I do think that the exchange 
possibilities remain really an outstanding way of dealing with 
these issues. There is no shortage of land in this country. 
There isn't. This ideological debate has been going on since 
1789 when Alexander Hamilton took up the cudgels and said, we 
have got to sell off the public lands. The debate has been 
going on ever since. I am not into all of that. I am a weary 
pragmatist.
    I come from the point of view that there is plenty of 
private land. We can make life in the meantime, as the debate 
goes on, much more workable for everybody with well-calibrated 
land exchanges, something we have not given enough time and 
effort to, in my judgment.
    The one we worked out in Utah, and, of course, it came 
before this committee for appropriation, was an absolute 
example of that. The Governor was interested in doing it. We 
took a map of the State of Utah, and we sat down over a January 
weekend and said, this land configuration makes no sense at 
all, and we actually swapped off of both sides of the 
legislature about a million acres of land to everybody's 
benefit. There ought to be more of those. It is a good idea.
    Mr. Regula. You sound like a compassionate conservative.
    Mr. Hinchey.
    Mr. Hinchey. Mr. Chairman, thank you very much.
    Mr. Secretary, it is always a pleasure to see you and to 
listen to you, and to see that after 16 years of public service 
your enthusiasm has not been blunted, nor your sense of humor 
eroded. Since it may be the last time that we get a chance to 
see each other in this particular forum I just want to extend 
my appreciation for your public service, and particularly for 
the service you have given to the country as Secretary of the 
Interior. I think you have done a great job, and millions of 
people recognize that, respect it, and are indebted to you for 
it.
    The budget that you presented is a very good one. It is a 
very thoughtful budget, and I think it is a budget that 
recognizes a commitment to the environment that goes beyond 
some that we have seen in previous years, particularly the 
Lands Legacy Initiative. You said that it is only a small 
overall increase, but nevertheless it is a significant 
increase, and I think that it will do some significant good. I 
notice that among the areas that are proposed to be protected 
are watershed areas, the Chesapeake Bay, the delta of the 
Mississippi, Raritan in New Jersey, and some places along Long 
Island. I think that it is very important that these watershed 
areas are getting this kind of attention.
    There is another watershed that I am interested in, and I 
would appreciate your thoughts on this issue. Ever since the 
cryptosporidium incident in Milwaukee with regard to the 
contamination of a public water supply, there has been a major 
effort on the part of EPA to protect public water supply, 
surface supplies, and reservoirs. The way EPA is doing it is 
basically to tell communities that they have either got to 
protect their watersheds, the streams that flow into those 
reservoirs, or they are going to have to move to a filtration 
system. The filtration system is a much less satisfactory 
solution to that problem, and in fact, I believe one might 
argue is replete with its own array of problems. So the best 
way to do it, the best way to protect those watersheds, is to 
protect them from development that is going to injure them.

                     new york city reservoir system

    I am wondering if you see a role here, Mr. Secretary, for 
the Lands Legacy funds to cooperate with States and communities 
that want to buy land or buy easements which will keep open 
space in the watersheds of these reservoirs, in order to 
protect them. I am particularly interested in the New York City 
reservoir system in this context, both the Catskill and 
Delaware system, because they are under increasing pressure 
from development. Although efforts have been made to protect 
them, I believe those efforts are inadequate, and I am 
wondering if you have any thoughts on this, or is there any 
discussion between Interior and EPA, or if there may be some in 
the future.
    Secretary Babbitt. Congressman, the example you cite really 
hasn't gotten enough national attention. New York City was 
facing a bill of about $5 billion to put up filtration plants 
because of the water quality issues in the Catskills. New York 
City went out to the Catskills and said, let us see if we can 
work on this. They invested a lot of money in farming--it is a 
dairy area up there among farms--and they got the water quality 
issues under control. They need some continuing effort, 
particularly this easement issue, to prevent incompatible 
development. The farms aren't the long-run problem, like all 
the rest of them.
    I would think that if we could get this Stateside matching 
program up, it would really be useful to do what the Chairman 
suggested, and is to write in some criteria for how the 
Stateside money is to be used. This committee has an interest 
in setting priorities, and that you could very easily say it 
would be for compliance with State obligations, under State or 
Federal Endangered Species Act, watershed protection of 
priority watersheds as identified by EPA, that kind of thing. I 
would be amenable to working with the committee to try to see 
whether or not you could work those kind of priorities.
    Mr. Hinchey. So you think there is some area for us to 
operate here? Mr. Chairman, I would just suggest that this is a 
growing problem all across the country in metropolitan areas 
that receive their water supplies from reservoirs that are 
often located some distance away. The watersheds of these areas 
are outside the jurisdiction of these metropolitan areas, and 
there is no way for them to protect and therefore, the 
metropolitan areas must rely upon the goodwill of individual 
citizens and the oversight of the State governments. I think 
that watersheds are areas that really need more attention, and 
I would suggest that maybe this is something we might be able 
to look at.
    Mr. Regula. If you will yield, as you know, the EPA has 
proposed a new rule regarding the total maximum daily load of 
pollutants in surface water. Are you familiar with that?
    Mr. Hinchey. Yes.
    Mr. Regula. It somewhat fits with what you are talking 
about here, and yet I think a question is whether this is 
needed. It would have an enormous impact. If you cut a tree, 
you have to get a license, because maybe some soil will escape. 
And then you get into agricultural activities. How did New York 
control agriculture from putting any pollutants in their water?

                   cooperation on catskill watershed

    Secretary Babbitt. New York City has had a really 
interesting experience on the Catskill watershed, and they have 
done it really without a lot of Federal oversight there because 
they are working with the farmers in the Catskills in a 
completely cooperative way. New York is basically saying we 
can't tell you what to do; all we can tell you is that if we 
can't work this out in some way, residents in New York have got 
a $4 billion bill for filtration plants. So what they have done 
is invested a couple of million dollars in farming practices, 
catchments, water containment particularly, and it is working. 
It is an interesting model because it is not being driven 
directly by Federal regulation.
    Mr. Hinchey. There is another aspect of this which is not 
always as visible, and that is that in watershed areas there 
are development interests who take cover behind agriculture 
because agriculture is regarded by the general public as a very 
good and wholesome thing. Development interests hide behind the 
skirts of agriculture, so to speak, to set up circumstances 
whereby developments can be accomplished which will be 
injurious to the system, pretending that it is only agriculture 
that they are interested in.
    I have seen this occur, particularly in New York, and I 
imagine, takes place in other areas as well, but what is at 
stake here is a resource which is literally invaluable. If you 
have a water supply system that is supplying roughly somewhere 
between eight and ten million people currently, and is likely 
to be called upon to supply water for an additional several 
million people in the foreseeable future, and that system is in 
danger of serious degradation, you have got a major problem on 
your hands.
    So this is something that really has not gotten the kind of 
attention that it deserves, and protecting watershed is 
something that we have to take a look at in order to 
participate in providing solutions, helping communities produce 
solutions.
    Mr. Regula. When you respond to questions, and you are 
going to give us the standards that you are developing for the 
State Land and Water Conservation funding, as to what criteria 
they have to meet, I think any suggestions you have on Mr. 
Hinchey's concern would be legitimate. Somebody needs to pay 
attention to that, and maybe this fits with the Everglades 
issue, too, because of how we deal with the water, particularly 
in the aquifer on the east coast of Florida.

                          usgs science budget

    Three quick questions, and I know Mr. Dicks has a couple. 
Yesterday, I visited USGS, and it has been our premier 
scientific agency. I am hoping that at least all the agencies 
under your jurisdiction use science as a basis for decisions. 
Yet I don't think your budget this year supports enough core 
science programs as done by USGS which are essential for all 
agencies, and I would like your observations on that.
    Secretary Babbitt. Mr. Chairman, in aid of total candor, I 
agree with you. OMB has not given the level of support to basic 
science at GS that it deserves. I am talking out of school, but 
those are the facts, and I will be happy to work with you.
    Mr. Regula. This will be a challenge for our committee to 
maybe adjust OMB.

                  homestead air force base development

    Second the issues of development at at question, Homestead 
Air Force Base is very controversial, as you know, because of 
its close proximity to Biscayne National Park and Everglades 
National Park. The Administration supported this airport 
development in 1993. Have you had a change of heart down there?
    Secretary Babbitt. Yeah, I sure have.
    Mr. Regula. How about others?
    Secretary Babbitt. I speak only for the Department of the 
Interior.
    Mr. Regula. So you don't think it should be developed. Do 
you agree with the people who are concerned about it?
    Secretary Babbitt. Well, let me tell you what has happened 
down there since 1993. It is really quite interesting. In 1993, 
south Dade was really a disaster zone as a result of Hurricane 
Andrew. It was really on the ropes. It has rebounded a long way 
since then. It is prime development property.
    Mr. Regula. Homestead?
    Secretary Babbitt. Oh, yeah. There are a lot of other uses 
for that property.
    Mr. Regula. How big is it, a couple of thousand acres?
    Secretary Babbitt. Oh, surely. It supports a significant 
air base, so it has got to be several sections of land.
    Mr. Regula. Have we abandoned it as an air base?
    Secretary Babbitt. Not entirely, but it is being BRACed 
out. I think there may be a National Guard operation or 
something which will continue, but the Federal land ownership 
is being disposed.
    Now, what happened in the last six years is a number of 
other development proposals have surfaced that would be, in my 
judgment, more compatible, which would cause less damage and 
provide just as much economic activity and employment.
    Mr. Regula. So you are saying the Homestead development 
does contain some threats to Biscayne and the Everglades?
    Secretary Babbitt. As an airport, I believe so.

                         vieques in puerto rico

    Mr. Regula. The last question I have is, we gave you $196 
million to rebuild Yosemite NP several years ago. The 
Administration is offering up an offset of $5 million out of 
this restoration money in order to fund the Puerto Rico 
project. What do you think about that?
    Secretary Babbitt. Well, I am not thrilled by it, but we 
need both. Let me say this, because I am not here to criticize 
my superiors; I am here in this case to praise them. The White 
House has worked out a deal for Vieques in Puerto Rico which is 
really pretty terrific, and the Governor of Puerto Rico 
supports it. Basically what we had out there was an 
insurrection.
    Mr. Regula. In Yosemite?
    Secretary Babbitt. No, in Puerto Rico.
    A deal has now been worked out in which a large piece of 
Vieques is going to be set aside in a conservation trust. The 
deals are still all being worked out in which the naval 
exercises will be scaled back, in which there will be a 
referendum for the people of Vieques, which appears to be 
satisfactory to the Governor of Puerto Rico, to the Navy, to 
everybody. We have got a big conservation kick out of it in 
terms of open space, which is desperately lacking in Puerto 
Rico.
    Now, in order to close that deal, OMB marched a lot of 
agencies to the blood bank. I refused to give voluntarily, and 
the result was that my blood was given from Yosemite. It is not 
a good place to take it. I would hope that we might--Mr. 
Trezise, am I too far off base?
    Mr. Regula. There is always the fifth.
    Secretary Babbitt. They are entitled to the $5 million. It 
is an important thing. It involves this bioluminescent bay, 
which is a----
    Mr. Regula. You are saying Puerto Rico is entitled to the 
$5 million?
    Secretary Babbitt. It goes to the Foundation, and it is in 
connection with conservation and protection of biological 
resources.
    Getting the $5 million to take care of it is a good idea. 
All I object to is taking it out of Yosemite, where, after 
seven long years of fighting and quarreling in this committee, 
in the Congress and in California, in Yosemite, we are now 
coming home on a transportation plan that everybody thinks is a 
pretty good deal.
    Mr. Regula. I think when we structure our budget, maybe we 
ought to try to do both, but you have got to suggest another 
place where we can take it from.
    Secretary Babbitt. I will be happy to try to figure that 
out.
    Mr. Regula. Mr. Dicks.
    Mr. Dicks. Well, thank you for trying to work that out, 
because I know it is very crucial to the United States Navy. By 
the way, we bomb Oregon from Washington State, so these things 
happen.

                            elwha river dams

    Just quickly, can you give us any update on the acquisition 
of the two dams on the Elwha? Are we closer to finishing this 
agreement?
    Secretary Babbitt. The answer is, from Mr. Trezise, and I 
read his writing, we did not close yesterday.
    Mr. Dicks. Did not?
    Secretary Babbitt. Minor deed problems, and one of the 
attorneys is on vacation.
    Mr. Dicks. Is that theirs or ours?
    Secretary Babbitt. One of their attorneys is on vacation.
    Mr. Dicks. All right. Well, as you know, we have set a goal 
of February 29th, which is today, to get this done in our 
appropriations bill, but, you know, we just hope we can get it 
done as quickly as possible.
    Secretary Babbitt. We are not stalling you around on this. 
We are proceeding to closure, I promise.
    Mr. Dicks. Let me go back to this backlog thing on another 
subject because of your responsibilities in the Cabinet. 
Obviously, the Forest Service is not part of your jurisdiction, 
but, you know, the Forest Service has told us that they have an 
$8 to $10 billion backlog on forest roads. Now, do we have a 
similar backlog for road maintenance on the BLM roads?
    Secretary Babbitt. No.

                     blm roads maintenance backlog

    Mr. Dicks. We must have some backlog. Could you put in the 
record whatever that backlog is, because, again, you know, we 
are talking here as people are all trying to do the same thing. 
I worry about this backlog on the Forest Service roads 
particularly in the Northwest because here we are with this 
incredible salmon problem, and, you know, deteriorating roads 
in the National Forest are a major factor in getting silt and 
blowouts in these rivers that adversely affect the salmon.
    Secretary Babbitt. They have a problem which for the most 
part we do not. We have some of it on the OMC lands in Oregon, 
generally not elsewhere. The Forest Service for 50 years has 
been building logging roads. They have to be built to a 
relatively sturdy standard, and once built, for the most part 
traditionally they were left open for public access. So you see 
the Catch-22 that they get into. This is access for a round of 
logging, and pretty soon you have got another thousand miles in 
a road network. BLM doesn't have that kind of problem.
    Mr. Dicks. Whatever it is, put it in the record.
    [The information follows:]

                     BLM Roads Maintenance Backlog

    The BLM manages over 61,000 miles of roads, and maintains 
10,000 miles of that total annually. The Bureau's facilities 
management system indicates that the road maintenance backlog 
totals more than $150 million. In FY 2000, BLM is updating its 
condition assessments on a statistically significant sample of 
roads to calculate the road maintenance backlog. When this 
update is complete, the BLM will have a more precise estimate 
of the current road maintenance backlog.
    The BLM's highest-priority road maintenance needs are 
included in the Department's five-year deferred maintenance 
plan. The plan includes $30 million for BLM's priority road 
maintenance projects, with $14 million of that total allocated 
to western Oregon.

    Mr. Dicks. But again, you start piecing it together, and I 
think you took care of your problem by getting yourself into 
the Highway Trust Fund. The Forest Service has not yet been 
able to do that, so they are not included for 5 years in TEA-
21. So they are not benefiting. They have to come up with this 
money out of their own budget, and they even took our 
ecosystem, our jobs in the wood restoration money that was 
under the President's forest plan to repair roads with, because 
when you looked at it, the greatest threat to the environment 
was these roads.
    So I just urge you to do whatever you can do in the Cabinet 
to try to help us find a fix for this, because I think this is 
one of the major problems we face in getting these salmon runs 
back.

                        preserving forest health

    Secretary Babbitt. Let me just mention one more thing that 
is a cause of mine, and that is the forest health and forest 
fire issue. The GAO ran a study on the Forest Service, which is 
in your appropriation cluster.
    Mr. Dicks. Right.
    Secretary Babbitt. GAO did a study about the forest fire 
hazard, and it is going to trigger a response from the land 
management agencies which is going to have multibillion dollar 
price tags on it for forest health, for thinning and prescribed 
fire. I am just telling you it is coming at you, and we have 
gone in seven years from the argument the problem didn't even 
exist, to, I think, a very thoughtful change. You may remember, 
we combined presuppression and suppression fire accounts to 
give us the flexibility to get out on a limb with a prescribed 
fire program coming up. The question now is, is this going to 
be scaled up to a megacommitment or not, and if so, where does 
the money come from?
    Mr. Regula. Well, I think you make our case that instead of 
buying more land, let us take care of the forest health.
    Secretary Babbitt. I should have quit while I was ahead.
    Mr. Regula. You have made a very powerful case for 
preserving forest health.
    Mr. Dicks. You know, it is interesting, too, because the 
science here has changed. I mean, you know, 30 or 40 years ago 
there was this professor from Berkeley who talked about using 
prescribed fire, and everybody said this is a terrible idea, 
but now it has been proven this is the right way to go, and, 
you know, clearing out some of this understorage, using fire 
can be the right thing from an ecological perspective.
    So, again, that is why the science--as you started out in 
your administration with trying to get more science involved, I 
think, again, all these issues get down to the science.
    Secretary Babbitt. Actually, I think the GAO report was 
done at your request. There is a January return deadline, and 
it just went out to the Forest Service.
    So the last thing I would like to say about this is we are 
looking at this, we are looking at it with the Forest Service. 
To the extent that that January deadline has slipped, may be 
because we are trying to sell a combined response for all of 
the land management agencies and get it back to you hopefully 
in reasonable time.

                       salmon recovery initiative

    Mr. Dicks. One final thing. We still are struggling with 
our salmon recovery initiative in the Northwest, and your 
people, Mr. Gary Jackson, who is running the effort for bull 
trout, is doing a very good job. NMFS is struggling. So, again, 
we are trying to see if we can't get NMFS and Fish and Wildlife 
to work together as we did on these HCPs so that we use the 
staff of both agencies in a constructive and cooperative way, 
and we are making some recommendations along those lines, and 
anything you can do to help us within the administration, we 
would appreciate it.
    Mr. Regula. When our committee visited, I didn't sense 
there was any shortage of salmon.
    Mr. Dicks. The problem is you have hatchery fish, and you 
have the wild salmon runs, and the wild salmon runs are 
necessary to preserve the stocks. So we have to keep working on 
these wild Chinook, wild coho, wild chum runs, where they are 
threatened and they are listed. They have got a dozen 
different--maybe more than that--several dozen that run in the 
Northwest that are wild stocks that are declining 
precipitously, and we have replaced some of that with hatchery 
fish, but that doesn't save the biodiversity of the species and 
the gene pool you need to keep these stocks alive.
    And the best science we have is that we have to do a lot of 
work to improve that. That is why I come to this committee with 
all these requirements, but trying to work with all the various 
agencies in an urban setting like Seattle, Everett, Tacoma, 
Bellevue, getting them to deal with the Endangered Species Act 
is a big challenge, but they are doing it. They are willing to 
do it. It is just that we had a little problem getting NMFS up 
to the level that, frankly, the Fish and Wildlife Service is.
    Secretary Babbitt. I want to give you a parting shot on 
this. The most inexcusable, inexplicable, ridiculous waste of 
resources in the entire area of government in which I have 
worked for eight years is the duplication of effort between 
Fish and Wildlife Service and the National Marine Fisheries 
Service. It is cuckoo. It could be solved by the appropriations 
committees. The NMFS administration of the Endangered Species 
Act is carried out pursuant to an administrative memorandum 
back in the 1970s. The appropriation committees could solve 
this. It is madness.
    Mr. Dicks. Give all the responsibility to the Fish and 
Wildlife Service?
    Secretary Babbitt. For the endangered species piece only.
    Mr. Dicks. That is something we may want to think about.
    Mr. Regula. Mr. Kingston, do you have an additional 
question?
    Mr. Kingston. Thank you, Mr. Chairman.

                economic development in the territories

    Mr. Secretary, last year we gave some help to American 
Samoa to help them retire their debt, and I think they are kind 
of getting there, and some instructions about getting their 
fiscal house in order. If they do do this successfully, and I 
am not sure where they are in the stage, but would there be any 
sorts of funds in Interior to help them with economic 
development as a second step?
    Secretary Babbitt. We actually have some funds available 
for economic development. We have been working hard and with 
mixed success. I would be happy to look at this. I am so 
grateful for somebody being interested in that. You will get a 
memo from me, which you may or may not want to read, and I will 
be happy to do it.
    Now, while I have got you on territories, can I sort of 
lead you in the water one step further? The next big issue is 
the Virgin Islands. There are a lot of good people out there; 
there are a lot of wonderful resources. The National Park 
Service has a huge presence, but there are big problems out 
there, and it is desperately in need of a little bit of push on 
a sustained basis.
    Mr. Chairman, I am now preaching to a young-'un. You and I 
are going to be on our front porch in a rocking chair 
presumably before too long.
    Mr. Regula. I will be on a tractor myself.
    Secretary Babbitt. This is one that really needs some 
attention.
    Mr. Kingston. Okay. Mr. Secretary, now on the Marshall 
Islands, I understand we put a lot of United States assistance 
in there. We have had a compact with them that is coming up for 
renegotiation. We only have one American employee there. There 
is kind of a series of questions. New Presidents come in. I am 
going to follow up with you maybe more formally with some 
questions, but are you monitoring that? Do we have any feeling 
about the new President?
    Secretary Babbitt. I met with him when he was in town 
several weeks ago. I was encouraged. It is an interesting deal 
because it is a sovereign Nation, but there is no question that 
they are well aware of the implications of the compact 
assistance.
    Again, looking intensely at economic scenarios, and they 
are all very, very tough, but I think we have got an obligation 
to work with it, and I think we are. There is a lot more juice 
in American Samoa right now in terms of progress on these 
issues. So the mid-Pacific islands are tough. I don't know what 
to say to you except that I applaud your interest, and I will 
write you a letter.
    Mr. Regula. Why don't you submit your questions for the 
record, too.
    Mr. Kingston. I will do that.
    [The information follows:]
    Offset Folios 108 to 109 Insert here

<SKIP PAGES = 002>

                    okefenokee swamp mining company

    Mr. Kingston. And I had two other questions, just kind of 
if-you-happen-to-know-on-the-top-of-your-head-type questions. 
Last year we had talked a little bit about Okefenokee Swamp, 
and there was a mining company outside of the park, outside of 
the boundary, that wanted to mine. They did not get their 
permits, and I remember you made the statement that we can't--
now they want to sell the land to the U.S. Government, and you 
made the statement, something to the effect that we can't bail 
out every private company that doesn't get its permit. You have 
not requested money for that still, so if you happen to 
remember, was that a conscientious decision? Did that come up 
for consideration?
    Secretary Babbitt. Not only conscientious, it was also 
conscious.
    Mr. Kingston. Okay, I stand corrected.
    Secretary Babbitt. I think both words may work. Maybe there 
should be a presumption that my decisions are not 
conscientious.
    I have discussed this with the Governor on several 
occasions, and I think we have got a common viewpoint on this. 
The Governor has said, look, an acquisition may be appropriate, 
but not at the prices that people are asking. There is just no 
sense of realism out there, and the State isn't going to permit 
the mining, and if and when they get around to coming down out 
of the stratosphere, it could be an acquisition by the State of 
Georgia, by the Fish and Wildlife Service, or maybe in some 
kind of partnership. We are open to it, but I don't want to 
show any enthusiasm because they are not being realistic.

                          historic properties

    Mr. Kingston. One other question, again top of your head, 
if you happen to know. I understand that there is some law, 
regulation, that the National Park Service has that affects 
historic buildings, and I am from Savannah, and we have a lot 
of historic properties, and I understand that a Federal 
Government building cannot be built to look like an existing 
historic building because of some quirk about the National 
Historic Register. But I understand it is the National Park 
Service that has the actual law under their jurisdiction. Does 
that ring a bell at all?
    Secretary Babbitt. It does not.
    Mr. Kingston. Okay.
    Secretary Babbitt. There is a specialized group of national 
trust types who work in the Park Service, and they have got a 
fair amount of leverage over Federal construction, but to 
answer your specific question, I would be happy to check that 
out.
    Mr. Kingston. I was just wondering.
    Secretary Babbitt. I would have to check it out for you.
    [The information follows:]
       Regulations on Federal Construction in Historic Districts
    The National Park Service administers the Secretary of the 
Interior's responsibilities under the National Historic Preservation 
Act. Provisions of the National Historic Preservation Act pertain to 
all Federally-funded work on properties listed or eligible for listing 
on the National Register of Historic Places. Properties on the National 
Register are listed either individually or as part of a district--such 
as the historic districts of Savannah, Georgia and other communities 
throughout the United States.
    For Federally-funded projects, the Federal agency responsible for 
the project is required to take into account the effect of the project 
on properties listed or eligible for listing on the National Register. 
The Federal agency also shall afford the Advisory Council on Historic 
Preservation an opportunity to comment on the effect that the project 
might have on properties listed or eligible for listing on the National 
Register. In historic districts, these requirements pertain to both new 
construction and preservation projects that are Federally funded.
    Standards for work undertaken on properties or districts listed or 
eligible for listing on the National Register were developed and are 
maintained by the National Park Service as part of Federal 
responsibilities under the National Historic Preservation Act. The 
standards are published as The Secretary of the Interior's Standards 
for Rehabilitation (36 CFR 67) and The Secretary of the Interior's 
Standards for the Treatment of Historic Properties (36 CFR 68).
    In general, the Standards are advisory, and are provided to assist 
practitioners, government agencies and property owners with decisions 
related to properties and districts that are listed on the National 
Register. The goal of the Standards is to encourage the preservation of 
our tangible heritage--including that new construction within an 
historic district shall be compatible with its environment and 
distinguishable as contemporary construction. Neither the Standards nor 
other Federal regulation or law dictates architectural styles or 
construction materials, nor does the National Park Service review 
construction projects proposed by other Federal agencies.
    Each Federal agency is responsible for its agency's compliance with 
the National Historic Preservation Act. Each Federal agency, as 
required by Section 110(c) of the National Historic Preservation Act, 
designates an official to coordinate the agency's historic preservation 
activities. Contact information for these Federal Preservation Officers 
are listed by agency on the Advisory Council on Historic Preservation's 
website at www.achp.gov/feds.

    Mr. Regula. Mr. Hinchey, as much time as you like.
    Mr. Hinchey. I will be very brief.
    Mr. Regula. In reward for your patience.
    Mr. Hinchey. I just wanted to make a brief observation with 
regard to the issue of backlog on maintenance; first of all, 
that the backlog has been reduced under your tenure as 
Secretary of the Interior, and that our Chairman has devoted 
himself to making certain that the appropriation bills that 
pass through this subcommittee have dealt with that issue year 
after year after year. As a result of this work, the backlog 
has actually come down. It is a backlog that accumulated under 
previous administrations and in recent years has come down 
thanks to those efforts, and I think that ought to be noted for 
the record.

                 policing in parks and wilderness areas

    The issue of wilderness in the national parks I think is a 
very important one, and it is an idea that we ought to sustain 
and honor and maintain with some enthusiasm and vigor. I am a 
little concerned in that regard with the amount of policing 
that is necessary in wilderness areas with regard to off-road 
vehicles and other inappropriate activities. Do you have enough 
resources in your budget, Mr. Secretary, to deal with the issue 
of policing inappropriate uses in the national parks and in the 
wilderness areas particularly?
    Secretary Babbitt. Congressman, I think it is a BLM issue 
more than a National Park Service issue. I think with respect 
to national parks it is pretty good. BLM has a bunch of 
wilderness areas. They also have these national conservation 
areas which have come up in recent years, and they now have a 
growing collection of national monuments. By the end of this 
year there will be an even larger collection of national 
conservation areas or national monuments, depending on which 
way these proposals play out.
    BLM has traditionally been way too thin on land management 
resources. It is very important as we start to look at taking 
care of BLM areas of special importance, conservation areas, 
wilderness areas, monuments. You will see that it is not a 
back-breaking kind of burden, but you will see in the budget 
some modest requests. We have been through this with the Grand 
Staircase Escalante, which obviously needs this kind of 
protection, and the committee has responded. There is a new BLM 
wilderness area in southern California created last year. The 
Grand Canyon has effectively been increased by about 40 percent 
in area as a result of the Parashant Wilderness Monument 
creation. We need to keep after that issue.
    Mr. Hinchey.
    Thank you, Mr. Secretary, Mr. Chairman.
    Mr. Regula. Thank you, Mr. Secretary. There will be a 
number of questions for the record. I have several, and I know 
some of the other Members will also. If you will get us prompt 
responses, and it is possible since we enjoy having you, we 
might like you to come back and have some further discussion on 
your responses to the questions.
    Mr. Regula. Think about it. It is a pretty substantial 
responsibility to manage 500 million acres and satisfy the 
needs of not only 275 million people, but when we are out there 
in the rocking chair, it will probably be 300 million, and our 
grandchildren will be looking at 4- or 500 million, and to 
balance this on buying more land. You can tell we have 
differences of opinion on whether we should expand the land 
base. Taking care of what we have is a real challenge, and we 
have appreciated your leadership. Thank you for coming this 
morning, and I am sure we will be in touch as we develop this 
budget.
    Secretary Babbitt. I would be happy to return any time, any 
place. You name the time and place, and I will be here. It has 
been a genuine pleasure to deal with you, the committee staff, 
and the committee members.
    Again, I don't want to sound nostalgic, but I really am. It 
has been a marvelously productive experience and the emphasis 
on solving problems and recognizing that we all have to issue 
an occasional broadside.
    Mr. Regula. I have noticed that, too. I think I reminded 
you a few times.
    Secretary Babbitt. But beneath the air war, we have really, 
I think, got a lot done.
    Mr. Regula. Well, in my opinion, you have the best Cabinet 
post because you are dealing with things that are very positive 
in nature and are a wonderful opportunity to leave a long-
standing legacy. So we really appreciate it, and I hope 50 
years from now somebody will say, Babbitt and Regula did a 
pretty decent job.
    Secretary Babbitt. Yeah, it is here for a reason.
    Mr. Regula. Thank you for coming. The committee is 
adjourned.
    [Additional questions for the record follow:]
    Offset Folios 119 to 208 Insert here

<SKIP PAGES = 090>

    Offset Folios 209 Insert here

<SKIP PAGES = 001>

                                          Wednesday, March 1, 2000.

                       BUREAU OF LAND MANAGEMENT

                               WITNESSES

TOM FRY, ACTING DIRECTOR, BUREAU OF LAND MANAGEMENT
NINA HATFIELD, DEPUTY DIRECTOR, BUREAU OF LAND MANAGEMENT
LAWRENCE BENNA, BUDGET OFFICER, BUREAU OF LAND MANAGEMENT
PAM HAZE, DEPUTY DIRECTOR, OFFICE OF BUDGET, DEPARTMENT OF THE INTERIOR
    Mr. Regula. We are pleased to welcome you, Mr. Fry, Acting 
Director of BLM, and your team. We will welcome an opening 
statement. The full statement will be put in the record. Do 
whatever you can do to summarize, and I won't turn the clock 
on.
    Mr. Fry. Thank you very much, Mr. Chairman. If I might very 
quickly introduce some of the people we have with us today. 
First we have Nina Rose Hatfield, who is the career Deputy 
Director of the Bureau of Land Management; Larry Benna, to my 
left, is the Bureau's Budget Officer. Now behind us here we 
have the assistant directors of the bureau. First off we have 
Hord Tipton on the end, who is the Assistant Director for 
Information Resources Management; Bob Doyle, the Assistant 
Director for Business and Fiscal Resources; Warren Johnson, the 
Deputy--Assistant Director for Human Resources; Pete Culp, 
Assistant Director of Minerals, Realty and Resource Protection; 
Henri Bisson, the Assistant Director for Renewable Resources 
and Planning; Karen Slater, the Acting Assistant Director for 
Communication; and from the Department we have Pam Haze, the 
Deputy Director of the Department's Office of Budget; and Steve 
Tryon, also with the Department. So that is our lineup back 
here.
    So I will try my best as we go through this to answer your 
questions, but the real answers are probably stuck behind me.

                          Introductory Remarks

    Mr. Chairman, let me start off by just generally talking 
about BLM and what I consider the changing BLM. There is a lot 
that is happening in the West. There is a changing West. Two-
thirds of the people who live in the West now live within an 
hour's drive of BLM land. About 4,100 communities with 22 
million people live within 25 miles of land that is managed by 
the Bureau of Land Management. This is a whole different West 
than we had even 15 years ago, and certainly a different West 
than we had 50 years ago.
    We also have more endangered species that are listed or 
threatened to be listed. BLM used to deal with approximately 50 
endangered species. Now we deal with the possibility of more 
than 300 species that may be listed.
    We have weeds that are a problem in the West. These 
invasive species have come in from other countries or other 
places. It is estimated that an area twice the size of the Mall 
every year is infested--or, excuse me, every day is infested 
with new invasive species which are difficult to deal with.
    Also, new technologies, such as fiberoptics, are changing 
how people deal with the Internet. This is a right-of-way issue 
for BLM. Oil and gas is changing. Coalbed methane used to never 
be an issue. Now there are new technologies which allow for 
coalbed methane development which we didn't have before, 
substantial development. The kinds of off-road vehicles we see 
today were not imagined 15 years ago. There are also changes in 
how we deal with coal and the way we process coal.
    So these are all the things that are changing in the West 
that make for a different kind of BLM and different kinds of 
challenges that the Bureau faces. So we have prepared a budget 
that we think reflects these kinds of changes, and we tried to 
deal with this in a thematic way.

                                Planning

    The first area is an area of planning. BLM is required by 
FLPMA to plan their activities or have plans for activities 
that are on the ground. We have about 162 plans throughout the 
Bureau that deal with specific ecosystems or specific areas. 
Many of these plans were done in the 1980s, some in the early 
1990s, some as early as the 1970s. These plans do not reflect 
the kinds of changes that have taken place, and yet we are 
making day-to-day decisions about what should take place on the 
land based on those plans. So this budget reflects the need to 
begin the process of starting to update those plans either by 
revision or by replacement.
    Mr. Regula. Why do you think it has been so long? Have they 
not been on your radar screen?
    Mr. Fry. It has been on our radar screen for a while. What 
is finally happening is we are starting to have lawsuits filed 
against us that are saying you have made a decision. Let's use 
an example. You have made a decision on off-road vehicles, 
southern Utah, or you failed to make a decision. They go back 
and look at our plan, and they say that plan has gotten to the 
point where it does not recognize the new things that have 
happened in the West so that plan is out of date. We now 
question whether the decision that was made was based on a 
valid plan.
    These are the kinds of things that are starting to come to 
fruition. The Bureau went through a period in the mid-80's 
where they did a number of updates to plans. Congress had to 
come up with some substantial funds, but there have not been 
funds to do this over the last few years.
    So that is the issue relevant to planning, and also there 
is a secondary issue relative to monitoring. In fact, as we go 
in and do this work and do the planning, we have also got to 
monitor and make sure the kinds of effects that should be 
taking place on the land are taking place. That is the number 
one area that our budget reflects a need for additional 
funding.

                            Public Treasures

    The second area is an area of public treasures. There has 
been lots of talk about national monuments, but the Congress 
has created nine national conservation areas within BLM. These 
are areas where there needs to be some sort of special 
management and also special effort to make sure that they are 
maintained in a way that will provide for the public to have 
public access and have a wonderful visit. These are places that 
we now have trouble making sure we clean them up properly, 
making sure we have the right kind of facilities, the right 
kind of planning. So not only do we have four monuments now, 
but also national conservation areas and wild and scenic 
rivers, areas that have not been properly funded----
    Mr. Regula. Have your numbers of visitors gone up?
    Mr. Fry. Absolutely. In 1999 we had something like 75 
million visitors to the Bureau of Land Management managed 
lands, and we think it is going to go up 5 to 10 percent a 
year. That is up from about 50 million earlier in the decade. 
So absolutely. We have more and more people because of the 
proximity of the land. It is not necessarily people coming to 
destination spots like people going to a national park, but 
more and more people are just using these lands for recreation.

                         Watershed Restoration

    The third area that we are interested in providing some 
additional funding is the area of restoration of watersheds. 
The Bureau has been very successful in taking Federal dollars 
provided by the Congress, maximizing those dollars in 
partnerships and making some real difference on the land where 
we can see that watersheds really are improving, where there 
really is some major effect on the ground.
    One of the areas we have had most concern about is the area 
of wild horses. We have had many discussions with this 
committee and others about our wild horse and burro program. 
But the interesting thing about the wild horse and burro 
program is that where we are stuck right now--let me go back. A 
couple of years ago, we finally put some business practices in 
place within the Bureau to determine really how we are spending 
our money on wild horses, and we realized while we have got the 
adoption side, that we also had what I will call the pipeline, 
getting them from the range to the adoption and going back to 
the very beginning to the gather side. That is where we were 
spending our money.
    We were gathering more horses than we were adopting out so 
we were spending most of our money maintaining those horses. 
That first told us we need to take a hard look at this program 
and how we are spending our money. This year we got back where 
we had some sort of balance between adoptions and gathers. But 
the other thing that we have learned is that at current levels 
of funding, that if we continue to take the number of animals 
off the land for adoption that we are currently taking off, we 
will begin to increase by 20 percent a year the number of 
animals that are still on the land. Now, this makes for a great 
degradation of the land.
    We think that the appropriate way to handle this is to go 
to a program where we house not only young animals but older 
animals on the range in areas where we can manage those animals 
without having them out there on the regular range where they 
are doing the degradation that is taking place. So we feel like 
there is a need to have a program like that in order to deal 
with these animals over the future. It is going to take us 5 
years.
    Right now what we should have on the range is estimated to 
be about 43,000--excuse me, 27,000 animals. We are right now at 
about 50,000 animals already. That means that you have the kind 
of degradation that takes place which affects the grazing 
community. It makes it difficult for people who maintain the 
land which is also used for other activities. So we have got to 
get those number of animals that are out on the range down. So 
this is a whole area of restoration of watersheds and 
restoration of public land. A big piece of our request there 
relates to this horse issue.

                              Safe Visits

    The last area that we tried to focus on here is the area of 
safe visits. This is the question of maintenance, backlog 
maintenance, road maintenance and facilities. BLM has about 
$270 million backlog in terms of maintenance and maintenance 
needs, and we have asked for increases in our budget for those 
kinds of dollars to make sure that when people come to the 
public land, whether they be Federal employees or the general 
public, that we can provide the kinds of facilities that are 
needed for safe visits. We don't look at BLM as a place where 
we are going to have lots of big visitor centers and those kind 
of things, but we have to have sufficient toilet facilities, 
signage, those kinds of things.

                            Recreation Fees

    Mr. Regula. Are recreation fees helping?
    Mr. Fry. Fees are helping a great deal, Mr. Chairman. I 
will jump ahead and thank you for your leadership on the rec 
fee program. It has been a real boon for some areas. You and I 
had the opportunity to go together to Red Rocks and see where 
that money is making a difference right there on the ground. 
Certainly we would like to see that become a permanent program 
and that all the land management agencies be included in that. 
It is a very important program.

                       Resource Advisory Councils

    So those are the big areas that we are interested in. The 
only other thing I would mention is the area of our resource 
advisory council (RAC). This administration started resource 
advisory councils to be an across-the-board group of citizens, 
environmental community, State governments, and commodity 
users, to advise BLM locally within the States or sometimes 
within portions of states about how best initially to manage 
grazing.
    And you come up with some standards and guidelines, and 
they have done that; but what is happened now is those RACS 
have really gone past just grazing. They are now giving us good 
advice, good public input on things such as horse management, 
on how to work in riparian areas, how to do monitoring for 
standards and guidelines. So the resource advisory councils, 
which are citizens groups, have really provided the Bureau with 
a great input in terms of how we should manage our lands and 
how things should take place.
    It is a great place to bounce ideas off of as we have 
looked at the possibility of special areas. We have asked these 
RACS to look and determine whether or not these areas need some 
sort of special protection and what those protections should 
be. And those have been incorporated in the ideas that are 
either coming through Congress and the national conservation 
areas, and to the extent those don't happen, maybe propose 
additional national monuments. The RAC has been the process or 
pathway for us to get through this process.

                              Maintenance

    The only other thing, Mr. Chairman, I already thanked you 
for the rec fee, but I would also thank you for your leadership 
on the maintenance area. Obviously backlogs, these are things 
that are easy for us to put off because they are today--it is 
kind of like we dealt with planning. We didn't have to have the 
money this year. We probably thought we were going to need it 
next year, but your leadership and certainly on the maintenance 
side has helped us start to turn the corner and go in the right 
direction.
    With those comments, Mr. Chairman, I will rest and look 
forward to any of your questions from any of the committee 
members.
    [The statement of Mr. Fry follows:]
    Offset Folios 221 to 228 Insert here

<SKIP PAGES = 008>

                               VOLUNTEERS

    Mr. Regula. I have a couple of other questions, and I will 
have many for the record. Volunteers. Are you using volunteers?
    Mr. Fry. Yes, Mr. Chairman. I made the mistake saying one 
time we would like to double our volunteers. I am told we 
have--I can't remember exactly what the number is--I will let 
Larry correct me. We think we are using about the total number 
of volunteers that we can use and manage.
    Mr. Regula. Do you have a lot of people that are 
interested?
    Mr. Fry. Lots of people. It is in the--I want to say it is 
in the 10,000 to 15,000 range. Does that sound about right for 
volunteers? More. We are using lots of volunteers on the 
ground.
    [The information follows:]

                               Volunteers

    In 1998, 23,625 individuals donated more than 1.36 million 
hours of service (equivalent to 753 work years) toward 
sustaining the health, diversity, and productivity of the 
public lands. The monetary worth of these volunteers' 
commitments is conservatively valued at more than $19 million. 
Although data is still being compiled, the BLM expects that the 
contributions of our volunteers will be even more impressive in 
1999.

                            TIMBER HARVESTS

    Mr. Regula. Are the timber harvests about steady and 
stable, because you do have some timber that you manage?
    Mr. Fry. In the O and C lands in Oregon we do have timber 
harvest. We had met through last year all of our expectations 
under the forest plan. This year or this last year we did not 
meet those expectations because we were involved in two pieces 
of litigation. And we were enjoined from going forward with our 
timber sales and it all relates to an issue, survey and manage, 
and how we survey the land and how we manage the land, both in 
BLM and the Forest Service.
    We have settled one of those suits, so BLM is finishing up 
its survey and will try to start getting some additional board 
feet out. My expectation is we will probably get out about 70 
to 71 million board feet for this year, and hopefully we will 
get out the same number next year. That does not meet our 
requirements under the forest plan, but it is only because we 
have been tied up in the litigation. And the year 2001, we 
should be back on track.

                                GRAZING

    Mr. Regula. How about grazing? Are you fairly stable on 
grazing activities?
    Mr. Fry. Mr. Chairman, our grazing permits are on a 10-year 
cycle; and last year or 2 years ago we hit a spike. Usually we 
have about 1,200 to 1,300 grazing permits come due every year. 
For some reason, some historical reason that I don't know the 
reason for, we had about 5,000 come due last year and then 
another about 2,700 come due this year. And this committee and 
the Congress did provide some language that allowed any permits 
that were not able to get to for renewal to stay in effect 
until such time as we were able to renew those. Last year we 
estimated that we would get them all done with the exception of 
about 1,000 to 1,500. We were able to do that.
    Mr. Regula. Are you on track with the evaluations?
    Mr. Fry. We had about 1,200 we didn't get done. This year 
our number that we need to get done is a little less than the 
total number we had to do last year. So I think that we will 
come pretty close to getting back on track after this year. 
Now, there will probably be some grazing permits that we don't 
get to this year. There may be some where EISs are going to be 
required, so we may not complete the whole task. I have been 
very reluctant to suggest that we would make those numbers each 
year because I want to make sure that we are driven by doing 
them right as opposed to just doing them by the number.
    So we are making sure that as we do the NEPA work on those 
permits that we have encouraged our folks to make sure they do 
the work right so whatever decision is made is protected later. 
But we think that we will be pretty close to on track by the 
end of this year and we will be certainly on track next year.

                           NATIONAL MONUMENTS

    Mr. Regula. On January 11, 2000, the President established 
three new national monuments to be managed by BLM. How will 
these designations change the way in which these already 
existing Federal lands are managed, and what will be the 
impact, if any, on local economies?
    Mr. Fry. Each one is a little different in terms of the 
management and the management scheme. Probably the easiest one 
to start with is the coastal monument, which is the small rocks 
and islands that are off the coast of California. First off, 
those are in the day-to-day management, is not an expensive or 
time-consuming process for us which and we don't imagine that 
that management will change in any appreciable way. The 
proclamation says you can't sell them off and you can't use 
them for mining and those kinds of things. There have been 
questions about how you might be able to use those rocks for 
other things later, but this takes care of that issue.
    In the area of Parashant, which is in northern Arizona, 
again, the proclamation basically talks about the fact that we 
will not have new mining activity but does say that we will 
continue to have grazing activity and that we will continue to 
honor the existing rights that are there. We have and this is--
--
    Mr. Regula. That would be true for whatever it is, wherever 
valid rights.
    Mr. Fry. Whatever valid rights are there are still there. 
The way we look at these, this is not like a national park. 
These are places that we are trying to make sure we provide 
protection, in this case, for the future. It is not that it is 
under threat today, but as we talked about earlier, the 
organization of the west, the pressures that start to come on 
these lands later, we want to make sure this area, which is the 
watershed for the Grand Canyon, is provided sufficient 
protection in order for future generations to maintain that 
precious ecosystem that is there. So again, in that case, I 
don't anticipate any appreciable change in the day-to-day 
management.
    The third area, though, Agua Fria, which is down just north 
of Phoenix, is an area that has really come under attack. When 
I say under attack, I don't mean in a nasty way, but it is now 
within about 20 minutes' drive of a huge new development just 
north of Phoenix and what is Agria Fria. In the 1200s to 1300s, 
Native Americans were there and built these incredible 
communities, 
100-, 200-room facilities. It is the classic antiquity if there 
ever was one where these people lived for years. They set up 
forts to protect themselves.
    There is lots of pottery still there, and these places are 
under attack in terms of people coming, taking away artifacts, 
and there will be more active management needed on our behalf 
in order to protect that area. That area will probably need to 
have increased law enforcement presence, will have to have some 
sort of control in terms of entry and additional people on the 
ground. We will have to do more planning to determine how best 
to protect that area.

                            LAW ENFORCEMENT

    Mr. Regula. Law enforcement on the 264 million-acres must 
be somewhat of a challenge.
    Mr. Fry. It is certainly a challenge like every area in 
BLM. That is why this particular budget tries to address this 
whole question of the changing West. I think our highest number 
of law enforcement was something in the neighborhood of 230 to 
240. We are now down to 170 again. It's a resource issue, a 
matter of how many people we have. Yet the pressures on the 
land are becoming greater and greater; and our law enforcement 
people, they are Federal law enforcement officials, but we 
don't use them to go out and investigate the kinds of things 
that the FBI investigates and that the county sheriff 
investigates. They are there to help us make sure we protect 
the resources and provide for safe visits for people who come 
there. We have a State where you may have 10 million acres and 
two law enforcement agents. Well, it is nice when the law 
enforcement agents know all the locals. We don't have that 
anymore.

                               WATERSHEDS

    Mr. Regula. With 264 million acres, you must have a major 
impact on the watersheds for many of the communities of the 
West. Is that correct.
    Mr. Fry. That is absolutely true.
    Mr. Regula. It has got to be a concern.
    Mr. Fry. That is right. As we look at how we manage the 
watersheds, we want to make one of the priorities for the 
Bureau as it looks at management with dealing with watersheds 
so we can make sure we can provide clean water. One thing this 
committee has been helpful with in terms of funding is our 
abandoned mine land program. Again it is a clean water issue.
    Mr. Regula. That is still a high priority for you?
    Mr. Fry. Still a high priority for the Bureau, absolutely. 
And we initially started that on a pilot basis in the States. 
Now we have expanded it to almost all of our States.

                               OPEN SPACE

    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Thank you very much, Mr. Chairman, and Mr. 
Fry, thank you. It is always a pleasure to listen to you. You 
have a very fascinating job, one that is also I think changing 
very rapidly. The nature of the work that you are doing, the 
nature of the work that the Bureau of Land Management has 
historically done continues of course, but you have got new and 
interesting responsibilities. So I am always fascinated by your 
testimony.
    The point is, that more and more people are coming to these 
BLM lands, and it makes it more difficult to manage them. At 
the same time, that visitation in effect enhances the value of 
the lands as well, not only to the Federal Government, the 
steward of the land, but also to the communities around them. I 
think that it is true that commercial value to communities 
because of people coming to BLM lands has increased due to 
tourism dollars generating a substantial amount of economic 
activity. Am I right about that, and do you mark that activity 
and monitor it in any way?
    Mr. Fry. You are absolutely right about the fact that it 
has changed the way we do business in the west. We are starting 
to call ourselves the Open Space Agency. Many people look at 
BLM at least in the West, as America's backyard. This is a 
place that nobody used to go before, but now we are in a number 
of people's backyard and yes, it does make a difference every 
day in those local communities, the decisions we make.
    As we look at this urbanization of the West, another one of 
the changes that is starting to take place in BLM is local 
communities are now coming to us and saying, we need open 
space. We need green space. We need green belts around our 
towns. BLM is right here. You are the ones that can provide 
that. And one of the kinds of things that we will be using 
additional planning dollars for is to work with local 
communities to set up those kinds of regimes where, if they 
think it is appropriate, we provide the land, and they might 
provide the law enforcement and the hiking trails. But we at 
least provide the open space that people are looking for. It 
was the last election cycle that something in the neighborhood 
of 250 different ordinances or bills passed, local or state 
legislatures in order to try to deal with the question of open 
space. It is not a partisan issue. Every community wants to 
make sure they grow smart, and BLM is right there and on the 
cutting edge hopefully of trying to deal with those issues as 
they come up.
    Mr. Hinchey. I am sure you're a big help to those 
communities. Is anyone monitoring the economic value of BLM 
lands to the tourist industry, to the communities adjacent to 
which they are located? Is there any way to judge that?
    Mr. Fry. I think there are some--BLM is not doing it as a 
bureau. There are lots of efforts locally. A lot of our 
partners that we do business with, people who set up `friends 
of' groups, interpretive associations that are private 
entities. I was meeting with the Shasta area in California just 
the other day where they come in and set up a--I want to say 
almost a visitors center for all--it is for Federal land. It is 
for State lands. It is to try to encourage economic development 
there, but they are monitoring the kinds of dollar increases 
that come from this kind of recreational activity. So there is 
a lot of that kind of work going on out there.

                            Grazing Permits

    Mr. Hinchey. With regard to grazing permits, traditionally 
you would be required to do environmental reviews on 
assessments before the grazing permits were issued, but last 
year there was a rider to our appropriations bill which was 
passed that required you to renew those grazing permits without 
environmental review. I am wondering about the impact of that.
    Mr. Fry. Last year we had about 5,000 permits that came 
due, and the question was would we be able to get to all of 
those. We got to all but about 1,200 of them, and so the others 
were renewed; but they are only renewed until we get to them, 
and we will have gotten to all of those from last year by 
midyear this year.
    Mr. Hinchey. So you will have done the environmental review 
of all of those permits by midyear this year?
    Mr. Fry. That is right. And we still have additional ones--
this year still has a spike in terms of the number that we have 
to do. We are hopeful that this year we can come close to 
getting all of last year's done plus all the ones that have to 
be done this year. So it is not as if we have taken a position 
that because the Congress granted these extensions that we just 
don't have to go there. They are our number one priority. The 
holdovers, we are getting those done now. So these people had 
10 years--in some cases they will now have 10 years and 6 
months.

                           Off Road Vehicles

    Mr. Hinchey. That is good to hear. I am very happy you are 
doing that so aggressively and conscientiously. The wilderness 
acreage within your jurisdiction is increasing too, I believe. 
I am concerned about the issue of off-road vehicles and the 
impact that on Wilderness Study Areas, particularly how you 
monitor that and how effective a job you think you are able to 
do given the resources that you have?
    Mr. Fry. I am glad you raised that issue. Off-road vehicles 
are becoming a greater and greater problem for us and, again it 
is a question of resources as to how best to deal with it. By 
way of short history, this all came up initially in California 
and the California desert, where 10 to 15 years ago these 
vehicles were running all over the desert and destroying the 
desert. It took the Bureau about 10 years to catch up and 
designate special places where those kinds of vehicles could be 
used and set aside other areas that just aren't appropriate, 
whether it is wilderness or other areas.
    Southern Utah has become an increasing problem for us with 
the recreational activity. There is litigation pending there 
now about what we should be doing and what we should not be 
doing, but I will certainly say that it is an area where we 
need a lot of work in terms of dealing with off-road vehicles. 
Because of that, I felt that the Bureau needs to take a look at 
off-road vehicles bureau-wide, but also know that the decisions 
that are made on off-road vehicles need to be made at the local 
level ultimately.
    So what I have asked Mr. Bisson to do is over the next 2 or 
3 months is to convene kind of a national debate on how we 
should deal with off-road vehicles and the issues that are 
there relative to off-road vehicles so that we can give some 
guidance to our people in the field as to how they should deal 
with off-road vehicles on a local level. It will ultimately 
come to the local manager, the local resource area, resource 
advisory council to deal with their particular plan for their 
area. It has got to be ultimately locally driven. We would like 
to get some guidance from the field as to how to deal with this 
in the future so we don't have the problems develop in 
Colorado, Montana, and North Dakota that have developed in 
southern California and southern Utah.
    Mr. Hinchey. And you have addressed the problem in southern 
California and you are attempting to address the one in 
southern Utah, is that correct?
    Mr. Fry. That is correct. Now I want to get out in front of 
the game for the rest of the country.
    Mr. Hinchey. Certainly these off-road vehicles have their 
place, and we know that people enjoy using them, but the point 
is that we want them to be used in ways that do not destroy 
Wilderness Study Areas or interfere with other people who are 
interested in having a different kind of experience.
    Mr. Fry. I just went out on a recreation tour and fell off 
one of those vehicles. They had me climbing mountains and I 
almost fell off the mountain. But the point of this tour was to 
not only talk about the fact that there are lots of recreation 
opportunities there but also talk about responsible use, that 
we do this in the right way and a safe way and the right 
places. And that is what we are most interested in.
    Mr. Hinchey. I wanted to ask two other questions. Is my 
time up?
    Mr. Regula. Go ahead if you won't be too long.

                              Wild horses

    Mr. Hinchey. I was fascinated by your discussion of the 
wild horse situation. If I heard you correctly, you said in 
effect that you now have about twice as many horses on the 
range that you feel you can manage effectively. And that number 
is growing by a rate of about 20 percent a year or something of 
that nature?
    Mr. Fry. That is correct.
    Mr. Hinchey. So you have a major problem on your hands.
    Mr. Fry. Absolutely. Always have, but it is getting worse.
    Mr. Hinchey. Where are most of these horses located?
    Mr. Fry. Throughout the West. The largest State is Nevada. 
We have about 160 different herds that we manage in the west, 
but the vast majority of them are in Nevada, Oregon, Montana, 
Utah, Wyoming.
    Mr. Hinchey. For the most part these animals are just out 
there wild?
    Mr. Fry. Free ranging.
    Mr. Hinchey. But periodically you go out and have a round-
up of some kind and cull a certain number of horses from the 
herd, and then try to find appropriate homes for them?
    Mr. Fry. That is right. We have an adoption program.
    Mr. Hinchey. How many horses are you adopting in the 
adoption program?
    Mr. Fry. We are adopting out somewhere in the neighborhood 
of 4,000 to 5,000 animals a year.
    Mr. Hinchey. The question is not that there isn't an 
interest on the part of the public to adopt these animals, it 
is just that you don't have the resources to go out and round 
up enough of them to bring them in?
    Mr. Fry. Well, we think we are pretty close to maxed out on 
public demand. Now, we are trying some new methods. We have 
gone to some Internet adoptions where people don't have to 
physically show up at a location, but we will have these 
adoptions all over the country. We had one out here in Herndon, 
Virginia, last year. We will bring horses in for adoption. We 
are trying other ways to make the horses available.
    Part of the requirement, though, is that we ensure that 
people who adopt these horses have facilities and the 
wherewithal to take care of them. So somebody can't just walk 
in. You have got to make sure you have the right facilities, 
and we go out and inspect to make sure during the first year of 
the adoption that the horses are being taken care of. After one 
year they become the property of the person who has picked 
these horses up at adoption. But we think we are pretty close 
to maxed out as to how many we can adopt out.
    Mr. Hinchey. What are we going to do about this problem?
    Mr. Fry. What we would like to do is have--it almost sounds 
like a health plan--a care facility for horses where we can 
take care of those horses in a corralled environment. I am not 
talking about some small corral, but a range that is managed 
that is fenced where we can take older horses and younger 
horses and get them off the range day to day so we can have a 
care program for them to live out their lives.
    Mr. Hinchey. Maybe Myself, Mr. Chairman and Mr. Wamp can go 
out and help you wrangle them.
    Mr. Fry. That would be great. We will schedule a trip. We 
have a gathering going on right now.
    Mr. Regula. Having dealt with horses, those two get to go 
without me.
    Mr. Hinchey. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wamp.

                             Land Disposal

    Mr. Wamp. Thank you, Mr. Chairman, and welcome to the 
Bureau. The question I have is on behalf of Congressman Duncan 
from Tennessee, one of the senior members of the resources 
committee. He is very interested in a study, I believe, that 
determined that there were 3 million excess acres or properties 
that the Bureau had identified that might be actually sold, 
that were not essential to maintain and to hold within the 
Bureau and that is 3 million out of 264 million but; he tells 
me that there is not a lot of activity on disposing of that 
land, and it could generate in excess of a billion dollars, 
maybe a billion and a half dollars of revenue.
    He has a bill to sell that over the next 7 years and put 
some of the money back into some of these critical programs 
that you need money for and other government functions could 
use. Can you just give us an update on any excess land that can 
be disposed of and what your timeline is on disposing of that 
land, for the committee please?
    Mr. Fry. Sure. A very interesting question. When BLM does 
its resource management plans for an individual area, every 
time they are updated, we will identify lands that are 
available for disposal. Sometimes those will be specific tracts 
of land. Often times it will be acres within an area as opposed 
to a specific tract. There are lands that are very closely 
available for disposal that have value; and as I look at the 
area around Las Vegas, the Congress passed a bill a couple 
years ago that allows us to sell those lands off and keep the 
money. Fifteen percent goes to local government, and with the 
rest we are allowed to go out and purchase other 
environmentally sensitive lands.
    But the vast majority of these--and I don't know the number 
of acreage--but the vast majority are for acres that are--or 
tracts that are inside current allotments that we own. Let's 
just take a situation, let's say in New Mexico, where there is 
a landowner that owns a fee interest in his house. He has got 
grazing permits on Federal land that are all around him. We 
might decide those are available for disposal. But let me tell 
you I don't think we have got a real market for them. The only 
person that is going to want to buy them is the rancher who has 
that grazing permit, and he is able to graze for $1.35 on 
Federal land. Why does he need to come purchase that from us at 
fair market value?
    I would certainly quarrel with anyone who thinks there is a 
billion dollars' worth of land that is out there, unless you 
are talking about some of this land around cities like Las 
Vegas and Boise. When we look at those, we do go back and do 
resource management plans to determine what is available for 
disposal. Now, the Congress has looked at the possibility of 
having a bill that is similar to the southern Nevada bill that 
allows for the sale of excess lands and allows for those monies 
to be shared with the States and counties and also go into 
purchasing sensitive lands.
    We would be happy to work with you or anybody else who has 
a bill like this.
    There has been some factual misunderstanding from time to 
time about the value of the land that is out there that is 
available for disposal.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Regula. I might say the area north of Las Vegas which I 
looked at, it is extremely valuable. Are you selling this land 
at auction or negotiated sale?
    Mr. Fry. For the 7,500 acres in north Las Vegas, we hired 
an outside consultant to take a look at how best to maximize 
that sale, not only for the taxpayer but also for the local 
community. It has been determined it will probably be sold off 
in five or six different tracts over a period of time so the 
land can be absorbed by the city in a measured development. So 
that process I think should start next year.
    Mr. Regula. You are getting the maximum return.
    Mr. Fry. That is right. If we sold the whole thing, right 
now we would not get the maximum dollars for the Federal 
taxpayer.
    Mr. Regula. Did you not give some of it to local government 
for an airport or some other public use?
    Mr. Fry. There is lots. There is a whole backlog of 
requests for recreational public purpose use. The law allows 
for us, if somebody wants to put in a fire station or hospital, 
we can deed that land or lease that land for free to those 
public entities. We have a lot of that in the Las Vegas area 
because the taxpayers still own a lot of land within the 
confines of the Las Vegas Valley. So that is allowed and we do 
that all the time. In this case, this would be land that would 
be available for residential and retail development.
    Mr. Regula. You are doing a trade around Lake Tahoe, aren't 
you?
    Mr. Fry. We have done some trades, but we are able to use 
the land that comes out of Las Vegas to purchase other lands. 
The old Burton-Santini Act allowed BLM to use proceeds from 
sales inside a certain area outside of Las Vegas to buy lands 
in the Lake Tahoe area, which we have been doing. This new 
southern Nevada act will also allow us to do that. So most of 
the activities now that take place around Tahoe will be 
purchases. Turns out BLM doesn't end up with that land. 
Usually, the Forest Service does.
    Mr. Regula. Mr. Kingston.

                            Land Acquisition

    Mr. Kingston. Thank you, Mr. Chairman. Mr. Fry, welcome to 
the committee. Let me ask you this. I am looking at--maybe I am 
wrong here, but we have $16 million for new land, public 
treasures requests, and $44.9 million to acquire other land; is 
that correct?
    Mr. Fry. I would not dispute those numbers.
    Mr. Kingston. Three million to make them safe. Do you think 
that is a little disproportionate?
    Mr. Fry. I don't think we are saying we only want to spend 
$3 million to make them safe. We are asking for a $3 million 
increase on the safe side.
    Mr. Kingston. But how much do you spend on land safety? 
Actually those are your words: ``critical health and safety.'' 
so it must be very important, not just making them pleasant but 
critically safe.
    Mr. Fry. On safety for 2001 about $34 million. That is 
probably maintenance dollars.
    Mr. Kingston. You want $34 million for new, plus $16.
    Mr. Fry. I think maybe we are talking some apples and 
oranges. I want to make sure we are talking the same thing. We 
are asking for $3 million additional for the maintenance side. 
That would get us to about $34 million, I think, for that kind 
of activity.
    Mr. Kingston. So about $34 million for maintenance and 
about $60 million for new acquisition?
    Mr. Fry. Let me get the numbers right. Hopefully, we are 
agreeing $16 million is not acquisition; $16 million is 
management of those new special areas, and existing special 
areas.
    We have a number of national conservation areas. We have 
four national monuments. We have a number of rivers and 
national trails.
    Mr. Kingston. So that is not for acquisition. That is for 
maintenance.
    Mr. Fry. That is right. Well, for planning and operations.
    Mr. Kingston. None of it is for acquisition.
    Mr. Fry. None for acquisition.
    Mr. Kingston. Then the acquisition is $44 million only.
    Mr. Fry. That is right. Well, that would be our request for 
2001. That is the increase. And the total amount would be 
approximately $60 million.
    Mr. Kingston. It is kind of a recurring thing with this 
administration. I don't think they found a piece of land out 
there that they don't want to buy. How much land do you think 
that the Federal Government should own, just policy philosophy 
question here.
    Mr. Fry. I don't have a number in mind.
    Mr. Kingston. A percentage. What is your just personal 
philosophy. It is a freebie. If Gore or Bush were in probably--
I don't want to say you are going to be out, but I may be out 
as well. I think it is a real critical question. What really 
bothers me is we talked to people. No one in this 
administration seems to think it is really anything worth 
studying. And to me it is an interesting question regardless of 
where, you know, political or environmental philosophy is, or 
private property questions. As you know it is about a third 
now. So every third step I take, the Federal Government owns 
the land. And most Americans have no idea of that, as you know. 
So what do you think it should be? Should it be half? Should it 
be less than a third? And I am not trying to be unfair. I just 
think it is a legitimate question.
    Mr. Fry. I don't know the answer to that question, but I 
know that what I hear the people saying--you hear both sides. 
Gosh, the government of Nevada and Bureau of Land Management 
manages 70 percent of the land in the State of Nevada. Is that 
too much? Certainly someone can make an argument that maybe the 
Federal Government doesn't need to manage 97 percent of all the 
land in one county. I think that would be an interesting 
discussion for us to have.
    There are other folks, though, who would say that there are 
a number of things out there or areas that need protecting, and 
there are a number of tools available to protect them. One of 
the ways to protect them is through land acquisitions. And to 
deal specifically with our request as it relates to land 
acquisition--we are not looking to go out and say, I see that 
peninsula over there, and I want to buy it. That is not what 
the BLM request is about. We have two thematic things that we 
do. We have got a number of areas--let's take the Santa Rosa 
mountains. It's a national conservation area there.
    Mr. Kingston. Let me reclaim my time. I am respectfully 
asking you to get back to the question. Do you have any feeling 
at all, should it be 50 percent--and I am not talking about 
BLM; I am talking about Federal Government. Should it be 50 
percent, 30 percent or doesn't matter, not really worried about 
it.
    Mr. Fry. The Congress of the United States, in their 
infinite wisdom, decided how much it would be a long time ago. 
I am trying to manage it.
    Mr. Kingston. Do you think the question is relevant?
    Mr. Fry. Sure. It is worth having a debate.
    Mr. Kingston. You are the first member of the 
administration who thought the question was relevant.
    Mr. Fry. Do I have an opinion? No.
    Mr. Kingston. Not only do you answer it well, but answered 
it wisely. Here's my question. I would think we in Congress and 
people in the administration, being a Democratic and Republican 
administration, could we explore this without prejudice? What 
is the answer? Because I noticed you have $135,000,000 for PILT 
and it seems really low. I bet the people in Nevada would like 
it to be higher. I know the people in my area that are on a 
military post would like it to be higher. You know, the States 
probably need to get in the PILT-type business too because they 
are gobbling up land as well.
    But would you take a policy position against this committee 
of requesting a thorough study? Would that be something that 
the administration might get geared up about, ha ha, they are 
at it again, protecting private property. Or should this be 
something, since we do agree it is legitimate, is it a question 
worth debating, should we study it?
    Mr. Fry. We study lots of things. I am trying to just get 
enough money to manage what I have got. Somebody wants to do a 
study, they have to find a way to fund it.
    Mr. Kingston. We might be able to take some out of that $44 
million in new acquisitions. The question, though, leads also 
to the other thing in terms of the other ways to protect it. To 
me another question central to this is command and control 
Federal Government ownership of land. Is that the only way to 
protect habitat--and we know that it is not. Then are we giving 
the other methods a thorough look and really, you know, maybe 
explore conservation needs a lot more aggressively, take that 
$44 million and put it into tax money for conservation 
easements. Would that be a better utilization? And one reason I 
want to say that because I know there is a lot of alienation 
with the Western folks, the Western caucus, you know, the war 
on the West which I didn't know there was another war going on 
in the country when we--being from the South I only think of 
one war.
    So the question is you want to have the private property 
owner feeling part of it and you can do that through 
conservation easement, protect your water and your air and your 
habitat and the good things that we are all trying to do, and 
are we through the command and control government fee-simple 
interests approach to property? Are we pushing the private 
property owner out of the business of protecting, being 
stewards of the land and habitat?
    Mr. Fry. I had the same conversation with Congressman Kolbe 
the other day about an area in his district, San Pedro. There 
is money identified in our $44 million request for what is 
called ``land purchases in San Pedro.'' A lot of that money is 
for conservation easements. It used to be--and I think you are 
right--used to be the Federal Government felt like either you 
owned it in fee or you didn't own it, and you had no way of 
dealing with it. I think we are using a number of other tools 
today. We are using conservation easements as a way to provide 
the kinds of protection. We are also entering into partnerships 
with state governments for them to manage for certain values.
    There are a number of different tools that are out there, 
so part of our request is not just straight out purchase of fee 
land. There are dollars for easements and those kind of tools 
because I think those are important for the future.
    Mr. Kingston. I am glad to hear that and recognize the 
importance of it. Finally, Mr. Chairman, if you could give us--
can BLM give us an inventory of the land that you own and 
manage?
    Mr. Fry. Sure.
    [The information follows:]
    Offset Folios 256 to 259 Insert here

<SKIP PAGES = 004>

    Mr. Kingston. Would it be possible for you to do that for 
other agencies or should we--would we have to go directly to 
them?
    Mr. Fry. You'd probably have a better answer if you went to 
them.
    Mr. Kingston. But you can get it to us?
    Mr. Fry. That is right. I want to make sure we are 
responsive. Why don't we get together and decide exactly what 
you want--I take it you don't want metes and bounds of every 
piece of land that the Bureau manages. I take it you want to 
have some general idea of what's out there or a more specific 
idea on a state-by-state basis.
    Mr. Kingston. I would be interested in knowing what the 
Federal Government owns in BLM. Whatever way, which is the most 
practical. I don't want to know every easement.
    Mr. Regula. If I might tell the gentleman, we can ask them 
to submit it for the record. Under the jurisdiction of this 
committee we can request this information of an agency.
    Mr. Kingston. I would like to see it.

                            Willing Sellers

    Mr. Regula. I suggest you talk to the staff, and we will 
try to put that together. Do you exercise eminent domain on any 
land acquisitions, or are your purchases all from willing 
sellers?
    Mr. Fry. All ours is willing sellers.
    Mr. Regula. I think this is pretty much true of every land 
agency. Once in a while there might be a taking, but it is 
pretty rare.
    Mr. Fry. If we go into an area and an inholder doesn't want 
to sell, there is nothing we can do about it.
    Mr. Regula. You have a lot of inholders.
    Mr. Fry. Yes and in answer to the previous question in 
terms of how we were looking at spending, you know, these 
dollars, there really are two thematic areas for us: first is a 
inholders inside of an area we manage. We already manage the 
area, and we are just looking at picking up the inholders. The 
biggest part of this is $14 million to pick up the rest of the 
catellus land. There is another big chunk for the Lewis and 
Clark inholdings. That is one side.
    The other side is an area where we are trying to manage a 
stream where we may go in and it may not be an inholding, but 
we may go in and pick up a ranch that is available for sale. 
And if it is on a particular river we will have more control 
over what goes into the river so we can do a better job of 
managing and repairing. For us it is not a matter of going out 
and saying, gosh, we just covet more land. We have a particular 
idea in mind, and it is willing sellers that we are dealing 
with.
    Mr. Kingston. Sometimes they are willing because they can't 
hold on to it and they can't develop it for other reasons; and 
I know that there would be a lot of people would hold on to 
their land if the tax structure allowed them to and be good 
stewards of it. While they are willing sellers, it is not 
necessarily their first choice in the scheme of things.
    Mr. Fry. It seems the tax structure allowed them to do 
pretty well just by putting easements on them. There are a 
number of people who have used that as a way to substantially 
reduce the tax liability, by putting an easement on their own 
land for conservation.
    Mr. Regula. Mr. Cramer.

                             LAND USE PLANS

    Mr. Cramer. Thank you, Mr. Chairman. I regret that I am 
having to play catch up. We are scattered between two different 
hearings, most of us anyway. Welcome to the committee. I may 
take you over some issues you already had an opportunity to 
discuss. I was with the Secretary here yesterday and we talked 
about caring for the land that we now own, not necessarily new 
land acquisition, and I was scanning through your statement. 
Let me focus on the process of land-use planning. Why are these 
plans important? And summarize the conclusions from your study.
    Mr. Fry. First off, it is important because Congress 
requires them. Part of the land act that we manage the land 
under, FLPMA, requires that we do a plan for the land we 
manage. Now, what is important about these plans is that they 
are the basis for all land management decisions that we make on 
the land. We will do a plan that describes the general scheme 
under which we will manage a particular number of acres. Then 
someone will say, ``well, I want a permit to engage in this 
particular activity.'' Well, that permit, the decision about 
that permit is based on the plan and whether or not it is 
consistent with that plan. Now, the reason----
    Mr. Cramer. That has existed for some time doing it that 
way.
    Mr. Fry. That is exactly right.
    Mr. Cramer. But some of those obviously by now would be 
very outdated.
    Mr. Fry. That is correct.
    Mr. Cramer. Not part of the main dilemma.
    Mr. Fry. With the changing West, the facts have changed so 
people will challenge our plan and say, the cumulative impacts 
that take place on that land that you analyzed in 1985 are 
different today. Even endangered species are different. The 
kinds of activities that take place are different. There is 
more recreation. These are all things, facts that have changed 
what is going on in the land should change your plan.
    Mr. Cramer. It is time consuming and costs money to 
modernize the land-use plans, but you have got in this budget 
$19 million to initiate the process of modernizing?
    Mr. Fry. That will get it started. It is going to take us--
--.
    Mr. Cramer. What will that buy?
    Mr. Fry. For year 2001 we have got a schedule that I will 
provide you for the record. We are going to start over 60 
plans. We are going to start working on 60 plans.
    [The information follows:]
    Offset Folios 265 to 273 Insert here

<SKIP PAGES = 009>

    Mr. Cramer. Do I understand from your information that more 
than half of the--there are 150 existing land-use plans?
    Mr. Fry. About 162.
    Mr. Cramer. And more than half are outdated.
    Mr. Fry. That is correct. I would never confess judgment in 
a lawsuit and say something is outdated, but we certainly have 
some that are getting old.
    Mr. Cramer. You at least accept that I can use that term? 
Two lawyers talking together is a dangerous situation.
    Mr. Fry. I will see all this used in a courthouse some day.
    Mr. Cramer. The $19 million will buy how many updates? Did 
you say 60 something?
    Mr. Fry. We will get started on 60. These take 1 to 3 years 
to get done.

                            LAND ACQUISITION

    Mr. Cramer. On a separate issue, you did submit with your 
budget descriptions, 24 proposals for new land acquisition with 
total cost of $60.9 million?
    Mr. Fry. That is correct.
    Mr. Cramer. What criteria did you use to select those 
particular pieces of land?
    Mr. Fry. In 90 percent of the cases, these are projects 
that we already have ongoing. If you look at the very first one 
on the list, Upper Missouri, Lewis and Clark, I think the 
expected total for that one--I can't remember. Let me just give 
you an example--over a period of time we would spend $77 
million. We probably already spent in the neighborhood of $2 or 
$3 million. For this year we may have an acquisition request in 
for $3 or $4 million. So these are ongoing projects. When you 
look at Santa Rosa Mountain, we have been buying inholdings 
within Santa Rosa Mountain for 7 or 8 years. Each year we ask 
for more money to do that. Some day, through this process, we 
will complete buying the inholdings that we need.
    Mr. Cramer. You think that really will occur?
    Mr. Fry. We won't get them all. We won't ultimately have 
willing sellers. The 90 percent of the projects that you see 
here are ongoing projects. We already started the land 
purchases, and these are continuations of those land purchases. 
That is what makes up the majority of this list.
    Mr. Cramer. That is what determines your urgency to 
complete or move on with substantial next stages of it?
    Mr. Fry. That is right. There are a couple of things that 
will move something up or down a list. A change or possible 
change in the ownership of the land where you all of a sudden 
have a seller or a landowner who is a willing seller who may 
not have been a willing seller before. That may move something 
up on the list. Also in Lewis and Clark's case, we are trying 
to get ready for the Lewis and Clark bicentennial and make sure 
that we have the lands that we need in order to provide for the 
kind of visits and visitations that are going to take place 
during that event. That has moved up on the list.
    Mr. Cramer. One last not-so-easy question. How would you 
respond to the statement that if you fund too many new 
acquisitions, you are doing it at the expense of critical 
maintenance funds?
    Mr. Fry. I think it is apples and oranges. I think there is 
two different things here. We need money for maintenance. There 
is no question about that. But in terms of funding for these 
acquisitions, this is not just us going out and trying to find 
a new piece of land that we covet. This is a situation where we 
are either trying to buy land that is in an existing unit or we 
are dealing with a watershed where we're trying to protect that 
watershed and we already own lands on those watersheds. These 
are ongoing projects that I think that the Congress in the past 
has bought into as being projects that are worthwhile and 
should be completed. So I think--I don't think it is one or the 
other.
    Mr. Cramer. Thank you. Thank you, Mr. Chairman.

                            Visitors Centers

    Mr. Regula. How many visitor centers do you have?
    Mr. Fry. Mr. Chairman, I have to get you that for the 
record. Not a lot.
    [The information follows:]

                            Visitors Centers

    The Bureau of Land Management has 82 various visitor 
contact/information facilities (i.e., Visitor, Heritage, 
Interpretive, Contact Stations, etc.). A vast majority of these 
facilities are small visitor contact stations.

    Mr. Regula. But you do have some?
    Mr. Fry. We do have some. We started the funding for the 
visitor centers--I am going to call them visitor contact 
stations outside of Grand Staircase. You may recall we have a 
visitor center in Casper, Wyoming, that Congressman Cubin has 
been most interested in for the historic trails and Yaquina 
Head----
    Mr. Regula. Red Rock.
    Mr. Fry. Red Rock has a visitors center. Those are the 
exception and not the rule.
    Mr. Regula. Mr. Dicks.

                               Inholdings

    Mr. Dicks. Thank you, Mr. Chairman. I too regret we had the 
Secretary of Defense before the Defense appropriations 
subcommittee this morning. Had to be there to ask a couple of 
questions. But you and I had a nice conversation yesterday, and 
let me also say I strongly support your efforts to update your 
existing land-use plans. I think that is essential. I think 
when some of these get to be 25 years old, their relevance is, 
especially with all the changes in land management, has to be 
in question. So I urge you to keep that effort up. I for one 
will be very supportive of that. And I also understand that 
under the land's legacy, as you said, most of the monies are 
going to be ideal for inholdings. Isn't that correct?
    Mr. Fry. Inholdings and watershed. We're already working on 
protecting them.

                            Road Maintenance

    Mr. Dicks. Just one point I wanted to make. I asked the 
Secretary yesterday about the situation on roads. And roads is 
a huge problem for the Forest Service. They have an $8 to $10 
billion backlog. I worry very much about their ability to 
maintain their timber roads in the northwest and the effect 
they have on fish. When these roads deteriorate, as you know, 
they can have a very negative consequence of getting dirt, 
silt, rock, whatever into the rivers, kill the eggs, the salmon 
or makes it impossible for them to move up and down the river.
    And now we have a 4-D rule in the specific northwest in 
many areas and Federal agencies have to consult under section 7 
with the National Marine Fisheries Service. Now, can you give 
me an idea what your backlog on roads is and how you are 
dealing with this issue and is it getting priority attention, 
especially--I know you are not a big factor in Washington 
State, but you are very substantial in Oregon and in northern 
California, I believe.
    Mr. Fry. That is correct. Although the number in terms of 
maintenance backlog for us is an entirely different kind of 
number than the Forest Service. I think we are in about the 
$270 million range. Of that about 60 percent of those numbers 
deal with roads and road issues, but I think the Secretary was 
probably correct yesterday when he said we have the same kind 
of road issues that the Forest Service has in the Northwest. 
Our roads in the northwest are mature roads, mature logging 
areas. We are not in the process of going in and building new 
roads and we have been able to stay pretty much up with the 
maintenance that needs to take place.
    Yes. Could we spend a little more money on maintenance in 
the Northwest for roads? We think, yes, we could; but we think 
we are pretty well up to date in terms of maintaining our roads 
because one of our obvious concerns, the same concern you just 
expressed, is a deteriorating road is probably the worst thing 
that can happen in the environment in terms of trying to make 
sure we keep our streams clean and keep from having the kind of 
degradation that roads can cause. I think we are doing fairly 
well in terms of dealing with our road issue.

                             Timber Harvest

    Mr. Dicks. Under the President's Northwest forest plan, as 
you know, we made a commitment to try to get to a billion board 
feet a year in timber sales. This is down from a historic level 
of around 4 billion board feet. So it is a dramatic reduction, 
and yet we still had difficulty in reaching those goals. Just 
give me generally your view on that and what has been the 
problem. I know the survey and management of certain species 
has been a problem. But can you give us kind of where BLM is? 
Of course, BLM is one component of this as is the Forest 
Service, so can you give us a little overview there?
    Mr. Fry. Yes, Mr. Dicks. BLM, I think, based on the forest 
plan, started their output in the mid-90's, and BLM was able 
through the year 1998 to either meet or exceed the board feet 
that were established in the Northwest Forest Plan. 
Unfortunately, in 1999 there was a lawsuit that ended up 
enjoining us from moving forward with any additional sales. It 
does relate to the issue you raised of survey and manage. So 
that in 1999 the BLM had hoped to get out 213 million board 
feet; and we were only able to get out 61. We were hoping to 
get out the same number in the year 2000, and we think it is 
getting to be right at 70 million board feet for the year 2000. 
So BLM will only be in at about one-third of what we are 
permitted to do.
    Mr. Dicks. How long will it take us before we will be able 
to get back to our commitment?
    Mr. Fry. We estimate that in 2001, unless we are enjoined 
again, we will be able to meet our commitment of 211 million 
board feet.
    Mr. Dicks. I thought you said this year you wouldn't be.
    Mr. Fry. 2001.
    Mr. Dicks. So this was 1999 was the first year. 2000 same 
problem. 2001 you are going to be able to get back to your 
estimates.
    Mr. Fry. BLM has been doing a survey and manage under the 
settlement that was reached, and is out there doing the 
remaining portion that is required by the settlement. Then we 
will be able to, under the current settlement, start moving 
board feet later this year. Mr. Dicks, if I may, we do have a 
request in this budget for some additional funds for the survey 
and manage. It is $3 million.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. I see we have no other members here. You are 
going to get off easy this morning. You are going to have a 
long lunch. I have a lot of questions for the record, but I 
have another hearing I want to get to. So do you have anything 
further, Mr. Dicks?

                            GAO Report--Fire

    Mr. Dicks. Yesterday the Secretary--this is the last one, 
Mr. Chairman. Yesterday the secretary mentioned the new GAO 
report dealing with the recommendation on fire suppression 
standards and use of prescribed fire to control underbrush 
fuels. He implied this would be a very expensive report. Can 
you tell us more about this issue and the GAO report?
    Mr. Fry. I have not had a chance to review the GAO report. 
I am sorry, Mr. Dicks.
    Mr. Dicks. Any of your backups?
    Mr. Fry. No.
    Mr. Dicks. Could you then put a very detailed response in 
the record so that the committee will be aware of what you 
think this all amounts to.
    Mr. Fry. We would be glad to.
    [The information follows:]

                            GAO Report--Fire

    The General Accounting Office (GAO) report titled ``Western 
National Forest: A Cohesive Strategy is Needed to Address 
Catastrophic Wildfire Threats (RCED 99-65), was issued on April 
2, 1999, and addressed catastrophic wildfire threats faced by 
the U.S.F.S. In response to the GAO report, the Forest Service 
prepared a strategy for reducing the risk of catastrophic 
fires. The Secretary of the Interior has asked the BLM to lead 
an interagency group to develop a coordinated strategy for 
reducing wildland fires on Federal lands managed by Interior. 
Specifically, the Secretary is asking the group to: assess and 
describe the current health of Interior Department managed 
lands; identify the ecological and social values at risk on, or 
adjacent to, Interior Department managed lands; prepare a range 
of options and recommendations for an Interior Department 
strategy to reduce risks of wildland fire; and integrate and 
coordinate the Interior Department strategy with the proposed 
Forest Service ``cohesive strategy.''
    The results of this effort should be available later this 
fiscal year.

                        Total Maximum Daily Load

    Mr. Dicks. Thank you. Thank you, Mr. Chairman.
    Mr. Regula. Thank you. One last question. Will the new 
regulation that EPA has proposed on TMDL, which could have a 
major effect on forests, have an impact on your forest 
operations?
    Mr. Fry. We will have to take into account TMDL as we deal 
with management decisions on the ground.
    Mr. Regula. Would that be a fairly sizable management 
challenge?
    Mr. Fry. We are already doing that. It is part of the day-
to-day job. As they make adjustments to that policy, we have to 
make adjustments to our land management.
    Mr. Regula. Okay. Thank you very much for coming.

                               Bulltrout

    Mr. Dicks. Could I ask a quicky. How are you doing on bull 
trout?
    Mr. Fry. I haven't been fishing lately. [Laughter.]
    Mr. Dicks. They are an endangered species. I am not sure 
they are under BLM lines, but I just wanted to know. I don't 
know of anybody who's found a bull trout yet. I am asking 
everyone who comes in here. Thank you.
    Mr. Regula. Thank you. The committee is adjourned.
    [Additional questions for the record follow:]
    Offset Folios 285 to 329 Insert here

<SKIP PAGES = 045>

    Offset Folio 330 Insert here

<SKIP PAGES = 001>

                                           Thursday, March 2, 2000.

                     U.S. FISH AND WILDLIFE SERVICE

                               WITNESSES

JAMIE RAPPAPORT CLARK, DIRECTOR, U.S. FISH AND WILDLIFE SERVICE
STEPHEN GUERTIN, CHIEF, DIVISION OF BUDGET, U.S. FISH AND WILDLIFE 
    SERVICE
GARY FRAZER, ASSISTANT DIRECTOR, ECOLOGICAL SERVICES, U.S. FISH AND 
    WILDLIFE SERVICE
DANIEL ASHE, ASSISTANT DIRECTOR, REFUGES AND WILDLIFE, U.S. FISH AND 
    WILDLIFE SERVICE
KEVIN ADAMS, CHIEF, LAW ENFORCEMENT, U.S. FISH AND WILDLIFE SERVICE
CATHLEEN SHORT, ASSISTANT DIRECTOR, FISHERIES, U.S. FISH AND WILDLIFE 
    SERVICE
MARSHALL JONES, ASSISTANT DIRECTOR, INTERNATIONAL AFFAIRS, U.S. FISH 
    AND WILDLIFE SERVICE
TOM MELIUS, ASSISTANT DIRECTOR, EXTERNAL AFFAIRS, U.S. FISH AND 
    WILDLIFE SERVICE
DENISE SHEEHAN, ASSISTANT DIRECTOR, BUDGET, PLANNING, AND HUMAN 
    RESOURCES, U.S. FISH AND WILDLIFE SERVICE
PAUL HENNE, ASSISTANT DIRECTOR, ADMINISTRATION, U.S. FISH AND WILDLIFE 
    SERVICE
JOHN D. TREZISE, DIRECTOR OF BUDGET, U.S. DEPARTMENT OF THE INTERIOR

                          Director's Testimony

    Mr. Regula. We will get started this morning. We probably 
won't have a lot of members because of the House schedule. We 
are happy to welcome Jamie Clark, who is the director of the 
U.S. Fish and Wildlife Service. That is very impressive. The 
programs that you supervise are vitally important because they 
go to the preservation of the species and to the understanding 
of part of our ecological heritage. We welcome your testimony. 
The entire testimony will be made part of the record, and if 
you can summarize, we appreciate that.
    Ms. Clark. Good morning, Mr. Chairman and members of the 
committee. It is good to be here. We appreciate the opportunity 
to present the President's fiscal year 2001 budget request for 
the U.S. Fish and Wildlife Service. Our budget supports the 
common goals of the Congress and the administration by working 
with partners at the State and local level to enhance the 
livability of our outdoor spaces, finding common sense 
solutions to habitat and species protections and by taking care 
of what we have by addressing critical operations, maintenance, 
and safety needs.
    The request for appropriated funds total $1.127 billion, an 
increase of $250 million over fiscal year 2000. With our 
permanent appropriations, the total request is $1.75 billion. 
Highlights include badly needed funding increases for law 
enforcement as a downpayment on what I strongly hope will be a 
sustained effort to strengthen this program; increases for 
endangered species and refuge operations and maintenance and a 
new non-game conservation program.
    We are requesting $112 million for land acquisition and 
funds to continue the Department's 5-year plan to address 
construction and maintenance backlogs. We are requesting $762 
million for the resource management account, a net increase of 
$47 million from 2000. A major priority for this year is to 
strengthen our law enforcement program. Our special agents are 
operating in a dangerous and ugly new world of sophisticated 
organized crime, smuggling, illegal trade and Internet sales of 
animal parts. Our budget includes a $12.6 million increase as 
the first of a multi-year effort to restore our operational 
capabilities, hire special agents to fill critical vacancies 
created by mandatory retirements and to adequately equip law 
enforcement officers with modern day equipment.
    In addition, we plan to correct deferred maintenance 
problems at our forensics lab in Ashland, Oregon. I would note 
here that there has not been any real increase in law 
enforcement funding in several years. With static funding and a 
significant number of impending mandatory retirements among our 
agents, our ability to maintain our current efforts and 
capabilities, let alone to adapt to the new circumstances, is 
very much threatened. For example, even if we are able to hire 
the requested 30 new agents, retirements will result in our 
having only 219 of the authorized 252 special agents on board 
at the end of the fiscal year. So you can see we have a fairly 
significant recovery task ahead of us.
    We are continuing our efforts to strengthen management of 
our 521 national wildlife refuges. This year's budget includes 
$20 million in additional funding. We have used our successful 
refuge operating needs system to identify 89 operational 
projects to receive this increase. We are requesting an 
additional $7 million for the endangered species program, and 
propose to make other funds available for high priority 
projects by targeted program decreases, resulting in increases 
of $1.3 million to implement additional conservation 
agreements, almost a million dollars to address the increasing 
number of listing actions in litigation cases, $7 million to 
develop and implement new habitat conservation plans and to 
conduct the increasing number of section 7 consultations, and 
$2.4 million for species recovery plans for the 
reclassification and delisting of species and to implement 
important recovery actions across the country.
    There are several efforts underway in our fisheries 
programs in 2001, as detailed in the formal statement, 
including support for the National Fish Hatchery system, the 
Alaska Subsistence Fisheries program and restoration efforts in 
the Klamath and Trinity River Basins in California. In addition 
to the program increases I have already talked about, we have 
requested funding packages to support habitat conservation 
programs, migratory birds and international affairs. The second 
year of the Administration's Lands Legacy Initiative builds on 
our commitment to our natural environment through the 
preservation of our public lands and national treasures, and 
through partnerships with states and local communities to 
protect open spaces and natural resources.
    The Fish and Wildlife Service plays a key role in the 
overall strategy. Our land acquisition request is $112 million. 
Of special note is $30 million requested for key habitats at 
some of our Florida refuges. Funding for the North American 
Wetlands Conservation Fund is proposed to be doubled from $15 
million to $30 million, capitalizing on the tremendous on-the-
ground conservation accomplishments in Canada, the United 
States, and Mexico.
    We are requesting $65 million for the Cooperative 
Endangered Species Conservation Fund with Habitat Conservation 
Plan Land Acquisition Grants to receive $21 million and section 
6 Grants to States to receive $41 million. We have lots of 
exciting opportunities to work with you this year to further 
our common goals for conservation. Our budget includes key 
operations increases, continues tried and true partnership 
efforts, and presents a continuing opportunity to work together 
on the Administration's Lands Legacy Initiative.
    Thank you, Mr. Chairman, and I would be happy to answer any 
questions.
    Mr. Regula. Thank you.
    [The Statement of Ms. Clark follows:]
    Offset Folios 338 to 350 Insert here

<SKIP PAGES = 013>

                             Forensics Lab

    Mr. Regula. You mentioned the facility in Medford, the 
forensics lab. Our subcommittee visited out there. It is really 
outstanding. It is very impressive to see the activities there 
and the fact that it is almost a world institution because what 
I found a little intriguing, they can identify caviar coming 
from Russia, whether it is the real thing or whether it is a 
substitute.
    Mr. Kolbe. We just consume the caviar here in Washington.
    Mr. Regula. But you don't know whether you are getting the 
real McCoy. They would substitute Beluga which is supposed to 
be the best, and they would put in substitute eggs and sell it 
as Beluga, and your lab was able to identify it through what, 
DNA?
    Ms. Clark. Through DNA analysis. It really was aimed at 
trying to stem the illegal use of sturgeon, which are listed 
under CITES. But clearly the capability and the expertise of 
those folks at the lab is unequaled in the world. It is very 
impressive. And it is central for law enforcement purposes.
    Mr. Regula. I think furs are another thing. There is a lot 
of wildlife that is being slaughtered illegally in other 
countries.
    Ms. Clark. Right.
    Mr. Regula. How many Federal statutes do you have to 
enforce, do you have any idea?
    Ms. Clark. I can count on my fingers as I list them. We 
have very broad authorities. I can't give you the exact number, 
Mr. Chairman, but I can certainly get it for you, a whole list 
of them.
    [The information follows:]
    Offset Folios 353 to 360 Insert here

<SKIP PAGES = 008>

                         FY 2001 Budget Request

    Mr. Regula. Well, this leads me to this question. I notice 
just looking at the numbers here, that your Lands Legacy 
proposal is up 116 percent, resource management is up 7 
percent, which includes law enforcement. You are making, I 
think, a very good case for law enforcement and certainly the 
forensics lab, but it makes me wonder if you don't have a 
little bit of disproportionate allocation to put so little in 
resource management and so much in land acquisition.
    Ms. Clark. Well, Mr. Regula, that is a great question. I 
think we are faced with tough decisions and a tough balance. As 
the country increases its population numbers, as threats to 
resource conservation and natural resources increase, certainly 
the administration's desire, the Fish and Wildlife Service's 
desire to protect open space and protect the best of what is 
left of natural resources for future generations is clearly 
important. At the same time, as I said in my testimony, we have 
to do a better job of taking care of what we have and taking 
care of the growth needs of the operational programs, and we 
have tried to set forward that balance.
    Mr. Regula. I know that we have had this discussion before 
about taking care of what we have, but you are adding 
enormously to the responsibilities of your agency and this 
subcommittee by acquiring all of this land as proposed in your 
package. I think the amount of funding you propose to allocate 
for, quote, ``taking care of what we have,'' is inadequate and 
this only exacerbates the problem, to acquire all of these new 
areas.
    Ms. Clark. Well, there are other parts of that, the 
doubling of the North American program which clearly is aimed 
at on-the-ground accomplishments, the non-game conservation 
program, the grant program to the states and the Cooperative 
Endangered Species Conservation Fund which magnifies our 
partnerships with States and others to do good things for 
species.
    Mr. Regula. But the States are doing very well financially, 
and they all have game commissions. Shouldn't they take care of 
this themselves?
    Ms. Clark. They are doing quite well. The primary use of 
funds and the primary fund source for the State fish and game 
agencies or fish and wildlife agencies is really from hunting 
and excise taxes. We felt strongly that we should demonstrate 
some leadership in the non-game area and step out and show that 
we were committed to that partnership for what, quite frankly, 
is the vast majority of species that are nonconsumptive and the 
species that ultimately tumble onto the Endangered Species 
list; and further the partnerships that we have with the States 
and local communities for species conservation.
    Mr. Regula. Are all of these programs predicated on a 50/50 
match with the States?
    Ms. Clark. The Non-Game does not require a no match. The 
Section 6, the traditional grants to States is 75/25 or 90/10.
    Mr. Regula. Shouldn't there be a match? It is $100 million 
of your budget with no match on the part of the states.
    Ms. Clark. It is certainly something worth considering.
    Mr. Regula. How many million acres do you have in your 
agency?
    Ms. Clark. 93 million acres.
    Mr. Regula. That is a lot of land to be responsible for 
managing, and it seems our number one priority has to be the 
Federal role. If we could maybe reduce the amount that we are 
putting into the States in return for which they come up with 
50 percent.
    Ms. Clark. Certainly our responsibility to our land base is 
paramount; and it is very, very important. At the same time, 
the reality is we recognize that wildlife don't know if they 
are on a National Wildlife Refuge, a state wildlife management 
area, or somebody's backyard. Because of the broadness of the 
Fish and Wildlife Service's authority, whether it is the 
Migratory Bird Treaty Act or the Endangered Species Act or the 
Fish and Wildlife Coordination Act or the Federal Power Act or 
the National Wildlife Refuge System organic legislation, they 
all come together to protect wildlife in this country; and we 
are always faced with those challenges and those priorities of 
attempting to balance. But our land base is very important to 
that.

                     National Wildlife Refudge Fund

    Mr. Regula. I think we have to make priority judgments. 
That is a lot of the problem. I know that there are several 
Members of Congress who are more than mildly disappointed that 
you have requested a decrease in payments to counties from the 
National Wildlife Refuge Fund. It is $11 million for 2000, and 
$10 million for fiscal year 2001. How do you justify decreasing 
county payments at the same time you dramatically increase land 
acquisition with an obvious impact on the counties?
    Ms. Clark. Well, it depends on how you define impact. 
Refuges--we have never looked at refuges as being burdens on 
the community. Let me give you a couple of examples. At 
Chincoteague on the Eastern Shore, the economic boom, 
ecotourism, the economic positives and benefits to the local 
communities are terrific. Chincoteague, the Assateague National 
Seashore, and Minnesota Valley National Wildlife Refuge right 
outside the Twin Cities are magnets that draw people that want 
to experience open space. They are all contributing to the 
economy. The Administration is continuing its level of 
commitment to the counties. We have been looking for creative 
ways to deal with this issue and are still doing that.
    Mr. Regula. I see that you have reduced the fund. Would you 
favor abolishing it?
    Ms. Clark. I would not, Mr. Chairman.
    Mr. Regula. Obviously when you take this land out of 
production, it has an impact on the economy because it involves 
people's jobs and in many cases agriculture. It is taxes that 
they pay to the school districts and local government. And you 
have to balance that impact against the value of recreation.
    Ms. Clark. True.
    Mr. Regula. I think you need to weigh those tradeoffs 
carefully, especially when you have 93 million acres.
    Do you feel that you are doing a first-class job of taking 
care of the 93 million acres that you already have?
    Ms. Clark. I feel that we are doing as good a job as we 
can. We have an incredibly dedicated workforce. Could we do 
better? Absolutely. Do we have all of the resources we could 
have if we had our dream list? No, we don't. But we are working 
really hard to implement new policies and to set priorities for 
the refuge system that maximizes utility.

                          Maintenance Backlog

    Mr. Regula. It puzzles me that on page 147 on your budget 
request you state, ``Maintenance backlogs in the refuge system 
continue to rise in large part due to lack of sufficient funds 
to conduct routine annual maintenance.'' That is somewhat of a 
serious indictment by yourself of the agency; and yet here you 
propose to increase land acquisition by 116 percent. You have a 
very modest increase on refuge maintenance.
    Ms. Clark. Again, it is a sense of priorities and a sense 
of balance. I am not disagreeing with you at all, Mr. Chairman. 
We are weighing the notion of protecting what is left while 
there is something left to protect while continuing our 
commitment to dealing with the maintenance backlog, to dealing 
with the operations backlog. We have to make tough choices 
every day.
    Mr. Regula. I understand, and I think you testified a 
couple of weeks ago that your backlog is about $2 billion?
    Ms. Clark. The operations and maintenance backlog is about 
$1.8 billion.
    Mr. Regula. How much more do you think should be put into 
maintenance to see ultimately a catchup?
    Ms. Clark. We are breaking our operations backlog into 
tiers. Regarding maintenance, critical health and safety is the 
top priority. I actually don't have the numbers off the top of 
my head, but I would be glad to provide a discussion of those 
segregated efforts.
    [The information follows:]
    Offset Folios 367 to 370 insert here

<SKIP PAGES = 004>

    Mr. Regula. Do you have a plan in 5 years, 10 years to 
catch up and be current on maintenance?
    Ms. Clark. I think pragmatic reality would suggest we would 
never catch up because you are going to have the revolving 
maintenance needs, but we try to get ahead of the curve.
    Mr. Regula. Some plan to be doing more than normal each 
year so there is some catchup, maybe not a hundred percent.
    Ms. Clark. We do have the 5-year maintenance plan, and we 
have our database, the Maintenance Management System, which 
deals with both our refuge and our National Fish Hatchery 
system to address the maintenance backlog. We absolutely do 
have a road map to try to get ahead of the curve.
    Mr. Regula. We have a lot of other questions, many of which 
we will put in the record.
    Ms. Clark. Okay.
    Mr. Regula. Mr. Dicks.

                     State Non-Game Wildlife Grants

    Mr. Dicks. I want to welcome Director Clark here, and I 
want to understand better just how the funds in your new non-
wildlife grant program will be used by the states. As we 
understand the proposal, targets of this program are neither 
threatened nor endangered. Are you proposing to create a new 
system of federally protected species?
    Ms. Clark.  No, absolutely not. And I guess I would also 
say that endangered and/or threatened species are not excluded 
from this account either. But this program is to be used by the 
states for everything from habitat surveys to land acquisition 
to monitoring, to resource inventories for species that are 
designated as non-game, which could include candidate species, 
endangered species and threatened species, but certainly those 
that are designated as non-game.
    Mr. Dicks. Okay. And would this--would the $100 million 
just be divided up? What would be the basis for allocation to 
the states?
    Ms. Clark.  It is divided up on a percentage of the land 
areas of the state and the population of the state, and we have 
actually done a tentative break out, formula split, which we 
would provide for the record and for you, Mr. Dicks. It would 
show how it goes to the States and then a percent carved out 
for the tribes.
    [The information follows:]
    Offset Folios 374 to 377 Insert here

<SKIP PAGES = 004>

    Mr. Dicks. And this is not part of the Land and Water 
Conservation Fund?
    Ms. Clark.  It is part of the Administration's Lands Legacy 
Initiative.
    Mr. Dicks. It is Lands Legacy?
    Ms. Clark.  Right.
    Mr. Dicks. Tell me what the difference is between Lands 
Legacy and Land and Water Conservation Fund.
    Ms. Clark.  Lands Legacy is the administration's initiative 
to deal with the legacy of conservation on the landscape. I am 
trying to figure out how I would term it. It not only involves 
the Land and Water Conservation Fund for Federal land 
acquisition, but it involves a myriad of other programs. These 
include the North American Wetlands Conservation Fund, and the 
Cooperative Endangered Species Conservation Fund, which 
provides everything from land acquisition support for Habitat 
Conservation Plans to the traditional grants to states. It also 
includes the $100 million non-game fund. The LWCF account is 
the piece of that which funds Federal land acquisition which 
adds to the refuge system, to the park system and so on.
    Mr. Dicks. Your budget suggested these grants would reduce 
the risk of regulatory action to protect the species involved 
because hopefully they would not become threatened or 
endangered. What criteria will be used to choose which species 
can be targeted by the States for the benefit of these funds? 
Is it just non-game?
    Ms. Clark.  It is non-game, and it is up to the management 
prerogatives of the States, and the States often work across 
their borders to deal with leveraging their capabilities for 
wide-ranging species. We would be working along with the states 
on this as we do under Section 6 of the Endangered Species Act.
    Mr. Dicks. At the Federal level, the Fish and Wildlife 
Service uses a land acquisition priority system called LAPS. 
What standards do you propose for the states in the use of this 
new money?
    Ms. Clark.  Well, the moneys can be used for a whole host 
of activities, planning, inventory, monitoring, habitat 
restoration; but they also can be used for land acquisition, 
and we would expect that the land acquisition would certainly 
be targeted at non-game species. But you know when you acquire 
land, and you are buying good pieces on the landscape, you are 
managing for biological diversity, so the opportunity to 
support a whole host of species is very high.
    Mr. Dicks. In addition to the land acquisition under this 
new program, you have an increase of $60 million in direct land 
purchases. What are your highest priorities for land purchases 
next year?
    Ms. Clark.  We have a structured list for Federal 
acquisition that has a number of refuges on it. Mostly the 
rounding out of refuges that exist today. I am trying to think 
of some that are on the list. We have focus areas. There are 
focus areas in the Mississippi Delta, the Florida Everglades, 
the Northern Forest, Lewis and Clark Corridor, and southern 
California. But then we also have some priorities scattered 
across the country based on the resource priorities and the 
rankings in our land acquisition priority system.

                           bull trout listing

    Mr. Dicks. Tell me how we are doing on the bull trout, the 
listings of the bull trout?
    Ms. Clark.  There is a lot of work going on on the bull 
trout. We have been working closely with the states and 
primarily the other federal agencies to deal with the 
consultation needs. There is a huge consultation workload 
associated with the bull trout, as you probably know.
    Mr. Dicks. Right.
    Ms. Clark.  There are over a hundred consultations that 
have been conducted informally, close to that formally, with 
all kinds of agencies. The BLM, the Bureau of Land Management, 
has been working on a land management plan at the greater plan 
level consultation that would kind of overlay all of their 
lands. But----
    Mr. Dicks. Let me ask you one that I worry about. Do you 
think that there should be a consultation between yourself and 
the Forest Service in the Northwest on their roads and what the 
effect they have on both salmon and bull trout are? There is a 
problem in that the Forest Service has admitted that they have 
an $8 to $10 billion backlog in maintenance, and I keep hearing 
from a lot of people in my area that they are very concerned 
about the deteriorating condition of these roads. Should there 
be a consultation on this? To look at the condition of these 
roads and see if we can't put a little heat on the Forest 
Service to fix them up?
    Ms. Clark.  The consultation wouldn't be on the condition 
of the roads. The consultation would be triggered by the effect 
of the roads on listed species.
    Mr. Dicks. That is exactly what I wanted to get at. I may 
have not said it accurately. I think that there needs to be 
something done there and whether there is a jeopardy opinion 
that would come down on the Forest Service for not maintaining 
these roads.
    Ms. Clark.  Certainly I can't disagree with you at all. The 
Forest Service has really tried to aggressively get after this 
backlog, and I know that they are struggling with the road 
issue. I have not personally investigated the Northwest 
problem, but I would not be surprised that the status of their 
roads isn't contributory to some of this.
    Mr. Dicks. We are going to be asking all of these local 
governments, all of these businesses out there to literally 
spend hundreds of millions of dollars on protecting salmon and 
bull trout, and we are spending money on all of the ports and 
everywhere else. It seems to me that how can we do that and on 
the other side say the Forest Service can just leave these 
roads in this dreadful condition. I am very disturbed about 
that.
    Ms. Clark.  I absolutely agree with the notion, and I think 
this Administration has worked hard to try to ensure that the 
primary responsibility for conservation of endangered species 
should be borne by the federal government, and that certainly 
would include the Forest Service; and it is why we have tried 
to shift the burden for consultation and recovery to the 
federal sector, to try to take some of the pressure off the 
private landowners and pressure off the states. Clearly we need 
to do our fair share, and that would include the Forest 
Service.
    Mr. Dicks. Do you have a lot of roads in your system?
    Ms. Clark.  Not nearly like the Forest Service. Not at all. 
Nor do we plan to create them.
    Mr. Dicks. Thank you, Mr. Chairman.

                       authority to acquire land

    Mr. Regula. I have one followup to Mr. Dicks' question. You 
have wide authority to buy land, acquire land?
    Ms. Clark.  Right.
    Mr. Regula. Unique in all of the agencies that we 
supervise. Do you go into the community, do you talk to a 
Member of Congress, do you talk to the people in the community 
before you do a taking? It has to have a tremendous impact.
    Mr. Dicks. They do not do takings.
    Mr. Regula. Not in the sense of eminent domain, but in the 
sense of acquiring land?
    Ms. Clark.  We have a very structured process for how we 
acquire lands. It involves a lot of community involvement and 
compliance with the National Environmental Policy Act, and it 
involves project planning through the development of a boundary 
management plan. So I think could we do a better job in some 
areas? Yes. You and I have talked about that, but we don't just 
swoop in quietly.
    Mr. Regula. At our last hearing with you, someone had a 60-
day notification period. As a practical matter, do you have 
some mechanism to alert the community and the people involved 
that you are contemplating acquiring a piece of land?
    Ms. Clark.  Absolutely. We make public announcements about 
it. We hold hearings, and we get involved in the local 
community. Remember that we only buy from willing sellers. That 
is really important.
    Mr. Regula. That could still reverberate through the 
community for----
    Ms. Clark.  It absolutely could.
    Mr. Regula [continuing]. Officials, mayors, commissioners, 
et cetera.
    Mr. Kolbe.

                    sonoran desert conservation plan

    Mr. Kolbe. Thank you, Mr. Chairman. And Director Clark, 
welcome to the committee. The work of the Fish and Wildlife 
Service is an extraordinarily important one, and I think we all 
recognize the role that it plays in preserving habitat and 
preserving species on this planet; and we think that it is a 
very high order of work that you do, and we appreciate the work 
that you do.
    I had some conversation, rather extensive comments the 
other day with Secretary Babbitt about the Sonoran Desert 
Conservation Plan in Tucson. As I mentioned there, when you 
compare it to something like--in another urban area like the 
San Diego plan, this is more than 10 times the size of it; and 
it is going to be one of enormous complexity. And so my 
question is to try to confirm with you as well a couple of 
fairly soft questions here, and then I have a couple of tougher 
questions.
    Does the Fish and Wildlife Service view this Sonoran Desert 
Conservation Plan as a high priority on a national level? We 
are making it a high priority in Pima County in southern 
Arizona.
    Ms. Clark.  Absolutely. When I was in our Southwest 
regional office, I got a real appreciation for the ecological 
sensitivity in that part of Arizona, and clearly with the rapid 
growth, I think Pima County has stepped up incredibly well to 
try to address this issue. And the Secretary has his own 
representative out there who was one of the best from the Fish 
and Wildlife Service, and we have moved some people into that 
part of the state to provide technical assistance to the 
county. I am getting incredibly good reports out of what I hear 
is happening on the negotiation, and we are monitoring it from 
Washington and providing help where needed. But it seems to be 
going very well, and the county seems to be pretty happy; and I 
think they are amazingly tackling a very complex challenge in 
that part of the world quite well.
    Mr. Kolbe. Thank you. I will come back to that in a second.
    Does your budget request include funding for your work on 
this plan?
    Ms. Clark.  It does as part of the Lands Legacy Initiative.
    Mr. Kolbe. So fully funded, you would have about a million 
dollars?
    Ms. Clark.  That's correct.
    Mr. Kolbe. As you suggested, I think most people that are 
working on this in Arizona are reasonably happy with the way 
that the process is going, but of course it poses some problems 
because you basically ground to a halt a lot of activities in 
the county while this process is going on. In a community that 
now is approaching a million, about 850,000, 900,000 people, 
that is a huge impact. I think everybody recognizes the long-
term benefits of having this hiatus while we are working 
through this process.
    We are going to be putting out a preliminary plan this 
summer, and it is a major hurdle to achieving the final plan. 
My question to you just--by way of comparison, I think more 
than $7 million was spent in San Diego on the studies that were 
done. So far Pima County has spent a million and a half, and it 
will far exceed what the Federal Government is going to spend 
in its share of the planning process.
    So my question to you is: we believe that an additional $2 
million would effectively expedite the completion of the 
conservation plan at a time when so far everybody is working 
cooperatively together. Obviously things could change that. I 
think $2 million would enable us to get this done much more 
rapidly and to get the community moving again. Would you agree 
with that, if we could get extra money, that we could finish 
the EIS, the Multi-species Conservation Plan, the NEPA 
documents, and get them done in an expedited fashion if we had 
extra money?
    Ms. Clark.  Extra money should expedite the process.
    Mr. Kolbe. Sometimes it is just a matter of time.
    Ms. Clark.  If the studies are there and if in fact what it 
becomes is process, finishing off the analysis of the EIS or 
something like that, then maybe putting more resources into it 
would help accelerate it. But I would be glad to look into the 
specifics. I don't know it that well to know what an additional 
million dollars could----
    [The information follows:]

            Funding for the Sonoran Desert Conservation Plan

    Pima County's Sonoran Desert Conservation Plan will 
approach an important juncture in FY 2001: Pima County received 
a $1 million appropriation in FY 2000, which is supporting the 
collection and analysis of biological information necessary to 
assess Pima County's sensitive species and their habitats; 
determine a viable preserve configuration, and assist the 
various watershed land panels in deliberating the future of 
land uses in their watershed areas. Once this information is in 
hand, it will be critical that Pima County have sufficient 
funds in FY 2001 to move forward with the subsequent phases of 
the planning process, including the completion of the multi-
species conservation plan and the environmental impact 
statement. The projected cost of these subsequent phases cannot 
be determined until current data collection and analysis are 
complete, however this is the type of project that would 
compete well for funding requested in the Service's Cooperative 
Endangered Species Fund in FY 2001.

    Mr. Kolbe. We believe it could, and if we could find some 
way to do that.
    The other issue is the issue of the critical habitat 
designation which is part of this and part of broader issues 
throughout the country. I believe you said on several occasions 
that the critical habitat designation doesn't have an effect on 
the protection of the species over and above the listing 
protections. In fact, looking at a news release put out last 
month, there is this statement from your office: ``Protection 
of these species has thus been the highest conservation 
priority. Rather than expending dollars on designating critical 
habitat for species already under the protected measures 
provided by the act, listed species habitat is protected under 
other provisions of the act, whether or not that habitat is 
formally designated as critical.''
    Ms. Clark.  That is a true statement.
    Mr. Kolbe. That is your position. It doesn't get 
implemented that way as you know by your field offices or other 
Federal agencies. Are you aware of that?
    Ms. Clark.  There are a couple of issues surrounding that 
that I am sure you are painfully aware of. Critical habitat is 
the latest current rage in litigation. It has gotten so warped 
it is almost hard to have a discussion about it. With our 
limited resources, particularly after the moratorium a few 
years back, we have tried to work on providing protection of 
those species that needed protection under the Endangered 
Species Act, and we felt that we had the ability to protect the 
habitat of those species under other provisions of the act and 
didn't need to formally designate critical habitat.
    The other problem with critical habitat has been the source 
of debate of every reauthorization to date that has failed, and 
that is it is ill-timed in the current statute. We are asked to 
designate critical habitat when we list a species when we don't 
know where the appropriate habitat areas are that would support 
the recovery. There was a Senate bill last year that almost got 
us to a place of putting critical habitat in the right place as 
a recovery tool. We don't believe that the whole notion of 
critical habitat needs to be articulated in regulatory fashion. 
It could be described and managed as part of the greater 
recovery planning effort. But the fact of the matter is it is a 
statutory provision in current law, and we lose case after case 
after case because it is tied to deadlines and it is tied to 
process.

                     Endangered Species Act Reform

    Mr. Kolbe. Your comments, Mr. Chairman, and the comments of 
Director Clark certainly are one more argument as to why we 
need to do something about the Endangered Species Act and make 
some real reforms, to strengthen it and make it more flexible 
to do the kinds of things that we need to have done.
    The Environmental Protection Agency, which had issued a 
storm water permit for the Amphi School District which is 
critically overcrowded, needs a new high school, as you 
probably know, and this has become a huge community issue. They 
then pulled the permit, even though it had been issued after 
the endangered species designation for the pygmy owl had been 
made. They pulled it on the basis that it was ineligible 
because of the pending critical habitat designation. So EPA 
said no, there is a critical habitat designation, so this 
permit is not permitted.
    One of your field offices wrote to the town of Marana, also 
in the pygmy owl area, and said you better not redo this zoning 
application because we are about--there is going to be a 
critical habitat designation here. So you have your own field 
offices saying it isn't the designation of the species, it is 
the critical habitat that is the key issue here. So I am just 
telling you that your own field offices are not following what 
is in that press release that you have got there.
    Mr. Regula. That creates a problem.
    Mr. Kolbe. It is a real problem.
    Do you have any plans to try to get some kind of 
implementing regulations or directives to your field offices on 
this as to how this should be handled?
    Ms. Clark.  The whole area of critical habitat is so 
tortured right now, but we have said on the record that we 
believe critical habitat is duplicative once a species is 
listed because it doesn't take much to realize that species 
need habitat to live and sustain themselves. The whole 
construct in the statute today for critical habitat defies 
biological reality, and it is a burdensome process.
    Our folks are struggling with how do you protect habitat, 
how do you protect species. And then you come in with a court 
order designation of critical habitat which requires by its 
very designation additional consultation burden. So that is 
what is triggering. And I agree with your earlier statement, 
Congressman. This is clearly one of the best reasons why the 
Endangered Species Act should be reauthorized. We are knotting 
each up for no reason that is of significant biological gain. 
Habitat is important and species are important, and we need to 
figure out the balance.
    Mr. Kolbe. The current law--is very effective in doing what 
they want, which is to stop anything from happening in an area.
    Mr. Chairman, I have a series of questions also dealing 
with another area, and I will put them in the record.
    Mr. Regula. That's fine. Mr. Hinchey.

                               Everglades

    Mr. Hinchey. Thank you very much. I appreciate your word, 
madam Director, and the opportunity to ask you a couple of 
questions. The President's Land Legacy Initiative very 
important one, and it has been celebrated and praised by a 
great many people around the country. A good part of your 
initiative involves the Everglades. I know that is an issue 
that is very important to the chairman of this subcommittee and 
to many of us as well.
    Ms. Clark.  Sure. We are really excited about the 
opportunity for the Everglades. The Fish and Wildlife Service 
has a tremendous presence in that part of the world, whether it 
is working with the replumbing of the River of Grass or dealing 
with endangered species consultations, but the exciting part of 
the Lands Legacy Initiative is the $30 million to shore up the 
National Wildlife Refuges in South Florida, Florida Panther 
Ding Darling, some of our premier areas, 10,000 islands, and 
using the dollars that had historically gone to the parks. The 
Administration has shifted those dollars to real critical needs 
for the refuges, and we believe that it will go a long way 
toward furthering restoration in south Florida.
    Mr. Hinchey. What sort of things would be done for Florida 
Panthers at Ding Darling Wildlife Refuge?
    Ms. Clark.  Rounding out land acquisition needs at those 
refuges which shores up in holdings.
    Mr. Hinchey. Are you purchasing more on Sanibel Island for 
Ding Darling?
    Ms. Clark.  It is within the current acquisition planned 
for Ding Darling, yes.
    Mr. Hinchey. There is also an initiative in New York on the 
Montezuma National Wildlife Refuge that is only 700 acres, but 
it is still significant for that particular location.
    Ms. Clark.  It is great for migratory birds.

                         Wilderness Management

    Mr. Hinchey. It is an important part of the flyway. I am 
very happy to see that, and I hope that purchase is successful.
    Another area within your jurisdiction is your management of 
wilderness areas in National Wildlife Refuges. There are 75 
congressionally designated wilderness areas that cover some 21 
million acres, but you are shorthanded in managing those areas. 
You have one part-time person who is charged with that 
responsibility, and I am wondering how you can carry out the 
inventory of the resources and designate which areas within the 
National Wildlife Refuge system qualify as wilderness with such 
few resources?
    Ms. Clark.  We spent a great deal of time in discussing 
ways to reinvigorate the discussion, which doesn't equate to 
designating a lot more wilderness, but to reaffirming the 
responsibilities of currently designated wilderness and 
evaluating what may or may not be appropriate for wilderness 
and how we would manage wilderness in the refuge system. It is 
an important policy issue, but it is also an important resource 
issue that we are attempting to address right now.
    Mr. Hinchey. You could use more help in that area, couldn't 
you?
    Ms. Clark. We could use more help in a lot of areas.
    Mr. Hinchey. How does that half a person do it?
    Ms. Clark.  A really good half a person. That is fair. You 
know, again it is a sense of balance and a sense of priorities 
given what we have to work with. But certainly we feel that we 
could use support in lots of areas, and wilderness is one that 
we are interspecting on as we speak.

                         Endangered Species Act

    Mr. Hinchey. That's great, and I hope that is successful. 
The Endangered Species Act has gotten a bit of attention. I 
would like to give it a little bit more if I may briefly, Mr. 
Chairman. The Act requires that critical habitat be designated 
immediately, and we know that the Endangered Species Act is 
without value unless you are protecting the habitat of those 
species. Usually the habitat is peculiar to a particular 
species, and the species cannot survive without the habitat. So 
the designation of the habitat is very important; yet there 
seems to be an inability to designate critical habitat for 
something like 90 percent of the U.S. endangered and threatened 
species.
    You mentioned the court backlog a few minutes ago, and 
there are more than 270 court-ordered designations which have 
piled up. I am a little bit ashamed to observe that the budget 
request for critical habitat by President Bush was $10.1 
million and that the administration has not made a request that 
nearly comes close to that. So this is an area that needs a lot 
of attention, and I think this is something that really should 
be brought to the attention of the administration. I think 
there are people in the administration that are not aware that 
we have not been requesting of this committee and the Congress 
an adequate level of funding to deal with the habitat for 
endangered species.
    Ms. Clark. A couple of comments, Congressman. First, as I 
recall when I was working more specifically on the endangered 
species program, the $10 million budget figure was at a time 
when we had multiple line items combined. We had combined the 
whole listing program and the candidate conservation. So it is 
a difficult comparison with today's numbers and today's display 
of the budget.
    I think what is important--and I get in these debates with 
the oversight committee when we are dealing with ESA reform 
issues--the Fish and Wildlife Service and I think many of our 
constituencies feel very strongly that habitat is important to 
species. And habitat is important to species survival and 
species recovery. What has happened and what has gotten so 
unfortunately warped is the current statutory construct of what 
people call critical habitat. And when it was put in the law 
back in the late seventies, it was to be used as a planning 
mechanism to guide Federal agencies in where they should focus 
their efforts in planning their mission activities. And it was 
kind of a Federal planning tool.
    What it has evolved to--and you get arguments on all sides. 
You get one side which will say if you don't have designated 
critical habitat, you have no protection for the species 
because you haven't in regulation said what is important for 
the species. Recovery plans, ongoing consultation, habitat 
conservation plans provide all kinds of narrative and all kinds 
of road maps for habitat needs. The other side says--or another 
side will say you designate critical habitat by regulation, and 
that means every place else is not important, and that is not 
true either. Just because something is designated by regulation 
as critical habitat does not mean that even where species occur 
or don't occur the habitat is not important for some reason.
    And so the problem that has come with critical habitat is I 
think we have lost sight of what it was originally intended to 
be, and it has taken on this kind of mystical proportion on so 
many sides of the debate that it is not useful any more. That 
is not to say that habitat is not useful, and it is not to say 
that we shouldn't be able to describe what habitat is 
important, but the regulatory construct of critical habitat 
that exists today is becoming increasingly damaging because it 
is so controlled by the courts that it is absolutely 
hamstringing our ability to protect species and to protect 
habitat because we are following court orders all over the 
country.
    Mr. Hinchey. The reason that you are following court 
orders, however, is because you haven't gone out and designated 
the habitat for 90 percent of the species. So people are going 
to court trying to make you do that. Isn't that the case?
    Ms. Clark.  We haven't done it by regulation, but that 
doesn't mean that there are not species recovery plans, there 
are not Habitat Conservation Plans and consultations that 
describe the important habitat.
    Mr. Hinchey. And you think that is adequate and that you do 
not need habitat designation because you have these other 
protective instruments at play?
    Ms. Clark.  I certainly cannot say that for all species, 
but I do believe that we should not be compelled to articulate 
habitat needs for species and it should be done in the recovery 
planning process.
    What has happened because of the courts is it has 
absolutely compromised our ability to add species to the list, 
and it is a debate or discussion I would love to have with you 
more, and it has nothing to do with habitat. I am pro-habitat 
and we are all pro-habitat in the Fish and Wildlife Service. 
But we have just warped the whole debate so we can't figure out 
how to fix it any more. It is clearly ripe for reform.
    Mr. Hinchey. Thank you.
    Mr. Regula. Mr. Cramer.

                            Alabama Sturgeon

    Mr. Cramer. Thank you, Mr. Chairman and Director Clark. 
This is an important opportunity to engage you and the good 
people that work for you in these discussions. Speaking of the 
Endangered Species Act, it is probably no surprise to you that 
I want to talk about the Alabama sturgeon. We have waged for 9 
years this debate. It is really a basis for whether the Alabama 
sturgeon and the Mississippi shovelnose sturgeon are one and 
the same or distinct species, and rather than making everyone 
hear this 9-year history that you are very familiar with, we 
had an agreement close to 5 years ago that looked like it might 
help us resolve it. It didn't.
    Last March the service proposed the Alabama sturgeon for 
listing. Now you have engaged with most parties, including the 
Corps of Engineers, in a new agreement just a few weeks ago, as 
a matter of fact; and we have had new scientific or--maybe not 
new but we knew that it was being developed, scientific 
information indicating that they are not distinct species. But 
this new agreement, I would like your reaction if you could 
either now or later as to whether you think that sufficiently 
addresses the current threats and might enable you to withdraw 
the proposed listing by the March 26, 2000, deadline.
    Ms. Clark. The Alabama sturgeon is probably one of the most 
complex and controversial challenges that we have had in a long 
time. When we proposed the sturgeon a number of years ago, and 
we withdraw it at the end, it was withdrawn because quite 
frankly we could not prove that it still existed in the wild; 
and so it was awkward for us to go forward and add a species 
that we couldn't prove still existed.
    There was a lot of work that stepped up in the Mobile River 
Coalition and a lot of work that was ongoing. But when we 
withdraw it, it was clear that we said if we could ever find it 
in the wild, we would probably extend protection. We found it 
in the wild. Some local fishermen caught some and the state had 
caught some, and we are struggling with how to propagate them 
in the hatchery system.
    We agreed and very vigorously worked with a number of 
parties on a conservation strategy and conservation agreement 
that exists today, and it is a great piece of work. In fact it 
is out for public comment now. It does a wonderful job of 
trying to address the threats that exist to the species and 
figure out ways to reduce or eliminate them. The interest to 
all of this was the genetics challenge and whether or not the 
Alabama sturgeon is like the shovelnose sturgeon. It was our 
lab at Ashland, Oregon that was working on caviar sturgeon work 
that got caught in the middle.
    The genetics issues is blown way out of proportion. The 
taxonomy of those three fish is what is in peer reviewed 
literature, and the behavioral characteristics and the 
morphological characteristics of these fish are quite 
different. And as the genetics folks tell me, the DNA work that 
was done for the caviar study for the work on the sturgeon 
doesn't really take us any further in differentiating between 
Alabama sturgeon, pallid sturgeon and shovelnose sturgeon than 
it would if it were comparing humans and chimpanzees, because 
that is the level of detail. So if you agree that we and chimps 
are the same, you could agree that shovelnose and Alabama 
sturgeon are the same.
    The conservation strategy is a very good document. The 
problem is we have two fish, and the two fish that we have are 
both male. I think we agree and believe that there should be 
more fish in the river, but we haven't caught them to date, and 
I think our folks in the Southeast are struggling with what 
their recommendation to me will be. The conservation strategy 
is a great document. Depending on the outcome it could be used 
as the framework for a recovery plan, for a Habitat 
Conservation Plan, or the decision not to list, and those 
decisions have not been made yet.
    Mr. Cramer. Do you have any sense of time frame?
    Ms. Clark. Public comment should close the 16th or 17th of 
March. Our folks are actively engaged. The statutory deadline 
is the end of March as you said, and you can believe that there 
is a lot of interested people at the steps of the courthouse 
waiting to compel us to make a decision.
    Mr. Cramer. Your office has been significantly involved in 
this agreement, and it seems to be trying; but this has been 
going on for 9 years and we need to----
    Ms. Clark. Move on.
    Mr. Cramer. Or at least have some plan to conclude this.
    Ms. Clark. We will make the decision on the listing status 
of the Alabama sturgeon as close to March 26 as humanly 
possible.
    Mr. Cramer. You referred to the genetic issue or the 
genetic tissue research. You are familiar with Dr. Stephen 
Fain's----
    Ms. Clark. Yes. He is in our Ashland lab in Oregon.
    Mr. Cramer. And you think that has contributed to 
determining some issues?
    Ms. Clark. It is genetics work. As I read it--and I am not 
a geneticist--but when I talk to Dr. Fain, it in essence will 
suggest that there are similar characteristics on the DNA 
strands for the Alabama, pallid and shovelnose, but as I was 
saying, there are similar strands on DNA for humans and 
chimpanzees as well. You have to relate back to what is peer 
reviewed in taxonomic journals for fish and what is behavioral 
characteristics and what is external characteristics and how we 
have dealt with fish taxonomy. And so it is very clear to me 
that the Alabama sturgeon is and could be a listable entity. 
The genetics work of Dr. Fain didn't do anything to refute it 
or to support it. It just is genetics work for caviar reasons.
    Mr. Cramer. As you would know, we have got a lot of 
economic development issues that are held at bay with this very 
important issue. Alabama, like most other states, has to depend 
on its rivers and waterways for transportation, shipping and a 
lot of economic development-related issues; and so the entire 
Alabama delegation and the Mississippi delegation, our 
governors, Corps of Engineers have all come to the table over 
this; and I would hope that you understand----
    Ms. Clark.  It is very serious. I absolutely do.
    Mr. Cramer. This is a significant problem, to say the 
least.
    Ms. Clark.  It is also important to note that there are a 
number of other listed species in this river system. The gulf 
sturgeon is listed. And so most of the effects if not all of 
the effects have occurred. We have already gone on record 
saying that the Corps of Engineers navigation dredging will not 
be affected, and there are listed aquatic species today in this 
river system that predate any decision on the Alabama sturgeon, 
but we take this issue very seriously and are in constant 
communication with the delegation and folks in----
    Mr. Cramer. If it is listed, can you assure me that the 
current navigational practices, including dredging, will be 
able to continue?
    Ms. Clark. Absolutely. I believe that the Regional Director 
has stated that publicly a number of times, and I will confirm 
that for the record.
    [The information follows:]

    Impact of Potential Listing of The Alabama Sturgeon on Dredging 
                               Activities

    If the Alabama Sturgeon is listed, based on current 
information, there will be no impact on the Corps current 
maintenance dredging project. Currently, there is no evidence 
that the Corp's annual maintenance dredging program on the 
Alabama and lower Tombigbee Rivers is likely to affect the 
Alabama sturgeon. Therefore, these channel maintenance 
activities will not need to be eliminated, modified in timing 
or duration, or altered to protect the Alabama sturgeon, if it 
is listed under the Endangered Species Act.
    During November 1994, the U.S. Army Corps of Engineers and 
the Fish and Wildlife Service prepared and adopted a White 
Paper entitled ``Federal Activities That May Affect the Alabama 
Sturgeon and the Anticipated Section 7 Consultations on These 
Activities''. The Corps and Service also have jointly 
reaffirmed the findings of the white Paper several times in the 
last year.
    This White Paper addresses the effects of potential Alabama 
sturgeon listing on the Corps' current activities in the 
Alabama and Tombigbee Rivers, including the annual navigation 
channel maintenance dredging programs, use of training devices, 
changes in river flow patterns and other regulatory activities. 
It also covers activities including maintenance dredging for 
non-Federal activities, State water quality standards, 
extraction of coal bed methane, and in-stream gravel mining.

    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Peterson.

                         Refuge Revenue Sharing

    Mr. Peterson. Good morning and welcome. I wanted to follow 
up on the chairman's questioning on the fund that--I was trying 
to think about what the title was, the money that goes back to 
the counties that was decreased.
    Ms. Clark.  Revenue sharing.
    Mr. Peterson. If I am incorrect in my assumptions, correct 
me. You have 93 million acres, and this is the money that goes 
back to the counties in lieu of tax payment?
    Ms. Clark. Uh-huh.
    Mr. Peterson. In just simple figures, your current figure 
is 9.3 cents per acre that would go back. You have 93 million 
acres in your refuges, and you are asking the fund to be $10 
million? You are suggesting a $10 million--is that a correct 
assumption?
    Ms. Clark.  I didn't do the math, but the correct 
assumption is $10 million. There are 93 million acres, so 9.3 
cents.
    Mr. Peterson. Let me share with you a frustration. I 
represent the most rural district east of the Mississippi. It 
is a large rural part of Pennsylvania. We furnish some of the 
finest hunting, some of the finest wildlife habitat. Jimmy 
Carter's favorite fishing hole is in my district in central 
Pennsylvania, north central Pennsylvania; and so it is an area 
that we are doing a lot to preserve wildlife and we actually 
are growing more habitat. I raised that issue last year.
    Pennsylvania has 3 million more acres of commercial forest 
currently than they had 20 years ago. A lot of our farm lands 
are going back to wildland again. So wildlife habitat is not 
vanishing; it is coming back in some areas. Some of your people 
don't agree with me on that. I got a letter from one of your 
assistants that argued with that point, and I was going to 
respond but just never did.
    The point that I want to make is I want you to think about 
rural folks. We don't have a large tax base in rural America. 
This is the land that your agency and other agencies are all 
aggressively buying at the same time. And so when you have a 
rural area that doesn't have corporate America tax base, 
doesn't have huge commercial--and our average home value is 
less than half of the national average, so we have a limited 
tax base.
    We have to provide education and community services and 
roads and bridges and all of the things that people have to do 
so people can live. When you have a county that has 40, 50 to 
65 percent government ownership and if everybody pays 9.3 cents 
an acre, you cannot have good schools or local services. There 
is not a tax base to pay for it.
    So I think the Federal agencies--and at the state levels--I 
was in state government for 19 years, and one of the last 
things that I got through, Pennsylvania pays $1.20 for land 
ownership. Pennsylvania is a big public land owner, so 
Pennsylvania is doing its share of having green space 
available. But they pay $1.20 cents an acre. Federal agencies' 
9.3 is pretty close to the average. If you figure out the PILT 
fund in total, with the Federal ownership it might be less than 
that. You might be doing better than average.
    I want to tell you that 9.3 cents an acre is not an 
adequate payment to a county. You talked about the plus side. 
You have 551 refuges; 20 percent are contributors to the 
economies. Most of the maturing refuges are not to the point 
where they are attracting people unless you have adequate 
construction and maintenance to make them user friendly and 
people to use them.
    So I think I would urge you as an agency to think very 
carefully because as you are growing the system you are 
suggesting you pay less. That is a double cut when you think 
about it. You are putting more acres into the system, and you 
are lowering the fee. You need to seriously look at paying a 
fair fee. You would get a lot less resistance from rural 
America if you helped them maintain their tax base. This does 
not affect suburban and urban folks, but rural folks when you 
take over half the tax base away and they don't have that 
expensive home and commercial development, those huge 
corporations, they don't have that tax base. I wanted to 
sensitize you to that.
    Next, how many wildlife biologists do you have in your 
system? Is that an unfair question?

                            Staffing Levels

    Ms. Clark. Steve Guertin, the Budget Director, might have 
those numbers. In the entire agency?
    [The information follows:]
    Offset Folios 409 to Insert here

<SKIP PAGES = 001>

    Mr. Peterson. In the area of endangered species.
    Ms. Clark. We have people in ecology series, botany series, 
zoology series.
    Mr. Peterson. Endangered species?
    Ms. Clark. But that is not a career series. The people 
working in endangered species, they can be Fish and Wildlife 
administrators, botanists, zoologists, general biologists, 
fisheries biologists, all of which have different civil service 
career designations.
    Mr. Peterson. But the person who has to deal with the other 
agencies.
    Ms. Clark. They are mostly biologists.
    Mr. Peterson. I will speak to the State college office 
which serves three or four States. You had two-thirds of a 
biologist. You have a lot of cases at once. I was--and you 
didn't have people adequate to deal with the lawsuits that were 
currently there. And so we got involved, and your agency was 
cooperative; and we got somebody transferred in from New 
Mexico. They stayed 3 days, didn't want to live in 
Pennsylvania, and went back to New Mexico. And later we helped 
assist in facilitating people to come in deal with the current 
cases because the two-thirds biologist was off on maternity 
leave and so you had nobody. I sensed your system had 
inadequate biologists to deal with the multitude of lawsuits 
because all of the Forest Service and other agencies as they 
respond to the lawsuit, your agency reviews their new plans, 
and it is done by your biologist.
    Ms. Clark. In fact, the number one increase request is in 
the consultation line item which is biologists. I am following 
your line of questioning better now. And you are absolutely 
right, we are very concerned about our ability to respond to 
the other Federal agencies, and are looking for creative ways 
to try to sequence programs better and to be more responsive. 
But it is again year after year our top request in the 
endangered species arena.
    Mr. Peterson. But this is not uncommon in the state 
agencies that I dealt with. I would urge you to try to develop 
a process where if you have people that are knowledgeable about 
certain species and that species pops up in another part of the 
country, that you temporarily do voluntary transfers there.
    Ms. Clark. We pull together teams, like SWAT teams to try 
to deal with huge influxes of workload when we are dealing with 
big programs or dealing with a specific kind of program that we 
might have expertise in different parts of the country. We try 
to detail them or move them or give them opportunities to deal 
with issues on a hot-spot basis.

                      Endangered Species Lawsuits

    Mr. Peterson. Let me ask you one question about that. It is 
my observation that the majority, more than 50, 60, 70 percent 
of the lawsuits that you have to respond to actually have 
little to do with the species. The people who are suing are not 
really concerned about the species; they are trying to stop 
some other activity so they use the species.
    Ms. Clark. I quite frankly have given up trying to figure 
out their motivation. But they usually compel us under process 
deadlines, and they are suggesting it is about the species, but 
certainly you can question that.
    Mr. Peterson. Is there some way that you can help us 
tighten the law because more than half of these cases that they 
spend huge amounts of time on is about stopping some other 
activity. So I think people are using the Endangered Species 
Act unfairly, and they are plugging up your system of 
responding to other agencies, which is your job because this 
has nothing to do with the species, this is to stop some other 
activity. I think we ought to collectively figure out how to 
have the majority of endangered species lawsuits deal with the 
species.
    Ms. Clark. I agree. I haven't figured out the magic answer, 
but the challenge is to figure out how we can support the 
citizen suit provision with the need to maintain biological 
priorities, and that is what we have lost with the lawsuits, is 
the ability to maintain and further our biological priorities. 
That is the challenge.

                           Refuge Maintenance

    Mr. Peterson. I want to thank you for your office's 
cooperation. I helped them expedite a few things because of my 
experience in State government, but you could make your system 
more user friendly by allowing people to transfer who have 
expertise in a certain species to go wherever that problem 
arises.
    I want to go back to the refuge maintenance because I think 
your budget says a lot. While you are cutting it or flat 
funding it--let's give you credit for flat funding and 
maintenance--you are increasing the system. That is a cut, and 
you will never catch up on the backlog as you expand a system, 
and you don't expand your maintenance budget with some size. I 
don't have any doubt your current number one issue is land 
acquisition. It is obvious. The budget says that very loud and 
clear. And that seems to be true of a lot of agencies.
    At some point in time maintenance of what we own has to 
become the number one priority. I don't think history has shown 
that has been recent, but if we are going to be good stewards 
of public land, we have to adequately--and I found this same 
problem at State levels, every senator that I worked with 
wanted to create new parks and add to parks and Pennsylvania 
had 113. And I was talking to the park system--they are now at 
117--but I have to tell you that the budget does not go up 
adequately, and we are not doing it here at the Federal level. 
We are expanding the base, but we are not putting the resources 
there. If we are going to be good stewards we have to have 
adequate maintenance budgets. I would urge you that flat 
funding is a pretty good size cut the way that you are growing 
the system. I would hope that next year's budget would reflect 
some thoughtful thought about we must maintain what we have.
    Mr. Regula. Mr. Nethercutt.

                            Refuge Staffing

    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome to the 
witnesses. Thank you for being here.
    I want to focus on Mr. Peterson's comments about 
maintenance of the refuge system. I am wondering if you have a 
guideline or standard that sets forth your salaries and 
expenses for your permanent and temporary employees as a part 
of your budget for a particular refuge. Is it 20 percent? Is it 
50 percent?
    Ms. Clark. It varies.
    Mr. Nethercutt. Is there a standard that you try to reach?
    Ms. Clark. I don't know that we have an actual standard. We 
have just completed a critical staffing analysis on what we 
believe is the necessary staffing for a refuge. And clearly we 
try to balance the operational capability, which is the people 
part, with the other part of the operational capability which 
is the species part. But I don't know--in fact let me turn and 
ask our assistant director. I don't know that we have a 
specific target. Dan----
    Mr. Ashe. I'm Dan Ashe. We did an analysis working with the 
subcommittee, and we broke our refuges into 8 categories, 
essentially from nonstaff refuges to the most complex refuges, 
which would be like Chincoteague, and assigned staffing levels 
to each one of them appropriate to the different levels of 
complexity, and that is the first time that we have done that 
kind of analysis.
    I would say that yes, we have that general guideline that 
these are the essential staffing levels that we would expect to 
see at each refuge based on the level of complexity in managing 
that refuge, and recognizing that some refuges--we do have some 
refuges that should be unstaffed. We just feel that we don't 
need staff at them.
    Mr. Nethercutt. The purpose of my question is to mention 
the Little Pend Oreille National Wildlife Refuge which is in 
Stevens County, Washington, the north part of the fifth 
district. And in looking at their documentation, the refuge 
states in 1998, about 87 percent of the operating budget was 
used to support salaries for government workers--for permanent 
and seasonal workers, and that leaves 13 percent for 
maintenance and backlog operational maintenance. Is that 
unusual?
    Ms. Clark.  That is not unusual.
    Mr. Nethercutt. That is not unusual to have that ratio of 
high salaries in administration?
    Ms. Clark.  That is fairly typical agency-wide, which is 
why clearly--and this committee has been very helpful in 
addressing the operational need of the refuge system and has 
been quite generous in the past few years. What you are seeing 
in your part of the world is not an unusual percentage today.
    Mr. Nethercutt. What I am getting at is in looking at the 
Little Pend Oreille National Wildlife Refuge's draft 
comprehensive conservation management plan, it has the 15-year 
proposed project budget to implement the parameters of the 
management plan. The figures total about $4.1 million while 
proposed salaries over that period of 15 years are about $9.5 
million, roughly 2 to 1 in the ratio. And I am wondering how 
that squares with the maintenance backlog challenge that you 
have. Am I missing something here with respect to the high 
administrative costs versus what you can allocate in your 
budgets as maintenance backlog?
    Ms. Clark.  I don't know the specifics behind those 
numbers, but I would imagine part of that is maintenance and 
part of it is to do things under the headings of wildlife and 
habitat, so it would be more than just facilities. It is a 
challenge. We have staffing shortages at many of our refuges. 
We have made declarations that some don't need to be staffed, 
but we have continued to try to walk that fine line about what 
is the appropriate balance or percentage to have the right 
people on a refuge to conduct the work that has to get done 
with the ability to have work for those people to do, or 
resources and flexibility to conduct those kinds of work. A lot 
of that is done almost on a unit-by-unit basis a lot of the 
time.
    Mr. Nethercutt. Do you look at the number of visits in 
determining how much additional salary for staff you want on a 
refuge site?
    Ms. Clark.  Not necessarily unless it is a high visitation 
refuge. We are not like the National Park Service. It is a land 
base where the needs of wildlife come first. At a place like 
Chincoteague, we have a temporary or seasonal workforce to deal 
with the fluxes of vacationing population surges, but they 
typically will follow their kind of plan for the operations in 
that refuge.

                             CASPIAN TERNS

    Mr. Nethercutt. We have the Turnbull National Wildlife 
Refuge in our Spokane area, which is a great one; and I have 
been there and visited, and they have an increasing number of 
visitors and they need additional staff. I am wondering to what 
extent we might look to the needs of Little Pend Oreille versus 
the needs of Turnbull and try to balance it out. I appreciate 
your considering that.
    The other issue that I want to talk about, you have 
requested an increase in funding for the migratory bird 
management program of about a million dollars more than last 
year, roughly $22.8 million. At the mouth of the Columbia River 
you are aware, I assume, that we have this little bird called 
the Caspian tern that feeds on our juvenile salmon that 
traverse the river. In 1998 it was estimated that 12.8 million 
juvenile salmon were consumed by this little bird. They nest on 
Rice Island, and I have talked with you and your people about 
doing something about this problem given the scope of the 
salmon recovery problem we face in the Pacific northwest. These 
birds are a factor at a time when I think people, who are ill-
advised, want to tear out the Snake River dams. In my judgment, 
are not paying as much attention as we can to some of these 
other factors.
    I am wondering what you are doing about that Caspian tern 
population. I know there was some attempt last year to scare or 
lure them away. Now I understand there might be an attempt to 
put some people on Rice Island or put pigs on the island.
    Ms. Clark.  There is a whole host of initiatives under way. 
You are right, it is to kind of--the ultimate goal is to lure 
them from Rice Island, and we have dealt with habitat to 
stimulate them to move and nest on some of the other islands 
that are not so close to the mouth. We are right on the 
beginning edges of when we would be able to really evaluate how 
well we have done. This came up in a hearing yesterday, as a 
matter of fact.
    The project with the National Marine Fisheries Service and 
us and others is really ambitiously trying to figure out how to 
move those terns away from what has become an ideal place in 
some of these human-made island areas. I would be happy to get 
an update from the region and provide it for the record, but I 
do know it is an ongoing issue. It is certainly one of the 
factors in long-term salmon recovery needs.
    [The information follows:]

 Update on the Caspian Tern Population at Rice Island and Cooperative 
                         Efforts With the NMFS

    The National Marine Fisheries Service (NMFS) is the lead 
agency in addressing Caspian tern predation because it has the 
lead in salmon recovery. In determining how to recover listed 
salmon, NMFS must address all factors that may have caused the 
decline in salmon populations including harvest, habitat loss, 
hydro power production, and predation. By developing a 
comprehensive recovery strategy that addresses all the threats, 
they will be better able to recover these species. The U.S. 
Fish and Wildlife Service's (USFWS) responsibility in this 
effort is to provide technical assistance on the Migratory Bird 
Treaty Act, conservation of Caspian terns, and seabird 
predation.
    As an active member of a joint-agency working group, the 
USFWS also provides funding assistance and field assistance for 
the project. However, if is not our role to mitigate for salmon 
losses from predation. Multi-disciplinary science reviews have 
found no compelling scientific evidence that predation has been 
a primary cause for the recent salmon declines. Predation is a 
natural part of the salmon life cycle and no evidence exists 
that tern predation is limiting salmon recovery. However, the 
USFWS continues to support NMFS's efforts to recover salmon 
through relocating the nesting terns to an island in the lower 
Columbia River. Preliminary relocation efforts have been 
successful in reducing predation of salmon smolts by 40 
percent. This is a substantial reduction in smolt losses and 
should provide some short-term recovery benefit until other 
more substantial efforts begin to restore population numbers.
    Estimates of ten predation may vary by year and have been 
refined as data collection has improved. The current estimates 
of tern predation on out-migrating smolts range from 4 to 8 
percent of the salmon smolts produced in the basin, and 
approximately 90 percent of these smolts are hatchery-reared 
fish. Predation losses will be reduced by an estimated 40 
percent when the birds are relocated to the island near the 
mouth of the Columbia River.

    Mr. Nethercutt. Is it your responsibility, you the 
agency's, or is it National Marine Fisheries Service that has 
initiated the action?
    Ms. Clark. We certainly have a migratory bird 
responsibility, but it is the National Marine Fisheries Service 
that has initiated the action.
    Mr. Nethercutt. I wonder why they are involved if it is a 
Migratory Bird Treaty Act responsibility of yours, your agency.
    Ms. Clark.  It is salmon and they have the endangered 
species responsibility.
    Mr. Nethercutt. And you have the migratory bird 
responsibilities. Are they taking the lead?
    Ms. Clark.  Well, it is hard to----
    Mr. Nethercutt. Would you characterize it that way?
    Ms. Clark.  They certainly have the--they have the 
responsibility and they have the authority. But whether--no, it 
is hard for me to say that they have the lead. We do have the 
MBTA responsibility. I would prefer to say that we are working 
on it collaboratively.
    Mr. Nethercutt. So we can look to you to get those birds 
moved?
    Ms. Clark.  You can absolutely look at me. I figure I 
should have known where that was going. We do have some other 
money in our budget and migratory bird account to try to deal 
with this.
    Mr. Regula. Mr. Moran.

          CONSULTATION WITH NATIONAL MARINE FISHERIES SERVICE

    Mr. Moran. Ms. Clark, I think you are doing a good job and 
I support your budget request, and I don't have any questions 
that are unique enough or important enough that they can't be 
answered for the record, with one exception, which was brought 
to mind by the colloquy with Mr. Cramer.
    On sturgeon, it would appear that his Alabama sturgeon 
problem is about to be resolved. If all you can find is a 
couple male sturgeon, they are not likely to be living much 
longer. In the Potomac River every year I put in money to 
dredge the Potomac River, and every year somebody finds an 
excuse not to do so and the latest excuse that the deep, holes 
in the Potomac River bottom could not be filled with dredged 
material because they are potentially a breeding ground for 
sturgeon. Now, I am environmentally sensitive member. The 
problem is that no sturgeon has ever been seen in the Potomac 
since the Potomac Indians fished here about 300 years ago. And, 
so the likelihood of these holes being used by sturgeon is 
fairly remote.
    I am not being critical of you, because Fish and Wildlife 
Service was not involved at all. This was entirely a Commerce 
Department observation, Commerce. Through the--National Marine 
Fisheries Service, they came up with this bright idea that 
these deep holes could be a sturgeon breeding ground with no 
evidence that any sturgeon has ever been found. Now apparently 
there were sturgeons--there used to be sturgeons but there none 
since western settlers eradicated the sturgeon more than 200 
years ago. My question is: Do you ever consult with Commerce 
Dept. people, and is there any recourse to these inane 
conclusions that another agency might come up? That is not a 
yes or no.
    Ms. Clark.  And this pause is not on purpose. I am still 
back on the sturgeon in the Potomac part which is news to me as 
well.
    Do we consult and collaborate with the National Marine 
Fisheries Service? Yes. Do we all agree? No. Do we get into 
scientific debates? Yes. Does that help?
    Mr. Moran. Somewhat. In other words we might give you a 
call and ask your people to consult with their people?
    Ms. Clark.  And to my knowledge there are no listed 
sturgeon in the Potomac.
    Mr. Moran. For sure. Thank you.
    Ms. Clark.  But I would be happy to check that.
    [The information follows:]
                 Presence of Sturgeon in Potomac river
    The Shortnose sturgeon, a federally listed endangered species, has 
been caught as recently as April 14, 1998 in the Potomac river. The 
Atlantic sturgeon, under review for possible ESA listing in 1998, has 
been caught as recently as March 18, 2000 in the Potomac river, The 
U.S. Fish and Wildlife Service (Service) has been conducting an on-
going study to determine if a resident shortnose population exists in 
the Chesapeake Bay and assess Shortnose and Atlantic sturgeon use of 
dredging sites and proposed dredged material placement sites. The 
study, which began in June 1998 is funded by the U.S. Corps of 
Engineers and has an expected completion date of June 2000. The study 
includes gillnet sampling by the Service's Maryland Fisheries Resource 
Office in the Potomac and the Upper Chesapeake Bay, north of the Bay 
bridge. Additionally the Service and the Maryland Department of Natural 
Resources are administering a monetary reward program (funded by the 
Maryland Port Authority) to reward commercial fishermen for catching 
and holding live sturgeon until they are tagged and released by service 
personnel. To date:
          (1) 399 Wild Atlantic sturgeon from the Chesapeake Bay and 25 
        wild Atlantic sturgeon from the Potomac river have been tagged 
        and released by the Service.
          (2) 33 Shortnose sturgeon from the upper Chesapeake Bay and 
        two Shortnose sturgeon from the Potomac River have been tagged 
        and released by the Service.
          (3) 444 Hatchery-related Atlantic sturgeon have been 
        recaptured in the Chesapeake Bay, and two hatchery-reared 
        Atlantic sturgeon have been recaptured in the Potomac River. 
        The recaptured fish were tagged and released by the Service.
    The Service's Maryland Fishery Resource Office has completed an 
interim research report for years 1996-1998 entitled ``A Progress 
Report of Investigations and Research on Atlantic and Shortnose 
Sturgeon in Maryland Waters of the Chesapeake Bay (1996-1998)'' which 
is currently available.

    Mr. Moran. That should be helpful, but their response is 
that there could be. Anyway, I am not going to belabor this. 
You do try to coordinate. But that might have been a good 
resource for us to go to your endangered species people and ask 
you to give Commerce Department a call.
    Ms. Clark.  Or our Chesapeake Bay office, because it is not 
an endangered species issue as far as we are concerned.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Regula. You need to find a female sturgeon in the 
Potomac and send it to Alabama.
    Mr. Moran. If we had one, we could. I think we are a long 
way from having a problem with sturgeon caviar that you were 
studying. Thank you.

           EMERGENCY PROVISIONS OF THE ENDANGERED SPECIES ACT

    Mr. Regula. I have a few questions, and they go to the kind 
of priorities that Mr. Moran is talking about. Is there a point 
at which the Fish and Wildlife Service would agree that the 
maintenance of public safety, such as a levy--and you get these 
in deltas and so on--outweighs the concerns relative to an 
endangered species? You are balancing the need to dredge the 
Potomac versus maybe, maybe an endangered species. Is that 
right?
    Mr. Moran. Yes.
    Mr. Regula. And that is a safety issue and a navigation 
issue.
    Mr. Moran. I think it was a red herring and that oftentime 
comes up. I was just underscoring your point, Mr. Chairman.
    Ms. Clark.  Clearly there are times when public safety 
should outweigh----
    Mr. Regula. Do you have the liberty to make those 
judgments?
    Ms. Clark.  Absolutely. There are emergency provisions in 
the Endangered Species Act that allow for that. In fact, we 
have used that a number of times during the California flooding 
a couple of years ago, the rebuilding of some of those levies. 
We used it at the time. We used it in the Southwest when we had 
some huge floods in Arizona. Hurricane damage, flood damage, 
there is clear authority in the law to implement the emergency 
provisions where human health, safety, life, limb is important 
first, and then we take care of the species' needs second.
    Mr. Regula. So the act itself gives you this discretion?
    Ms. Clark.  There is emergency consultation authority in 
the act. On emergency response teams with FEMA, we do have 
biologists there to try to help recover or capture the species 
if in fact we can and take them somewhere else. But absolutely, 
our folks get out of the way in emergency response.
    Mr. Regula. Have you had experience of being sued----
    Ms. Clark.  No.
    Mr. Regula [Continuing]. In those instances?
    Ms. Clark.  Not to my knowledge. We get out of the way in 
an emergency.

                     STATE NONGAME WILDLIFE GRANTS

    Mr. Regula. Here you have a hundred million dollars that 
you propose give to the States as a new program. Is there any 
cost share on that? You are proposing $100 million State grants 
for nongame species, 100 million.
    Ms. Clark.  There is not proposed to be.
    Mr. Regula. Are there any standards? Would the states just 
get the money?
    Ms. Clark.  It would have to be for non-game, and there are 
a number of kinds of activities that it can be used for.
    Mr. Regula. How do you police that?
    Ms. Clark.  We are working on what those requirements are. 
Like section 6, we require annual reports from the States so we 
can monitor the accountability of those funds. I would expect 
that we would do that----
    Mr. Regula. You wouldn't find it egregious if we put that 
money in your maintenance budget, would you?
    Ms. Clark.  Mr. Chairman, you have the authority to do 
whatever you would like.

                            LAND ACQUISITION

    Mr. Regula. Okay, we may do that.
    Everglades, Mr. Hinchey touched on it. You have proposed to 
buy some additional lands in the Everglades?
    Ms. Clark.  The $30 million, which for the last few years 
which had been part of the lands dollars that have been 
rounding out the parks, have been transferred this year.
    Mr. Regula. Who does it?
    Ms. Clark.  It is us. It is in our land acquisition budget 
and we----
    Mr. Regula. It is part of your boundaries?
    Ms. Clark.  National Wildlife Refuge boundaries.
    Mr. Regula. Are you a party to all of these agencies that 
are involved in the total Everglades project?
    Ms. Clark.  We are a big part of the consultation work that 
is being done because of all of the endangered species. We took 
the lead for the multispecies recovery plan, the Corps of 
Engineers restudy, the kind of replumbing analysis, and clearly 
our land base is essential to the success of the restoration of 
south Florida, which is why we are really excited about the $30 
million.
    Mr. Regula. You have to be concerned about the allocation 
of the water, development versus agriculture versus the 
Everglades. Am I correct?
    Ms. Clark.  And species versus species. We even have water 
allocation issues that trade off among endangered species, so 
we are right in the middle of south Florida in a big way.

                          SCIENTIFIC EXPERTISE

    Mr. Regula. Where do you look for science? Do you have in-
house scientists or do you use USGS scientist?
    Ms. Clark.  Both.
    Mr. Regula. So you do access the science that is developed 
at the USGS?
    Ms. Clark.  Absolutely.
    Mr. Regula. When we did the NBS drill, do you remember 
that?
    Ms. Clark.  Yes.
    Mr. Regula. We decided that we would have one science 
agency.
    Ms. Clark.  We are not doing duplicative science. Most of 
the science work that we do is operational science and really 
deploys----
    Mr. Regula. A lot of your people went to USGS.
    Ms. Clark.  Region 8 was our research region and went to 
the NBS.
    Mr. Regula. And it is working well?
    Ms. Clark.  There are challenges, but we are trying to work 
together on that.
    Mr. Regula. So you feel overall you are using good science?
    Ms. Clark.  Absolutely. The capabilities of us, the Park 
Service, the Corps of Engineers, it is an incredibly ambitious 
but very positive collaborative experience.
    Mr. Regula. The issue of communication came up, I think it 
was Mr. Dicks.
    Ms. Clark.  Hugely important.
    Mr. Regula. Do you feel that you have adequate interagency 
communication? It always bothers me when we are spending money 
for different agencies and they don't even talk to each other.
    Ms. Clark.  You can clearly be assured that there is 
incredible collaboration in south Florida. We have a couple of 
offices down there. Plus all of the staffing on our refuges and 
they interact. There is an Everglades task force. We have high-
grade folks sitting on that task force.
    Mr. Regula. Is this true across the country?
    Ms. Clark.  We don't have many places of Everglades 
proportion.
    Mr. Regula. I understand that. But you do try to 
coordinate?
    Ms. Clark.  Absolutely. I will give you another great 
example that I just got briefed on the other day, the Southwest 
Strategy. We have for a number of years talked about the stress 
in the Southwest. And clearly because of the ingress of people 
and the ecological sensitivity--and you heard Congressman Kolbe 
talk about it. We were as close to meltdown among the Federal 
agencies as you could be, and when you coupled that with the 
states and the tribes, it was just a disaster. They have come 
together and I think it is probably nationwide one of the best 
examples of interagency collaboration. They fuel off each 
other. They interact with each other and they were in town this 
week making the rounds of the agencies and I believe the Hill 
talking about the work.
    It has gotten so much more efficient. We don't hear the 
divisiveness in the Southwest. The work is getting done, 
whether it is managing grazing, dealing with riparian habitat 
buffers, whether it is Bureau of Reclamation water controls, 
Forest Service timbering, or tribal needs. It is probably one 
of the best success stories that I have seen in a long time.
    And the real exciting parts are the role of the EPA and the 
Department of Defense. Everybody is involved together in the 
Southwest, and they finally have gotten off of dead center.
    Mr. Regula. With regard to the proposal to create a new 
refuge on the Darby, you are not taking any action?
    Ms. Clark.  We are in the middle of the EIS process, but 
there is no money in the fiscal year 2001 budget. We are in the 
go-slow, talk-to-the-chairman mode.

                               Easements

    Mr. Regula. Have you used any development easements to 
preserve habitat, but allows continued private economic 
activity?
    Ms. Clark.  Conservation easement, yes, we have used those. 
At the end of the day--and I think I had this conversation with 
you before--at the end of the day I think what is important is 
that the lands are in conservation status. While we love the 
National Wildlife Refuge system, it doesn't have to be a 
National Wildlife Refuge.
    Mr. Regula. So private economic activity could take place, 
and yet you would avoid the development that would inhibit the 
protection?
    Ms. Clark. We have used conservation easements.

                               Volunteers

    Mr. Regula. A couple of practical questions. Do you use a 
lot of volunteers?
    Ms. Clark.  Absolutely. Without volunteers, we would be in 
a world of hurt. They are great.

                             Public Access

    Mr. Regula. Do you get a lot of public access activity? 
School groups?
    Ms. Clark.  Sure. Increasingly, as have urban refuges, 
whether it is Patuxent in Laurel or Minnesota Valley or 
Chincoteague, increasingly our refuges have become conservation 
education areas. It is really exciting.

                                Training

    Mr. Regula. Do you have long-distance learning of programs?
    Ms. Clark.  Yes. Certainly we have long-distance learning 
that is triggered out of the National Conservation Training 
Center in Shepherdstown. But where we have the capability or 
could expand the capability, it is really positive.
    Mr. Regula. You'll need money for another dormitory.
    Ms. Clark.  Yes. That place is amazing. The demand on the 
training center is much greater than we ever expected.
    Mr. Regula. Do you train conservation personnel for States?
    Ms. Clark.  We train ourselves, the Fish and Wildlife 
Service first; but I can't think of a Federal agency that has 
not been out there, and States. Local folks. Conservation 
groups. We cross-train so we oftentimes have folks in classes 
together. So it is just kind of a conservation hub for 
training.

                             Forensics Lab

    Mr. Regula. Do other agencies use your forensics lab?
    Ms. Clark.  Yes. They and the states would like to use it 
more.
    Mr. Regula. It is a fabulous facility. I was impressed with 
the work that they do.
    Ms. Clark.  They need a lot of support.
    Mr. Regula. That is one that I think deserves it, and I am 
interested that other agencies like the Park Service or BLM 
would have access.
    Ms. Clark.  It is world class. And the folks there are 
world class, and it is absolutely essential if we are going to 
deal with the wildlife crime issue.
    Mr. Regula. I can understand. It was quite a revelation.
    Ms. Clark.  Quite impressive.

                         Carlsbad Field Office

    Mr. Regula. Thank you. One more question. The committee 
continues to receive expressions of concern from officials in 
several California cities with respect to problems with the 
Carlsbad endangered species office. Officials in that office 
purportedly tell people that they cannot work on certain 
projects because Congress does not provide enough money. Would 
you tell us what is going on out there? I think we shouldn't be 
blamed for lack of money when your whole budget emphasis seems 
to be on Lands Legacy rather than the core programs. I think 
this is a topic that we are going to have some ongoing 
conversations about before we frame a final bill.
    Ms. Clark.  I don't know what they are saying individually 
in Carlsbad, but the Carlsbad office in southern California is 
getting more scrutiny than any office should with GAO and 
everybody else kind of looking at specifics. That is a stressed 
workforce, and they are working really hard, highly 
professional folks. And we are trying to get as much resources 
as we can in there to deal with the demands of southern 
California. But I would be happy to look at that specifically.
    Mr. Regula. Maybe we can help you by reassigning some of 
the priorities that are proposed here. Thank you very much for 
your time this morning. I think we had a very productive 
hearing, and we will have a whole host of questions to put in 
the record. I appreciate a prompt response on those because 
that will help us determine how we want to structure the 
budget, and the plan is to move these bills pretty quickly.
    Ms. Clark.  We will jump on it. We want to help you help 
us.
    Mr. Regula. Thank you.
    Mr. Ose and I have had conversations, and he has been here 
today. He has some questions which we will incorporate in our 
questions.
    Ms. Clark.  That will be fine.
    Mr. Regula. Thank you. The committee is adjourned.
    [Additional questions for the record follow:]
     Offset Folios 438 to 565 Insert here

<SKIP PAGES = 128>

     Offset Folios 566 Insert here
                                         Wednesday, March 29, 2000.

                         NATIONAL PARK SERVICE

                               WITNESSES

ROBERT G. STANTON, DIRECTOR
JACQUELINE M. LOWEY, DEPUTY DIRECTOR
DENIS P. GALVIN, DEPUTY DIRECTOR
SUE E. MASICA, ASSOCIATE DIRECTOR, ADMINISTRATION
C. BRUCE SHEAFFER, COMPTROLLER
PAM HAZE, DEPUTY DIRECTOR, OFFICE OF BUDGET
DON NEUBACHER, SUPERINTENDENT, POINT REYES NATIONAL SEASHORE

                             Introductions

    Mr. Regula. Well, we'll get the hearing started. We've got 
a lot of ground to cover.
    We're happy to welcome Director Stanton to give us the 
positive story about our National Parks. And you have Deputy 
Director Mr. Galvin and Deputy Director Ms. Lowey, Associate 
Director for Administration, Sue Masica, and where's Bruce? 
He's here somewhere, the Comptroller.
    We'll put your entire statement in the record and 
appreciate your summarizing what you feel are important aspects 
of this year's budget as it applies to the National Park 
System.

             Opening Remarks of Robert G. Stanton, Director

    Mr. Stanton. Thank you very much, Mr. Chairman and Mr. 
Dicks. It is a pleasure to appear before the Committee to offer 
testimony in support of the National Park Service fiscal year 
2001 budget request. And certainly I'm pleased to be 
accompanied by members of the National Park Service leadership 
team.
    At the outset, Mr. Chairman, Mr. Dicks, let me just 
reiterate how much we appreciate the support of your Committee, 
not only with respect to fiscal year 2000, the year in which 
we're in, but prior years as well. We certainly want to express 
our appreciation for your support of the continuation of the 
Recreational Fee Demonstration Program, which has given us a 
tremendous source of much-needed revenues to enhance park 
programs and upgrading of facilities.

                 Recreational Fee Demonstration Program

    Mr. Regula. What is it generating annually now?
    Mr. Stanton. In the neighborhood of $140 million to $145 
million. These revenues are dedicated to furthering park 
improvements. It's a tremendous resource. We continue, as 
required by the authorization, to get input from the public in 
terms of how they're viewing the fee program and how it's being 
administered from their perspective and what are the benefits 
that are accruing from the fee program in terms of park 
improvements.

                       Director Stanton's Remarks

    If I may, Mr. Chairman, as a way of summary, and certainly 
with respect for the time of the Committee, I would like to 
highlight just a few of the major requirements of the fiscal 
year 2001 budget. The budget continues our link to the 
accomplishment of our strategic goals, in support of the letter 
and the spirit of the Government Performance and Results Act, 
commonly referred to as GPRA.
    The Annual Performance Plan expresses the goals that the 
National Park Service expects to achieve during fiscal year 
2001. Fulfilling the goals obviously requires funding not only 
from the Recreational Fee Demonstration Program, but for 
increased funding through the normal Congressional 
appropriation process.
    Also I might add that as a part of our effort to continue 
to improve on the efficiency and effectiveness of our 
management, we have piloted a program called Park Business 
Plans. These plans outline the revenues that are available to 
the park, and what the relative distribution of those revenues 
is. We'd be more than happy to discuss, at some appropriate 
time, the importance of the Business Plan Initiative as a way 
of trying to improve our efficiency and the use of the 
resources that are available to us.

                             Budget Request

    With respect to the specific request for fiscal year 2001, 
the budget request is $2.042 billion in appropriated funds for 
the National Park Service. This reflects a net increase of $233 
million above the fiscal year 2000 enacted level. This budget 
supports the National Park Service mission and related goals, 
as I mentioned earlier, with respect to our Strategic Plan.
    Within this budget request is $317.5 million in support of 
the President's Lands Legacy Initiative, a funding increase of 
$27.6 million for park operations to address shortfalls in a 
number of our parks, and an increase of $18.5 million to 
continue our Natural Resource Challenge. There are also some 
requests for increases for $2.3 million for cultural resource 
programs and $1.3 million to expand our partnerships with 
Native American communities.
    Prior year budgets we presented to this Subcommittee 
requested significant amounts of additional funding to shore up 
the system's deteriorating infrastructure. We do this 
principally through our line item construction program, and 
repair and rehab and cyclic maintenance programs, coupled with 
the revenue generated by the Recreational Fee Demonstration 
Program. Our budget again speaks to requests for line item 
construction projects.
    I might also add, Mr. Chairman and Mr. Dicks, that our 
increase of $90.3 million for the Operation of the National 
Park System is needed to meet the increased demand on park 
resources in terms of resource preservation and visitor 
services. Within this total is $24.050 million and 300 FTEs, 
which will be used primarily in the parks, as well as funds for 
carrying forth the Natural Resource Challenge and some 
increases in the regional offices.
    Also, we have a request for the U.S. Park Police to provide 
for the simplification of their pay structure as well as 
provide some incentives that would allow us, if you will, to 
retain our officers in a competitive employment market for law 
enforcement officers.
    We are attempting to increase our partnerships with the 
private sector as well as non-profit organizations, and we have 
an increase to carry forth that program. I might add, Mr. 
Chairman and Mr. Dicks, that we have a great partner in this 
endeavor with the National Park Foundation, which has really 
bridged the relationship with donors and prospective donors 
with respect to resources being made available to carry out 
park improvements. I believe you had an opportunity to 
personally see some of those improvements on the ground.
    The Natural Resource Challenge is an effort for us to 
reaffirm our commitment to preserving the resources entrusted 
to our care. I was very pleased to make the public announcement 
of the Natural Resource Challenge last year on the occasion of 
the 100th anniversary of Mount Rainier National Park. We were 
pleased to have Mr. Dicks there and Senator Slade Gorton.
    I might also add that with respect to our natural resource 
management program, we work very closely with the U.S. 
Geological Survey and their Biological Research Division in 
terms of relying upon them to provide biological science to 
assist us in our day-to-day management decisions.
    As I mentioned earlier, our budget also includes a request 
to enhance our capability in managing our cultural resources. 
One of the mainstays of that program is the Vanishing Treasures 
Initiative, which allows us to make substantial improvement 
with respect to adobe structures in the greater southwest, and 
again we want to express our appreciation for your continued 
support of the Vanishing Treasures Initiative. We're asking for 
a little over $300,000 to further that program.
    As I mentioned earlier, central to this budget is our 
request for funding in support of the President's Lands Legacy 
Initiative. Within the Lands Legacy program are funds dedicated 
to Federal land acquisition, the Urban Park and Recreation 
Recovery program at the level of $20 million, and stateside 
assistance for States and their political subdivisions to carry 
forth their respective conservation and recreation measures.
    Also, our request, as was the case last year, includes $30 
million to continue the Save America's Treasures program, which 
is a program that's available to Federal agencies and the 
States for priority preservation projects. This has been a 
program that has received tremendous response from the 
recipients who have benefitted from the grants. We anticipate a 
success of this program into fiscal year 2001.
    As I mentioned earlier, the budget request does include 
funding for line item construction, repair and rehab, and 
cyclic maintenance to continue to allow us to meet some of the 
critical infrastructure requirements. Our infrastructure needs 
are identified in the Department's Five Year Maintenance and 
Construction Plan. We are in the process of updating that plan 
as I sit before you.
    Also, the National Park Service has the benefit of the 
reauthorization of the Transportation Bill, commonly referred 
to now as TEA-21, the Transportation Equity Act of the 21st 
Century, which provides substantial funding to allow us to 
carry out road and bridge improvements. We are benefitting in a 
range of $120 million to $125 million a year to assist us in 
meeting our category I road and bridge requirements.
    Last, I make mention, Mr. Chairman, that this budget 
includes a request to upgrade our information management 
system. It has been recognized for some time by us as well as 
other organizations taking a look at the management of the 
National Park Service that we need a better system of 
gathering, analyzing and making available to our decision 
makers information through a systematic information management 
system. The plans call for substantial improvements in our 
information management program in fiscal years 2000 and 2001. 
The budget, again, speaks to that requirement.

                           Major Improvements

    Let me conclude, Mr. Chairman and Mr. Dicks, by offering a 
comment about two or three major improvements that have been a 
concern of this Committee in years past. I'm pleased to 
announce that we have successfully downsized and reorganized 
the Park Service responsibility at the Presidio, and at the 
Denver Service Center, as recommended by the National Academy 
of Public Administration. It has proven to be a great deal of 
work, but I think that the new organization that we have in 
place and the new procedures that we have for administering our 
planning, design and construction program will provide 
substantial benefits in years to come.
    We have prepared, at the request of this Committee, and 
delivered to you, reports relating to our employee housing 
program. The reports conclude that there were some 
administrative as well as some operational improvements that we 
need to make internally in order to make sure that we're 
maximizing the use of the appropriated funds to meet our 
employee housing needs.
    Also, we are piloting, as I mentioned earlier, a facility 
management system, to get a better handle on the database that 
will allow us to have a better sense of direction for meeting 
our long-range as well as our immediate maintenance management 
needs.
    Lastly, I would like to really compliment the Park Service 
superintendents, their staff and regional directors in terms of 
administering the Recreational Fee Demonstration Program. We've 
been able to improve upon the obligation rate as an example, 
last year from 14 percent to this year with 47 percent. And 
we'll continue to work with the Department, the Office of 
Management and Budget, and certainly with your Committee to 
streamline our review process so that we can expedite the 
completion of our fee funded projects for the benefit of the 
American public.
    In closing, I believe the objectives we have proposed for 
the coming year bring to the forefront the programs that will 
best enable us to fulfill our commitment in carrying out our 
legislative mandate and the direction of the Administration, 
and most importantly of all, meeting the needs of the American 
public and the preservation of their National Parks and the 
enhancement of other programs or services that the National 
Park Service is obligated to make available to the American 
public.
    Mr. Chairman and members of this Committee, this concludes 
my remarks. My staff and I will be more than happy to respond 
to questions that you, Mr. Chairman, or members of the 
Committee might have at this time.
    [The statement of Mr. Stanton follows:]
    Offset Folios 577-581 Insert here

<SKIP PAGES = 005>

                            budget increases

    Mr. Regula. Well, maybe a broad question. You've asked for 
a $233 million increase. How would this translate for the 
public, and how would it enhance their visitor experience, 
reduced crowding or provide better parking, or how would you 
describe the enhancement of the public use of the parks as a 
result of this additional funding?
    Mr. Stanton. Principally, Mr. Chairman, in a two-fold way. 
There would be an enhancement to the preservation of the 
resources, both natural and cultural. That obviously is the 
mainstay of any visitor enjoyment of a park.
    It also would provide for an increase in the services that 
we provide for the visitors. It would improve upon the safety 
of visitors coming into the parks in terms of law enforcement, 
improved information services at the visitor centers, and other 
locations. So again, it achieves a dual objective: better care, 
better management of the park facilities and resources, and 
increased quality of the services to the public.

                           overutilized parks

    Mr. Regula. Are you running into any problem where there's 
so much public pressure on a given facility that in spite of 
your best efforts, there has been some destructive impact on 
the terrain?
    Mr. Stanton. We do have a number of parks that are heavily 
visited. Within those parks, there are some features that 
attract more visitation than others. We are addressing some of 
the more critical areas through alternative transportation 
systems, as an example. We will be launching in May a new 
transportation system in Zion National Park. We have a very 
effective and efficient transportation system ongoing at Acadia 
National Park and plans are underway to improve upon the 
transportation at Yosemite National Park and Grand Canyon 
National Park.
    We are also putting in some new walkways and trails to 
alleviate impact from pedestrian traffic and vehicle traffic in 
some of the fragile areas of the parks.

                        underutilized park areas

    Mr. Regula. I suspect that some of the 378 parks are under-
utilized, simply because the public may not have an awareness 
of their unusual characteristics?
    Mr. Stanton. You're absolutely correct, Mr. Chairman. We 
have a responsibility to make information available to the 
broadest spectrum of the American public possible, about all 
the units of the National Park System, and encourage visitation 
to some of the lesser known and underutilized parks. Because 
they, too, represent a rich part of our heritage.

                park information on world wide web sites

    Mr. Regula. I assume you have a web site where the public 
can get the information they would need to make a decision on 
visitation?
    Mr. Stanton. Yes, Mr. Chairman. We have a general web site 
that speaks to service-wide programs and services available. 
Then the individual parks have their home pages, and they're 
very proud of that, to have immediately available to the public 
information about that particular park.

                          park business plans

    Mr. Regula. You mentioned GPRA, and I presume it is part of 
your business plan. For the Committee, describe what the 
characteristics are of the business plan you alluded to in your 
testimony.
    Mr. Stanton. Yes. I might preface that by saying that the 
development of the business plan is a partnership arrangement 
that we have with the National Parks Conservation Association 
and other organizations that are underwriting some of the 
expenses involving young people from our Nation's best colleges 
and universities that have graduate degree programs in business 
administration and public policy.
    Mr. Chairman, could I ask the permission of the Committee 
to have one of our superintendents--who is working with the 
business plan on the ground--Don Neubacher, our superintendent 
at Point Reyes National Seashore in California, come forward 
and just tell you up front what it means to the park.
    Mr. Regula. That would be fine. That would be great.
    Mr. Stanton. Don?
    Mr. Regula. While he's coming up here, I understand that we 
now have 379 parks.
    Mr. Stanton. Three hundred and seventy-nine units, yes.
    Mr. Regula. With the addition of the missile silos.
    Mr. Stanton. That's correct. That is the most recent one.
    Mr. Regula. Now, do you have your hand on the button now as 
a result of that? [Laughter.]
    Mr. Stanton. No, sir, but that is a thought, though----
    [Laughter.]
    Mr. Stanton [continuing]. Depending on the receptivity of 
the Budget Committee.
    Mr. Regula. Just don't target this committee.
    Mr. Dicks. I'm glad you said the Budget Committee----
    Mr. Stanton. Oh, let me make a correction there, Mr. Dicks. 
[Laughter.]

         point reyes national seashore and park business plans

    Mr. Stanton. Don, please, just briefly on the business 
plan.
    Mr. Neubacher. Thank you very much. I don't know if you've 
received draft copies of our business plan that has been 
produced. This one is for Point Reyes National Seashore. There 
are now 12 prototypes. They really are linked directly with the 
GPRA plans that we're producing. They are strategic in nature 
and performance-based.
    As to what the business plan does, and it's actually been 
very helpful in my case at Point Reyes National Seashore, it 
provides a historical analysis as far back as we could go to 
the 1980s. And then we did a strategy thinking forward which 
outlines financial strategies and where we might want to go.
    So let's say Point Reyes National Seashore has a shortfall, 
which it does. What it does at the end, it looks at the 
financial strategies beyond just appropriations----
    Mr. Regula. So you have a shortfall in the funds that you 
need? That's what you're alluding to?
    Mr. Neubacher. That's correct. If, for example, in natural 
resources projects, if you added them all up in our data base, 
we have about a $20 million shortfall. We know that we would 
never get that kind of money through the appropriations 
process. We would love to, by the way. [Laughter.]
    Mr. Dicks. Why do you say that?
    Mr. Neubacher. Just because it's a lot of money nationwide 
when you add it up. And I think what we're trying to do is look 
at other financial strategies to fill the gap that we've 
identified. Let's say for example, as with our cooperating 
association, we've asked them to take on another million dollar 
campaign. They're willing to do that. We've looked at the fee 
program, which is another possibility where we can expand fees 
in our park.
    We've actually created now, with the National Park 
Foundation, which is a great partner, an endowment fund. All 
this coming out of the business plan, so it's helped us 
actually move things forward in a very progressive way. And I 
think times have changed. Actually I think superintendents now 
have to be more strategic, we have to think more financially, 
and we've got to look at where the public's money is going so 
we can be more accountable.
    Mr. Regula. How do you see the business plan affecting the 
public? After all, our mission is to serve them in a better way 
incrementally.
    Mr. Neubacher. I think we produce better products for the 
public overall, better visitor services. Because again, I'm 
looking strategically down the road, five or ten years, of 
where I'm going to put my dollars to make something occur for 
the public. So overall, they're going to get better resource 
protection and better visitor services, because I'm 
strategically and systemically thinking how to get this 
accomplished.
    And again, it goes hand in hand with GPRA. I think the two 
of them can work together. Because they're performance based, 
and it's given us really good information to manage cultural 
and natural resources overall, and visitor services. And by the 
way, visitor satisfaction at Point Reyes this year was rated 
100 percent, just through our visitor surveys. And that came 
out of the GPRA process.
    Mr. Regula. I assume the fee program is an integral part of 
this, too, because it does give you some resources to implement 
what you're finding would be important.
    Mr. Neubacher. Very much so. We're doing mostly user fees. 
We don't have an entrance fee, so we're running programs like 
shuttle bus systems and camping programs based on fees. 
Definitely, the profits, so to speak, with that, are then used 
for projects. Again, we're strategically laying out goals and 
getting them prioritized and having this long-term view of how 
we're going to get things accomplished.
    Mr. Regula. Well, thank you very much. I have many other 
questions, but I want to give the other members a chance.
    Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Stanton. I want to welcome you 
and applaud the good job you're doing in leading the Park 
Service.
    Mr. Stanton. Thank you very much, Mr. Dicks.
    Mr. Dicks. And I do appreciate the fact that we had such a 
great ceremony on the 100th anniversary of Mount Rainier 
National Park, and the 60th for Olympic National Park as well.
    Mr. Stanton. That's right.

   elwha river dams acquisition and removal at olympic national park

    Mr. Dicks. Let me ask you one question about Olympic. We've 
been working hard on the acquisition and hopefully the removal 
of the two dams on the Elwha River. Can you kind of give us an 
update on that project, because the members of the Committee 
that were on the Chairman's trip last year had a chance to go 
and visit that. I thought we might talk about that for a 
moment.
    Mr. Stanton. Thank you very much, Mr. Dicks. I am pleased 
to announce that the purchase of the two dams has been 
completed. The next step is to do environmental and other kinds 
of studies to make sure that the ultimate demolition and 
restoration of the areas in which the dams are located does not 
adversely impact the water supply to Port Angeles. The funding 
that's available now is being used to study the various 
measures that can be taken to mitigate any potential impact to 
the continual water supply to Port Angeles.
    Once that has been satisfied, then we'll move toward the 
demolition of the dams and the restoration of the area. That's, 
of course, depending on the scheduled funding in subsequent 
years.
    Mr. Dicks. How much is in the budget this year for this 
project?
    Mr. Galvin. We have $15 million.
    Mr. Dicks. Is there money let over from last year?
    Mr. Galvin. Yes, $22 million has been appropriated to date 
for the removal of the dams. That's exclusive of the 
acquisition.
    Mr. Dicks. That's beyond the acquisition?
    Mr. Galvin. The acquisition was $29 million.
    Mr. Dicks. So that would give us a pot of $37 million?
    Mr. Galvin. That's right.
    Mr. Dicks. And it is the hope of the Park Service, of 
course, and I would certainly be an advocate, to take out the 
dams sequentially?
    Mr. Stanton. Yes.
    Mr. Dicks. And that probably makes the most sense from a 
cost perspective, getting the construction teams up there and 
everything else. But that's something we have to still work to 
achieve.
    Mr. Stanton. That's being addressed through some of the 
engineering studies, and the Bureau of Reclamation is a partner 
with the National Park Service with respect to that.
    Mr. Dicks. Well, I want to commend the Park Service for 
sticking with it. This took a long time. We had authorizing 
legislation and it was a difficult and controversial project. 
And particularly Dave Morris did a tremendous job in the 
community, in terms of helping to develop a consensus behind 
this project. It took a while but we got there.
    Mr. Stanton. I appreciate that, and we'll pass it on to 
superintendent Morris.
    Mr. Regula. Do you see this as a possible model for future 
dam removals? From what I read and saw, this was in the west 
and the northwest.
    Mr. Dicks. Only when there's a consensus, Mr. Chairman. 
[Laughter.]
    Mr. Dicks. There was a consensus. It took a while to 
develop, but there was a consensus.
    I'll let Mr. Stanton answer it.
    Mr. Stanton. This obviously is a major undertaking to 
restore that important ecosystem and salmon habitat in Olympic 
National Park. To what extent it becomes a model, Mr. Chairman, 
I'm not quite sure. But certainly for Olympic National Park and 
for the fish and the benefit of the American public, it will be 
a major accomplishment. I think all involved, including the 
Committee, who has sponsored it, should be rightfully proud.
    Mr. Dicks. Even the greatest dam removal advocate of all, 
Mr. Babbitt, was there and said that we have to have a 
consensus to do this. And from my perspective, that's a good 
model for the Department of the Interior to follow.
    Mr. Stanton. Yes.
    Mr. Dicks. And we did have a consensus.

   YOSEMITE NATIONAL PARK IMPROVEMENT AND TRANSPORTATION SYSTEM PLAN

    But let me go on now to Yosemite. The Secretary was out 
there, we're going to make some major changes, the Committee 
visited Yosemite a couple of years ago. Can you tell us what's 
going to happen?
    Mr. Stanton. Yes. The Secretary, joining with 
representatives of the National Park Service and others, 
announced on Monday the draft general management plan, or the 
valley improvement plan, if you will, that speaks to what has 
been considered, has been needed for a number of years: 
substantial improvement in the valley to remove facilities, to 
provide alternate ways of visitors coming into the valley, 
thereby reducing the number of vehicles.
    This is a draft plan. It is now available for public review 
and comment. The comment period extends, I believe, until July.
    Mr. Dicks. A big part of the plan is to reduce automobile 
traffic?
    Mr. Stanton. Two things, to reduce automobile traffic in 
the valley as well as to remove facilities from the valley and 
to restore the natural environment in the valley. As I said 
before, it is a draft plan and it is out now for public review 
and comment.
    Mr. Dicks. Are you going to use transit to get people in 
there? I hope non-polluting.
    Mr. Stanton. The alternatives are to have limited parking 
within the valley and have satellite parking where individuals 
can park their respective vehicles, vans, whatever the case may 
be, and then the Park Service would provide shuttle services, 
either directly or through a concessionaire, into the valley. 
The main objective is to reduce the number of individual 
vehicles coming into the valley.

                SNOWMOBILES IN YELLOWSTONE NATIONAL PARK

    Mr. Dicks. Tell us about Yellowstone. You're going to have 
a ban on snowmobiles at Yellowstone. Is that going to be 
controversial?
    Mr. Stanton. It is controversial, Mr. Dicks, yes. Again, as 
with Yosemite National Park, we are in the environmental impact 
stage with respect to the public offering views about 
snowmobiles within Yellowstone National Park. The public 
comment period has closed; we're in the process now of 
analyzing all the comments. In order to be fair with the 
process, I cannot say what the final decision will be about 
snowmobiles, but obviously, there are many, many strong points 
of view about snowmobiles.
    Mr. Dicks. The major issue is the level of air pollution in 
the park?
    Mr. Stanton. This is an extremely grave concern to all of 
us. Because it's well documented that there is a level of 
emissions that's totally unacceptable in terms of pollutants, 
pollution of particles into the environment. And EPA has 
offered some recommendations, suggestions that the types of 
snowmobiles that are currently used are not acceptable in terms 
of air quality standards.
    I might add that we're looking at snowmobiles not only 
within Yellowstone National Park proper, but also on the 
Rockefeller Parkway and in the adjoining park, Grant Teton 
National Park.
    Mr. Regula. I'm curious, automobiles that go through there 
in the summer would seem to me to emit far more total emissions 
than the snowmobiles.
    Mr. Stanton. I cannot speak to the technical analysis, Mr. 
Chairman or Mr. Dicks, with respect to the emission of 
pollutants by snowmobile, vis-a-vis that of automobiles. But in 
a layman's way, the reports that I've seen say that the 
snowmobiles, the two-stroke engines produce an unacceptable 
level of pollution.
    Mr. Galvin has been involved. He may have more to add.
    Mr. Galvin. Amazingly, it is true that the snowmobiles are 
more polluting than all the automobiles that go through there 
in the summer, because the four-stroke engine and the air 
pollution controls that have been required on automobile 
engines have reduced the pollution so much, whereas almost the 
opposite is true on the two-stroke engines, which is also a 
problem dealing with outboard motors as well. But outboard 
motors are closer to getting a four-stroke engine and reducing 
the pollution.
    There are also wildlife issues associated with snowmobile 
use in Yellowstone. By going to snow coaches, you can bring in 
the same number of people and reduce the number of trips by 
about 80 percent, so you get less constant movement on those 
roads where the wildlife concentrate in the winter.

                      CONSTRUCTION AND MAINTENANCE

    Mr. Dicks. Let me ask you, tell me what the budget is for 
maintenance. Is the budget for maintenance actually down, the 
budget request below last year's level? Is that accurate?
    Mr. Stanton. The line item construction program is down 
from the enacted amount of last year. But the repair and rehab 
and cyclic funding is at the same level.
    Mr. Dicks. Can you give us a little run-down on that? And 
backlog on maintenance? I'm with the Chairman on this. I think 
we need, before we go out and do a lot on new land acquisition, 
I think we've got to take care of the maintenance of the 
existing parks. At least we've got to have an equivalent 
effort.
    Mr. Stanton. The enacted amount for line item construction 
in fiscal year 2000 is $151 million plus. And the request for 
2001 is $108 million. So there is a decrease in that.
    Mr. Dicks. Of $43 million?
    Mr. Stanton. Yes, $43 million difference between enacted 
and----
    Mr. Dicks. Why is that? I mean, we talk about this being a 
priority. That doesn't look to me as if it's a priority for the 
Park Service. Is that because we're using the money from the 
fees? Are we starting to go back to the old game where we cut 
back on the maintenance money and the budget because we're 
getting direct fee money in, and we're using that instead to do 
this work? I hope that isn't the case.
    Mr. Stanton. That is not the case, Mr. Dicks and Mr. 
Chairman. Obviously there are competing demands within our 
budget for the resources which we are requesting. Clearly as 
you point out, we have the benefit of the Recreational Fee 
Demonstration Program, that in addition to construction, 
provides revenues between $140 million to $145 million. Also 
the repair, rehab and cyclic account is approximately another 
$80 million.
    But there have been other needs that have been expressed in 
the budget in terms of operational increases. We have requested 
$24 million, as I mentioned earlier, for park operational 
increases. Some of that would be used for minor repair and 
rehabilitation that is commensurate with the park's capability 
to execute those programs. It in no way should reflect any 
diminishing on our part of being attentive to the 
infrastructure needs, which are great, certainly.

                          MAINTENANCE BACKLOG

    Mr. Dicks. What do you think the backlog is? Do you have a 
number on the backlog in the maintenance in the Park Service?
    Mr. Stanton. The last number that we used in terms of the 
category of backlog for maintenance and rehabilitation, and I 
think roads and bridges are included as well, was in 1993. The 
figure for the total cost we used at that time was $5.3 billion 
or $5.4 billion.
    Mr. Dicks. Billion?
    Mr. Stanton. Billion, yes.
    Mr. Dicks. And within your five year plan, does that get 
reduced or does it just about stay the same? Or does it 
increase? Or do we know?
    Mr. Stanton. We know, Mr. Dicks. The five year plan, if you 
were to take out new construction, contains in the neighborhood 
of $800 million for maintenance. I might add that we have a 
well documented program for roads and bridges. All of our roads 
and bridges by and large have been inspected by the Federal 
Highway Administration, pursuant to an agreement. The need for 
roads and bridges is $2.7 billion.

                           ROAD CONSTRUCTION

    Mr. Dicks. How much of that are you getting out of TEA-21? 
How much funding is out of TEA-21 for that?
    Mr. Stanton. For hands-on improvement to roads and bridges, 
$120 million to $125 million a year for category I--repair of 
the existing system.
    Mr. Dicks. So that's not a lot. I mean, when you consider 
the amount that you need.
    Mr. Stanton. No.
    Mr. Dicks. How much of your budget is in there for roads 
and bridges?
    Mr. Stanton. We don't have a large amount in for roads and 
bridges.
    Mr. Dicks. So you're using TEA-21 exclusively?
    Mr. Stanton. Primarily. We do use some funds for minor 
chipping and sealing and some minor road improvement work out 
of our repair--rehab and cyclic programs, but by and large, we 
rely on the transportation program for major bridge and road 
repair work, that is correct.
    Mr. Dicks. So we're not going to get that caught up in any 
near term, and probably as we go, that account will increase, 
won't it? Won't the needs for the roads and bridges increase? 
If we're only reducing it $125 million a year?
    Mr. Stanton. The roads and bridges are continuing to be 
heavily used, and as a result, they continue to be impacted 
adversely in terms of traffic. Simple arithmetic would say that 
it will take a while to catch up, if the known needs are $2.7 
billion and the annual allocation for roads and bridges is in 
the neighborhood of $120 million to $125 million for category 
I, you're correct.

                          MAINTENANCE BACKLOG

    Mr. Dicks. I don't want to ask you to do too much work on 
this, but I would appreciate in the record to have a new 
updated estimate, to give us a year 2000 estimate of where we 
are on the overall maintenance backlog?
    Mr. Stanton. Maintenance as distinguished from new 
construction?
    Mr. Dicks. Right.
    Mr. Stanton. Okay.
    Mr. Dicks. If it was $5.3 billion in 1993, tell us for the 
record what the number is today. Thank you, Mr. Chairman.
    [The information follows:]
    Offset Folios 600 to 601 Insert here

<SKIP PAGES = 002>

                         AUTOMOBILE COLLISIONS

    Mr. Regula. Following up on that, do you have a problem 
with automobile collisions, accidents in these major parks? 
Because bridges and roads would be a part of that. Is that a 
problem at all?
    Mr. Stanton. The priorities for the allocation of the 
transportation funding take into consideration the level of 
use, and the standards of the road with respect to the motoring 
public today. We try to address those in a very powerful way.
    Mr. Regula. Well, as a practical matter, do you have many 
accidents?
    Mr. Stanton. We do have accidents. I cannot say the exact 
statistics, Mr. Chairman, with respect to individual parks, but 
certainly here in our Nation's capital, we have the parkways, 
and certainly throughout the parks, we have a large number of 
major road systems that are heavily used.
    But again, as a part of our priority setting, we take into 
consideration the rate of accidents in a given stretch of road.
    Mr. Wamp [assuming chair]. Mr. Peterson.

                          MAINTENANCE BACKLOG

    Mr. Peterson. Good morning. Welcome. It's good to see you 
again.
    I guess I'm surprised that we're looking at eight year old 
data on the park maintenance backlog. That just astounds me. 
Why is this not annualized?
    Mr. Stanton. It is annualized, Mr. Peterson, with respect 
to the multi-year or the five year maintenance improvement 
program. But that five year program is not inclusive of all the 
known needs.
    If I understood the question from the Chairman, he asked, 
if you were not constrained by a given multi-year program, such 
as a five year program, what would be the total amount of the 
needs that you might have. So it's a matter of how we're 
structuring the program.
    Mr. Peterson. I had a friend who recently retired and 
traveled from coast to coast very leisurely, and used our 
National Parks as his resting grounds as he worked his way 
across the country, both ways, took a different turn. His 
general observation is they're beautiful, they're wonderful, 
but boy, do they need maintenance. That was his general 
observation.
    I guess I'm surprised that we don't have an annualized 
figure. I mean, that should be just automatic.
    I'm going to tell you where I'm coming from. At the State, 
Pennsylvania, where I just came from, in government, four years 
ago, there was much more emphasis on purchase and acquisition 
of park land than there was of maintenance. I was one of three 
or four people out of a 50 member senate that every year really 
paid attention to the State park budget. Because people wanted 
to get their personal park enlarged or enhanced, but they 
didn't look at the system.
    I come to Washington and I find the same thing in not only 
your agency, but all of our land agencies. The emphasis is on 
purchase, on acquisition, I think at the expense of 
maintenance. Not only on your land, but all Federal land that 
we own. That really troubles me, because you know, our country 
is depending on us. I mean, they love these sites, they really 
love them. Three hundred and what was it, 79, if we're not even 
annually listing the figure of what our backlog is, it shows 
that the backlog is not our priority.
    I recognize that goes a pay grade above you. I'm not 
blaming you. If you were setting that figure, you, I think, 
would be putting more money in maintenance. That's my own 
personal opinion. Do you want to respond to that?
    Mr. Stanton. Well, you described the circumstances very 
appropriately, Mr. Peterson, with respect to the needs. 
Obviously we have a continuing obligation to assure that the 
resources are preserved in the best condition, and certainly 
that they are safe to be used by the American public.
    We recognize that there are many needs that exceed our 
current budget as well as our budget request, but if you take a 
look at the spectrum of programs and responsibilities of the 
National Park Service, there are other programs that require 
critical funding as well, but we certainly recognize the need.
    Mr. Peterson. Well, I have to vote, I guess I'm down to 
three minutes. With no increase asked for backlog maintenance, 
and a 20 percent reduction in line item construction and major 
maintenance requests, that says something. And I guess I'm 
disappointed in that, that we're not asking for the needs. 
Because I think the general observation I get is that it's a 
wonderful system, but we have not plowed the money into it to 
make it up to date, buildings repaired.
    As the use grows, the need to maintain grows with it. And I 
guess I just urge you that our priorities need to change there, 
and that acquisition needs to come after we maintain what we 
have.
    Mr. Stanton. I appreciate that comment, sir.
    Mr. Nethercutt [assuming chair]. Mr. Director, welcome. I'm 
glad you're here, sir.
    Mr. Stanton. Thank you.
    Mr. Nethercutt. I appreciated having the chance to talk 
with you earlier before your testimony as you visited our 
various offices.
    I want to compliment you on the work you're doing. I also 
want to compliment your staff and your people in the field. As 
I told you in our meeting, I've had the chance to visit some 
parks with my family and have been terribly impressed with the 
professionalism, knowledge and the depth of feeling that your 
people in the field have for the treasures of our National Park 
System.
    Mr. Stanton. Thank you very much.
    Mr. Nethercutt. I look forward to visiting the Grand Canyon 
in a couple of months, and hope you don't have to helicopter me 
out of the bottom. [Laughter.]

                      MULTI-AGENCY VISITOR PASSES

    Mr. Nethercutt. I want to ask you, sir, about the park 
passport program, the fee program that goes with entry into the 
parks, the uniform system. I also want to talk with you about 
the Forest Service trail park passes program.
    I'm wondering if there isn't some way that the citizen of 
the United States who desires to use our public lands, be they 
Forest Service lands or Park Service property, might not have 
some way to access both? Perhaps a common acceptance of the fee 
programs for each?
    I know that this Committee has been very supportive of the 
fee demonstration program in our parks, and I want to be sure 
that the maintenance issue is addressed by use of those fees in 
the park from which they're collected. Do you see any potential 
for coordination of efforts among the land use agencies that 
are open to the public and the public enjoys?
    Mr. Stanton. We certainly do, Mr. Nethercutt. It is 
important, very important that there be ongoing cooperation and 
collaboration between the land management agencies, at the 
Federal as well as at the State level, to enhance our services 
and convenience to the American public.
    There are a number of examples where this kind of 
cooperation is taking place through the use of the authority 
granted by this Committee in terms of the Recreational Fee 
Demonstration Program. Most recently, the Congress authorized 
the Park Service to have its own pass, known as the National 
Park Passport, which would be purchased and used for a year to 
access any park in terms of entrance fees.
    However, we've also worked out an arrangement--I should say 
Secretary Babbitt has worked out an arrangement, with Secretary 
Glickman where the National Park Passport can be upgraded to a 
Golden Eagle pass to allow the holder to go not only into 
National Parks but into U.S. Forest Service areas or BLM areas 
or the Fish and Wildlife areas, if they have a fee. So there 
will be a convenience to the public that they can access any 
public lands through a recreational annual fee pass.
    Also at a number of areas, a National Forest or a Bureau of 
Land Management area may adjoin a National Park, and in some 
instances they have developed a local joint pass. That again 
provides a convenience to the public. We continue to encourage 
this, Mr. Nethercutt.
    Mr. Nethercutt. That's great, because I think we do 
treasure our ability to get out of the cities and into the 
natural settings that are offered by our Park Service and other 
agencies.
    Mr. Stanton. That's right.
    Mr. Nethercutt. So I'm glad the cooperation is going to be 
there.
    Mr. Stanton. Yes.

                  PUBLIC INPUT TO USE OF FEE REVENUES

    Mr. Nethercutt. Let me ask about whether, and to what 
extent, the public has input into the parks, and in particular, 
the use of the fee demonstration money for improvements to the 
parks. Is there public comment, is there public input as to how 
those parks may be improved or benefit the public with the 
public's approval?
    Mr. Stanton. Yes. That is a requirement of the 
authorization, that we enlist or solicit the views of the 
American public with respect to their views or perceptions 
about the fee program: whether or not the fees from their 
perspective may be prohibiting their visiting parks, whether or 
not we are using the fees to enhance park programs and 
facilities. So there is a structured way of inviting public 
comments.
    By and large, since we are now into the fourth year of the 
Recreational Fee Demonstration Program, the public has accepted 
the fee program. We bring to the public attention various 
projects that are being accomplished, that these were 
underwritten, if you will, by their recreational fees that they 
paid at the entrance station or in the campground.
    In summary, the public offers input, and by and large has 
been very supportive of the fee program.

                   PROCEDURE FOR USE OF FEE REVENUES

    Mr. Nethercutt. Is the procedure such that the particular 
park in question, the personnel thereof, with, I assume, your 
approval, would make judgments about improvements to the park 
as opposed to having the Secretary or someone here in 
Washington be the determiners about how parks would be 
improved?
    Mr. Stanton. We do indeed have a procedure or a process in 
which projects or programs proposed to be funded under the fee 
program are approved. But they originate at the park level.
    Mr. Nethercutt, as prescribed in the legislation, the park 
where the fees are collected retains 80 percent of the revenues 
generated, and the other 20 percent goes into a national fund 
to assist parks that are not a participant in the parks or may 
have needs beyond what their 80 percent has generated. But all 
the programs and projects that are funded through the fee 
program, whether it's the 80 percent or the 20 percent, are 
geared towards improving the current resources in the 379 units 
of the park system.

          CONSTRUCTION AND MAINTENANCE BACKLOG PRIORITIZATION

    Mr. Nethercutt. One final question. And you can do this for 
the record, if you would. I know you've talked about the 
construction and maintenance backlogs while I was over voting.
    Mr. Stanton. Yes, sir.
    Mr. Nethercutt. So I won't rehash that. But I assume there 
is a procedure for prioritizing those construction and 
maintenance backlog projects that you employ.
    Mr. Stanton. That is correct.
    Mr. Nethercutt. And I wonder if, for the record, you could 
identify what that procedure is, what the priorities are and 
what the list currently is, assuming there is a list. Would you 
do that for me?
    Mr. Stanton. There is a list. We would be more than happy 
to do so.
    Mr. Nethercutt. All right, thank you very much, sir.
    [The information follows:]
    Offset Folios 612 Insert here

<SKIP PAGES = 001>

    Mr. Nethercutt. Mr. Cramer.
    Mr. Cramer. Thank you, Mr. Nethercutt. And I too am 
interested in the last question that you posed about the 
construction and maintenance backlog.
    Welcome back to the Committee. It's nice to have you here. 
It's our opportunity to engage you, but we get that opportunity 
because you and your staff are so eager to get to our offices 
and make sure that you give us information that we need.
    Mr. Stanton. Thank you kindly.

               NUMBER OF NATIONAL PARK SERVICE EMPLOYEES

    Mr. Cramer. Summarizing, I too was out of the room, but 
looking and absorbing your statement here. You made reference 
to the number of employees that you have, 20,000?
    Mr. Stanton. Yes, approximately. That's in all categories.
    Mr. Cramer. Is that concession?
    Mr. Stanton. No, that's permanent, full-time, seasonal, 
temporary, National Park Federal employees. The concessionaires 
hire their own and they're not Federal.
    Mr. Cramer. So they're not counted in that number?
    Mr. Stanton. That's correct.
    Mr. Cramer. I was recently able to be in Yellowstone. 
Believe me, the snowmobile issue is an interesting issue there 
to say the least. But beyond that, Mike Finley made sure that I 
got to see a lot of the impact of the appropriations process, 
what we're doing, and in some cases because I asked questions, 
what we're not doing.

                     EMPLOYEE HOUSING CONSTRUCTION

    But I was very interested in hearing from you today about 
your budget and what your budget reflects in terms of, say, 
there at Yellowstone and other parks similarly situated, the 
employee housing issues there. Would you talk to me about that 
and how that fits in? Does that fit in construction and 
maintenance? Or is that in another category in your budget?
    Mr. Stanton. Thank you very much, Mr. Cramer, for that 
question. We specifically identify within our construction 
program the funding dedicated to employee housing. Prior to 
this budget request, we had responded to a request of this 
Committee to reexamine the process that we have followed in 
establishing housing needs and what the priorities are. I'm 
pleased to again express our appreciation to Chairman Regula 
and members of the Committee for responding to the results of 
our reexamination of our housing program against prior 
appropriations.
    We now are proceeding with upgrading or rehabilitating 
existing housing units as well as replacing trailers. Again, 
thanks to the leadership----
    Mr. Cramer. You have a lot of trailers in Yellowstone.
    Mr. Stanton. Right. Trailers are, in my judgment, and I 
state this quite forcefully, trailers are inappropriate in 
National Parks. Replacing trailers has been one of our major 
objectives for a number of years. Again, through the 
cooperation and support and the leadership of this Committee, 
we now have funding to start addressing some of the trailer 
replacement and rehabilitation of some of the housing.
    But for fiscal year 2001, we are requesting an additional 
$5 million to continue to improve housing in our parks.
    Mr. Cramer. Targeted just for that issue?
    Mr. Stanton. Yes, just for that issue.
    Mr. Cramer. And if you get that budget, what will you 
accomplish, say, in Yellowstone?
    Mr. Stanton. I do not have the particulars for Yellowstone, 
but Yellowstone has a number of houses that need to be 
rehabilitated, as well as some trailers in need of replacement. 
We would be more than happy to furnish you a specific 
breakdown.
    Mr. Cramer. That would be helpful. But I was interested in 
generally speaking, then, you would phase in to replacing those 
kind of units, or would you get to make some substantial impact 
on that, if you get the budget level that you want?
    Mr. Stanton. Yes. Your Committee and Congress have 
appropriated in fiscal years 1998 and 1999 $18 million which we 
are not permitted to obligate until we have satisfied some of 
the concerns that we had raised internally, and certainly 
concerns raised by the Committee. Through continuing efforts, 
through the Park Service and General Accounting Office and 
others, I think those concerns have been addressed, and we will 
be moving towards using prior appropriations.
    Of that prior year money, we have $1.2 million earmarked 
for Yellowstone.
    Mr. Cramer. Will it take a few years, then, to remove the 
trailers?
    Mr. Stanton. No. Normally that's a fairly expedient 
process, in that one of the commitments we've made is that 
we're going to use a design, in some instances, modular design 
or standard design, that's suitable for a park. In those 
instances where the site has been agreed upon in terms of 
environmental compliance, it should not take us that long to 
move forward with some improvements.
    Obviously in some places, such as Yellowstone or Glacier, 
you only have a short window of construction season, so you 
have to get the work in, say, May through September.
    Mr. Cramer. Give me any information you can on that issue.
    Mr. Stanton. Yes, I sure will.
    [The information follows:]
    Offset Folios 617 Insert here

<SKIP PAGES = 001>

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

    Mr. Cramer. I want to quickly switch you to another part of 
your budget. I'm concerned about the terrible condition of some 
of the historic buildings and structures on the campuses of our 
historically black colleges and universities.
    Mr. Stanton. Yes, sir.
    Mr. Cramer. And I was interested in the Historic 
Preservation Fund and disappointed that the request this year 
is not as high as I think it should be in order to deal with 
those particular issues.
    In your budget, you will be $5 million below the 
President's request for last year on that particular issue?
    Mr. Stanton. Yes, Mr. Cramer. We will be, if you will, at 
ceiling of the authorization level enacted into law by the 
Congress and signed by the President. We were given 
authorization to allocate a specific amount of funding to 
historically black colleges and universities. Some institutions 
were predetermined in the authorization.
    This budget reaches the ceiling. Therefore, we are not by 
authorization permitted to spend more than the ceiling. 
Obviously, there are many needs that still exist, but we have 
reached the congressionally authorized ceiling for the amount 
of money to be appropriated for preservation of our 
historically black colleges and university campuses.
    Mr. Cramer. I think we need to do a better job of 
preserving our old historic structures across the country. So 
I'll look forward to continued dialogue with you over that.
    Mr. Stanton. We look forward as well. Thank you very much.
    Mr. Regula [resuming chair]. Mr. Nethercutt and Mr. 
Peterson, did you get your chance? We're going to have another 
round of questions.
    Mr. Peterson. If I could just have one follow-up.
    Mr. Stanton. Yes, please.

                          MAINTENANCE BACKLOG

    Mr. Peterson. How soon can you give us a new, I think Mr. 
Dicks kind of asked for it, but as far as this budget cycle is 
concerned, I guess, the appropriation cycle, how soon can you 
give us a current maintenance needs number?
    Mr. Stanton. Two weeks or less, Mr. Peterson.
    Mr. Peterson. Okay.
    Mr. Regula. That's fine.
    Mr. Peterson. I really would appreciate that. And as much 
detail as you can of where it's needed, roads, buildings, 
facilities. I mean, I guess I don't feel like I know enough 
about the issue here. I'd like to know where the needs are. 
Because my general perception from people touring is, they love 
this thing. Why aren't you maintaining it, they ask me. And I 
want to respond to them some way.
    Mr. Stanton. Okay. Thank you.
    Mr. Regula. If you can get that to us, then we'll circulate 
it to all the members, as well as put it in the record.
    Mr. Nethercutt, did you have anything?
    Mr. Nethercutt. I'm fine, Mr. Chairman. Thank you.
    Mr. Regula. Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman.
    Nice to see you, Mr. Stanton.
    Mr. Stanton. Thank you, Mr. Moran.

                        Lands Legacy Initiative

    Mr. Moran. The Administration's Lands Legacy initiative is 
$735 million requested, new spending for the Interior 
Department. Of that total, you get roughly $300 million. Could 
you prioritize, say, your top five areas that you would like to 
apply this money to, areas that you would like to acquire? Has 
that been asked, Mr. Dicks?
    Mr. Dicks. No.
    Mr. Moran. Maybe he can't answer it, but----
    Mr. Stanton. I might preface the response, Mr. Moran, with 
the types of programs that are funded under the umbrella of the 
Lands Legacy program, which are three-fold. One is to further 
the acquisition of Federal lands, including inholdings within 
existing units of the National Park System.
    Mr. Moran. All contiguous to Federal land holdings?
    Mr. Stanton. Right. Another is to provide financial 
assistance to States and their political subdivisions. The 
third is the Urban Park and Recreation Recovery program, at the 
level of $20 million. The Federal portion of it is $147 
million. The State assistance is $150 million, and the Urban 
Park and Recreation Recovery is $20 million. That constitutes 
the Park Service component, if you will, of the President's 
Lands Legacy program.

                      land Acquisition Priorities

    Mr. Moran. I just wondered where you would tend to spend, 
if you had made those kinds of decisions.
    Mr. Stanton. We have identified in the body of our budget, 
Mr. Moran, the projects that we would use funds for. The 
funding that we would use for specific projects in the National 
Park System, such as the Civil War sites and other areas. We do 
not have a definitive listing in terms of where the States 
would apply the funds they receive.
    Mr. Moran. That's fine. I understand that, absolutely. But 
for example, the Civil War sites would be a principal 
acquisition priority, and I suppose that's Pennsylvania, 
Virginia, Maryland?
    Mr. Stanton. Yes. We have 37 parks that would receive 
funding under the amount we requested for land acquisition. It 
would provide a net increase to the National Park System of 
16,000 acres. Santa Monica Mountains, Mojave Desert, Delaware 
Water Gap, Big Cypress, Harper's Ferry Historical Park, 
Vicksburg, Manassas, Monacacy. They are in the top priority.
    Mr. Moran. Very good.
    Mr. Nethercutt. Would the gentleman yield for just a quick 
question?
    Mr. Moran. Sure.

         Operation and Maintenance Costs of Land To Be Acquired

    Mr. Nethercutt. With respect to the acquisition costs that 
you've outlined, have you identified the maintenance costs that 
would go along with the acquisition of those additional Civil 
War lands?
    Mr. Stanton. We do not have a specific corresponding 
estimate of what would be the recurring operating expenses if 
we acquired the lands, although that is documented in a park 
program. The format of our budget does not provide an estimate 
of costs for the corresponding recurring preservation, 
maintenance or visitor use of that particular parcel of land.
    Mr. Dicks. Would you yield on that point?
    Mr. Nethercutt. Sure.
    Mr. Dicks. That should be part of, when we do these 
acquisitions, should that be part of the information that the 
Congress sees, and what's the cost going to be on an annual 
basis of maintaining this facility or park?
    Mr. Stanton. Mr. Dicks, I would want to take a look at this 
closely and report back to the Committee on that question.
    Mr. Regula. I think that's a good point that Mr. Dicks 
makes, and I'd be interested. Because every time you acquire 
something, you've got to build in maintenance costs 
prospectively. And you're already so far behind.
    Mr. Galvin. All the projects that the Director mentioned on 
the priority list are within the boundaries of existing parks, 
or they are authorized by Congress as new acquisitions in the 
case of new parks like Mojave. So in a sense, we're filling in 
the lines inside the boundary of parks. In many cases, Civil 
War parks being a good example, there's no real good 
alternative to buying the land. If you don't buy it, it's going 
to be developed and it's inside your boundary.
    Mr. Stanton. We do have new parks and the budget speaks to 
this in terms of requesting operational, recurring resources. 
Tuskegee Airmen National Historic Site is an example, in 
Alabama. It was recently authorized, and this gives us an 
opportunity now to request operational resources for this new 
park.
    Mr. Moran. Thank you, Mr. Chairman.
    Could I get back on track here? I was planning on that 
being about a 30 second response.
    It's very important. I recall we asked the Secretary of 
Interior about that issue as well. Your answer was consistent.

            George Washington Memorial Parkway Land Exchange

    I do want to thank you, Mr. Stanton, for signing that land 
exchange agreement on the GW Parkway. That was clearly a win-
win for the Park Service's priorities, preventing another 
interchange on the GW Parkway. And of course, the opposition 
was driven by one private party's economic concerns. So I'm 
glad that you did not take the political route, but the 
substantive policy route. It's much appreciated by a lot of 
people throughout the area.
    And Mr. Chairman, I appreciate your quick action on that, 
and facilitating that. So thank you very much.

                             Land Easements

    I wanted to raise an issue, with regard to land 
preservation. Up in Maine, the Pingree family own and manage 
vast amounts of timber forest. They have proposed to sell 
environmental easements on valuable forest lands to the Federal 
Government at a substantial discount in agreement that they 
would manage the forests in a sustainable, environmentally 
sensitive manner. So the Federal Government incurs no long-term 
management costs. The family agrees to manage them, and the 
only long term cost to the Federal Government is the auditing 
requirements to make sure that the agreement is being 
maintained.
    It's a fascinating new approach. One that a lot of private 
landowners might be very receptive to. And again, it doesn't 
require any long-term Federal cost but a Federal objective is 
achieved. So I don't know whether you have any authority in the 
National Park Service to obtain scenic or other types of 
easements on private land. But I wonder if you wouldn't look 
into that where it might achieve objectives with regard to 
cultural or historic or environmentally sensitive property. I 
think it's an interesting, innovative approach.
    Mr. Stanton. Two responses, Mr. Moran, and Mr. Galvin and 
Ms. Lowey and Ms. Masica may have additional responses. We do 
have authority to acquire easements in areas that have been 
authorized as units of the National Park System. But as to the 
area in Maine, I don't believe we have any involvement in that 
at all.
    Mr. Galvin. We've had a little bit in the so-called Maine 
Woods and Northern Forests, generally that's been a Forest 
Service lead. We've had a little bit of involvement with 
respect to cultural resources, but none with respect to land 
acquisition; we have no authority.
    Mr. Moran. Well, do you need authority to be able to 
accomplish something like that? It just seems like it's a new 
win-win type of approach. It doesn't cost much, but 
accomplishes our objectives.
    Mr. Stanton. I'm not conversant with what authority exists 
on the part of the U.S. Forest Service. As far as I recall, 
there's no authority for the Park Service to acquire any type 
of land interest. Should it be the will of Congress to pass 
such a measure, signed into law by the President, giving us 
some authority, obviously we could negotiate.
    But I might add that we don't enter into agreements, 
easement or otherwise, in which it provides for production of 
timber in National Parks.
    Mr. Moran. No, I understand that. But Mr. Chairman, I was 
raising it in the context of the Lands Legacy initiative.
    Mr. Stanton. Yes, I understand.
    Mr. Moran. If we want to make this money stretch further, 
this might be an approach, to buy the easement instead of the 
land outright.
    Mr. Regula. You might reserve your question, too, for the 
Forest Service. I think it is a Forest Service issue.
    Mr. Moran. I plan to. But I was going to ask each of the 
aspects of the Interior Department whether they had authority 
and whether they had considered it.
    Could I ask one quick one?
    Mr. Regula. One more.
    Mr. Moran. Thank you, Mr. Chairman.

                       United States Park Police

    You've got a $1.5 million increase for the National Park 
Service's Park Police budget. We've got a serious problem with 
the Park Police in terms of morale and retention problems. The 
reason, I think, is a very legitimate one. They don't get the 
pay and benefits that their counterparts get within the other 
parts of the Federal Government. Yet it's the Park Police, and 
I'll bet you knew this, Mr. Chairman, but I continue to be 
surprised, the Park Police account for more than 30 percent of 
all the arrests in the District of Columbia. Did you know that? 
In the District, more than 30 percent of the arrests are made 
by Park Police.
    Yet we put the least resources into the Park Police. They 
have the fewest people and yet they're doing arguably the best 
job in terms of their responsibilities.
    So I'm just wondering if we have looked at that and whether 
$1.5 million would rectify the situation in terms of being able 
to recruit and retain adequate numbers.
    Mr. Stanton. Two responses, Mr. Moran. I certainly would 
agree that the U.S. Park Police is a fine if not the finest law 
enforcement entity in the Federal Government, working shoulder 
to shoulder with our U.S. Park Rangers. And both organizations 
do magnificent work for the benefit of the American public.
    What this intends to do is to provide for the 
simplification of the various pay scales in the U.S. Park 
Police and become part of a foundation to further reexamine and 
to make improvements to the U.S. Park Police and its budget as 
well as operational needs in terms of materials, supplies, 
training, vehicles and what have you. It's certainly incumbent 
upon the Park Service and yours truly to assure that all of our 
law enforcement personnel have the resources needed to carry 
out their responsibilities. Our Rangers, our Park Police, by 
the nature of the job, are put in harm's way. So they need the 
full resources available to them.
    Mr. Moran. Thank you, Mr. Stanton.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman.
    Director Stanton, welcome.
    Mr. Stanton. Thank you.
    Mr. Wamp. I want to associate myself with the comments of 
the gentleman from Washington State, Mr. Nethercutt, when he 
complimented you on the progress that has been made, the work 
that you are doing. Specifically the responsiveness of your 
staff throughout the Park Service to both this Committee and 
our constituents.
    Mr. Stanton. Thank you.
    Mr. Wamp. I think there's some good work being done and you 
need to be commended for that. When I say, as I often do, that 
this Committee funds the good guys, you all are at or near the 
top of that list of good guys. But when you're seen in the eyes 
of the American people at the same level of purity as the Red 
Cross or the Boy Scouts or other great institutions in this 
country, you've got a lot to live up to. So I want to encourage 
you to continue to be accountable and responsive and more 
efficient.

         Operation and Maintenance Costs of Land To Be Acquired

    One quick statement, and then a question. The statement is 
a follow-up to this ongoing debate of whether or not 
maintenance costs should be included in any acquisition 
request. It seems obvious to me, I mean, because if you were a 
builder and you went to a bank and you made a request for a 
loan and you didn't include the ongoing costs associated with 
that, you'd never get the loan.
    This is not the same situation, but it needs to be more 
like that, so that there is a long-term look. And it ought to 
be obvious. We ought not have people dancing around answering 
that question. We ought to have everybody in Government saying, 
yes, we're going to include an estimate of long-term, ongoing 
costs associated with this acquisition. And we ought to come 
together in a bipartisan way around that.

                     Employee Housing Construction

    The question I have goes back to the issue of employee 
housing. Mr. Cramer talked about it. I understand the $5 
million increase, I understand the desire to eliminate 
trailers. But when a few bad examples came before this 
Committee a couple of years ago of excessive costs for housing 
and construction in the parks for facilities, we went out to 
the parks, this Committee, and worked with you on making 
recommendations.
    It's not just a money issue, even though that's part of it. 
You need more money, I agree. But you also need systemic 
reform. We realize that the Denver Service Center was not an 
efficient way to manage construction projects. We realize there 
needed to be more accountability at the site and local control 
of being able to sub out work at the site. And most of all, 
standardization throughout the parks, particularly the big 
parks where it's very hard to build in, from the Grand Canyon 
to Yosemite to Yellowstone, etc., where they could standardize 
construction of multi-family units and lower the costs, improve 
the efficiency and the accountability.
    But it is systemic change. Give me a report, I know some 
things have been done. Give me a report on what progress we're 
making to change the culture and tell me who's in charge of 
housing in the Park Service.
    Mr. Stanton. Thank you. I'll answer the last question now: 
I'm in charge and accountable and responsible. I'd better stop 
there. [Laughter.]
    I commented earlier that we have recently completed a 
report that was required by this Committee with respect to the 
reforms, the changing culture in terms of administering our 
employee housing program. I'm not quite sure whether or not a 
copy of the report has been provided to each member of this 
Committee. We'll make sure that each member gets that. It 
commits ourselves to that change in direction of housing, some 
standardization of design and some other measures to improve 
the overall efficiency and maximize use of the resources 
available to us to meet our employee housing needs.
    I think you'll be pleased with the report.

                         Denver Service Center

    Mr. Wamp. Are we reducing the size of the Denver Service 
Center so that everything in this country doesn't have to go 
through a central location that inflates the cost associated 
with construction?
    Mr. Stanton. I had mentioned at the outset, Mr. Wamp, that 
we have fulfilled the recommendations set forth in the NAPA 
study, or the National Academy for Public Administration. We 
went through a very strenuous process of downsizing. We have 
reduced by almost 50 percent the staff at the Denver Service 
Center, and moved towards a new arrangement for contracting out 
a lot of the design and supervision of our construction 
program.
    Mr. Wamp. It's a laudable achievement, and keep working. 
Thank you, Mr. Chairman.

                     Employee Housing Construction

    Mr. Regula. I might point out, in your own report, you said 
about 20 percent of the housing problems still need to be 
resolved, and I assume they're the tough ones. And I also 
assume, in response to Mr. Wamp, too, you're working on this to 
get a final resolution. Is that correct?
    Mr. Stanton. That is correct. That is embodied in the 
reports that we have just recently provided to the Committee, 
Mr. Chairman. I think we have identified in the body of the 
report the various measures that were taken to address the most 
critical needs, while also making sure that we are maximizing 
the dollars that we have available through standardization of 
design and other kinds of measures.

                 Construction Accountability Directive

    Mr. Regula. The superintendents have much greater 
responsibility in view of the downsizing of Denver, am I 
correct?
    Mr. Stanton. Yes, sir. If I may, Mr. Chairman, I have 
outlined in memorandum form the level of responsibility for 
planning, design and construction in the National Park Service. 
It's very clear in terms of the accountability to which our 
superintendents, regional directors and my immediate staff are 
being held. I'll be more than happy, Mr. Chairman, with your 
concurrence, to provide a copy of that directive for the 
benefit of the Committee.
    Mr. Regula. I'd like to have every member get a copy of 
that.
    Mr. Skeen.
    [The information follows:]
    Offset folios 633 to 635 insert here

<SKIP PAGES = 003>

    Mr. Skeen. Thank you, Mr. Chairman, and Mr. Director.
    Mr. Stanton. Hello, how are you?
    Mr. Skeen. Oh, I'm doing fine. How about you?
    Mr. Stanton. Great.
    Mr. Skeen. They haven't really dinged you at all?
    Mr. Stanton. I'm not saying that, Mr. Skeen. [Laughter.]

                Vanishing Treasures Preservation Program

    Mr. Skeen. What I'd like to talk to you about is the 
Vanishing Treasures program. We're very excited about that in 
New Mexico. And it's a multi-State program, and could you tell 
me how it's going along?
    Mr. Stanton. It is going great, Mr. Skeen. It is a hallmark 
accomplishment. I think any kudos, if you will, must be shared 
between this Committee and the National Park Service with 
respect to this program. We are providing, or at least 
requesting, in this budget request, an additional third of a 
million dollars in furthering the Vanishing Treasures program. 
It is alive and well and it's an excellent program.
    Mr. Skeen. It's moving along?
    Mr. Stanton. Yes, sir, it is moving along.

                     Carlsbad Caverns National Park

    Mr. Skeen. Very good. The other thing I'd like to talk to 
you about is Carlsbad Caverns National Park, where we're 
continuing to have a loss of attendance. I'd like for you to 
look into this and see what the Park Service thinks is the 
problem. We're having a lot of controversy between various 
individuals, the people who work in that place. And also some 
of the local community are convinced that the entrance fees, or 
the tours, as well as your new reservation system, is keeping 
many people out of the caverns.
    Mr. Stanton. I appreciate your concerns along those lines, 
Mr. Skeen. It had been brought to my attention as well, by park 
staff as well as concessionaires, that there are some concerns.
    Mr. Skeen. I think there's somewhat of a problem between 
the two entities.
    Mr. Stanton. Right. I've spoken with our newly appointed 
Regional Director, Karen Wade, and she and I will be visiting 
further with the park staff and reviewing the fee structure, 
the relationships between the park and concessionaire and other 
concerns related to the points that you just made.
    Mr. Skeen. I'd certainly appreciate it.
    Mr. Stanton. The region has taken steps to do an in-depth 
audit in terms of the fee structure and other ways of meeting 
the needs of the visitor. A formal report is due me in May, but 
I want to advance that report.
    Mr. Skeen. Any help that we can give you, we'd appreciate 
it.
    Mr. Stanton. Thank you kindly.
    Mr. Skeen. I also like the turquoise pin that you have.
    Ms. Lowey. Thank you. It was purchased on a roadside in 
Arizona somewhere.
    Mr. Skeen. A roadside in Arizona. They've been digging out 
treasures----
    Ms. Lowey. No, in New Mexico--in New Mexico. It was made in 
New Mexico, sold in Arizona. [Laughter.]
    Mr. Regula. That was a near miss there.
    Mr. Skeen. Good recovery.
    Mr. Stanton. I might just mention, Mr. Chairman, that we 
are in the process of looking for candidates for the 
superintendent position of Carlsbad Caverns. The former 
superintendent, Frank Deckert, is now our esteemed 
superintendent for Big Bend National Park.
    Mr. Skeen. Well, there's been a little friction. Maybe if 
you bring somebody new in there that they haven't worn down 
yet----
    Mr. Stanton. Okay, yes. [Laughter.]
    Mr. Skeen. Thank you. You're doing a great job. We treasure 
those parks.
    Mr. Stanton. Okay, I know you do.
    Mr. Skeen. We appreciate the work and the attendance and 
the way that you've handled it.
    Mr. Stanton. Thank you very kindly.
    Mr. Skeen. Thank you, Mr. Chairman.

                vanishing treasures preservation program

    Mr. Regula. We were given by your staff a copy of the 
Vanishing Treasures program, which is fascinating.
    Mr. Skeen. It really is. We have a lot of those interesting 
areas in the State. We finally got the State to pick up some of 
them. But I think it would be well to have them in the National 
Park program.
    Mr. Stanton. Thank you.
    Mr. Galvin. Another great aspect of that Vanishing 
Treasures program is that it's an employee development program, 
too. Because much of this work, the actual hands-on work of 
stabilizing these archeological sites, is done by Native 
Americans, by local craftsmen. And we've been in the position 
where the older people who've been doing that are retiring. So 
this program is bringing in young people, many of whom are 
actually profiled in this report. And the older people are now 
teaching them how to go through this process, which is a very 
specialized process. So it's a great program on the human 
resources side, too, as well as the resource preservation.
    Mr. Skeen. Well, if you've ever been to the site, I can 
tell you, it's really an undertaking to have the people that 
you have there working on it.
    Mr. Galvin. I was privileged to serve in the Southwest 
Region for three years, working out of Santa Fe.
    Mr. Skeen. It's nice to talk to someone who knows what New 
Mexico is all about.
    Mr. Galvin. My daughter was born in Santa Fe, actually, St. 
Elizabeth's hospital.
    Mr. Skeen. Never seen rain since then? [Laughter.]
    Mr. Galvin. She's living in San Francisco now.
    Mr. Skeen. Pretty dry out there.
    Mr. Galvin. Lovely country.
    Mr. Skeen. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    I'm curious, on the Vanishing Treasures, who has title? 
Does the public now have access to see these and enjoy them?
    Mr. Stanton. Yes, correct.
    Mr. Skeen. Some of the State offices.
    Mr. Regula. Oh, is that right?
    Mr. Galvin. These are all in parks.
    Mr. Stanton. Yes, correct.
    Mr. Regula. They're inside of public property?
    Mr. Stanton. Oh, yes, they are within National Parks. They 
are principally adobe structures, pre-Columbian, if you will, 
such as Mesa Verde, which has magnificent structures.
    Mr. Regula. You'll have a flood of visitors after this.
    Mr. Skeen. For only $25 apiece, you get one of your 
permits, and we're in business.
    Mr. Regula. Mr. Hinchey.
    Mr. Hinchey. Mr. Chairman, thank you very much.
    Mr. Stanton, Mr. Galvin, ladies and gentlemen, very lovely 
to see you. A pleasure to have you here.
    Mr. Stanton. Same here.
    Mr. Hinchey. Mr. Stanton, I think you're coming up to New 
York on the 10th of April?
    Mr. Stanton. Yes, I look forward to that.
    Mr. Hinchey. At West Point, we're looking forward to having 
you up there.
    I have a couple of questions I would like to ask, and a 
couple of things to say about the things you're doing. You have 
a net increase in the budget request of $233 million over last 
year's enacted budget. I think that's very appropriate and in 
my view, frankly it's not nearly enough. But at least it's a 
step in the right direction.

               south florida park areas land acquisition

    One of the things that you're asking from us is $50 million 
for land acquisition in the Everglades. And I want to 
compliment you on that. I think that this particular project is 
a very important one. I know it's important to the Chairman. 
He's done some great work on making sure, from the point of 
view of this Committee, that the project is done the right way.
    So I am very happy to see that there is this interest and 
that this work is going on, and the $50 million for land 
acquisition is included. I think it's very important for the 
restoration work, that land acquisition is part of the program. 
While the restoration includes a whole array of approaches; but 
the land acquisition piece of it, although it's a relatively 
small amount of money, is a very important part of it.
    I had an opportunity to go down there and visit with a 
couple of people in the Park Service last year and see what was 
going on, and reported back to the Chairman on my visit. I 
think you're doing a good job, a very good job. And I think 
that the project is very important. The Everglades ecosystem is 
a legacy that is critical and needs to be saved. It's very much 
in danger. Land acquisition is a very important part of that 
restoration work, so I just want to thank you for that.

 home of franklin d. roosevelt national historic site land acquisition

    On a more parochial level, up in New York we have the 
Hudson River now as an American Heritage River, and the Hudson 
River Valley as an American Heritage Area. The key, the central 
piece of the Hudson Valley are the Home of Franklin D. 
Roosevelt and Vanderbilt Mansion National Historic sites. There 
isn't very much responsibility the Park Service has in New 
York, but these units are a key part of it.
    And I think you have a $1.2 million request for land 
acquisition in the budget, which is good but not enough. And 
let me explain why that is so. The Roosevelt and Vanderbilt 
estates, which are central to the heritage area, and central to 
so much that goes on in that part of New York and the east, is 
severely threatened by development. In fact, on a parcel of 
land which was initially part of the Roosevelt estate, directly 
across the road, there is a plan that has not yet moved 
forward, but a plan, nevertheless, to build a Wal-Mart directly 
in front of the Roosevelt and Vanderbilt estates.
    That would be a very serious error. And if we here in the 
Congress and you in the National Park Service did not prevent 
it from happening, it would be a black mark on our record, 
indeed. So that land acquisition, which requires really $3 
million to purchase 29 acres, and another small piece, the 
total amount really identified in need is $4 million for land 
acquisition. So I hope that you would make that request of the 
Committee, frankly, and I encourage you to be more aggressive 
in your approach to that problem.
    Mr. Stanton. I appreciate that very much, sir. In a 
conversation recently with Mr. Bill Shaddox, who heads the land 
acquisition program for the National Park Service, we have 
initiated the necessary paperwork to get an appraisal on this 
property. We want to be in a position to move quickly with the 
acquisition depending upon the availability of funds.
    The funding that we're requesting in fiscal year 2001 will 
be geared toward that acquisition. As you pointed out, maybe 
the appraisal will show that it's much higher than this amount. 
But we certainly will look forward to keeping you advised of 
this.
    The importance of that area being protected is a concern 
that we share.
    Mr. Hinchey. Well, I know you do, Mr. Stanton. I know that 
Mr. Galvin does as well. But I just want to use my time here to 
impress upon all of us the importance of doing this. I don't 
want to leave anyone with the impression that I have anything 
against Wal-Mart. That's not the point. The point is that if 
this kind of commercial development occurs right in front of 
the Roosevelt and Vanderbilt estates that would be a very 
serious detriment to the purpose of the Park Service, really.
    So I'm happy to hear that you are concerned about it and 
you are moving forward on it. I just want to encourage that, 
and I know this is something the Committee will support, or at 
least I hope it's something the Committee will support.
    Mr. Galvin. Mr. Hinchey, I might just mention that the 
request in the budget, the $1.2 million you mentioned, although 
it appears to be inadequate, is for that tract. The description 
is a little general. But it was intended to acquire that tract, 
and it is within the authorized acquisition of the home of FDR.
    Mr. Hinchey. Okay. Mr. Galvin, thanks very much.
    Mr. Regula. You've got a couple more.
    Mr. Hinchey. Thanks, Mr. Chairman.
    There's also the issue of the operations budget at the 
Roosevelt and Vanderbilt sites, and some very necessary 
repairs. The maintenance budget has been very low, and as a 
result of that, there's been some decline in the general 
appearance of these facilities. And also, its gotten the point 
where such things as toilet facilities need serious repair.
    So I'm hoping that this issue will be addressed in the 
upcoming fiscal year. It's so serious that it's begun to affect 
attendance. People have gone there and their experience has not 
been the kind of experience they've anticipated. And I think 
that's had an effect on reducing the number of people who are 
visiting that facility.
    Mr. Stanton. The park is in the multi-year physical 
improvement program. With respect to the operations, day to day 
maintenance, day to day quality of visitor services, I will 
take a look at that with our regional director and see what 
possible adjustments can be made.
    The park received, I believe in fiscal year 2000, for this 
year, a base increase. But to what extent it's really 
addressing some of the needs you've outlined, I will certainly 
look into that.
    Mr. Hinchey. I appreciate that, Mr. Director. Thanks very 
much.
    Mr. Regula. We have time for a couple of additional 
questions from each of the members, so we'll go around again.

   homestead airport and mineral rights effect on south florida parks

    One I want to mention is the BRAC closure of Homestead. 
That piece of land is strategically located. What would be the 
impact on Big Cypress, Biscayne National Park, as well as the 
Everglades, if that were to become a commercial airport?
    Mr. Stanton. The U.S. Air Force is the lead agency.
    Mr. Regula. I understand.
    Mr. Stanton. And following the preliminary results of the 
environmental work--they are doing some additional 
environmental work--the concern that we have expressed is that, 
if Homestead were to be converted to a commercial airport from 
a military airport, it would generate noise, possibly 
contributing to runoff of water that may have a mixture of oil 
and what-have-you that would be detrimental to the watershed 
and the drainage into Biscayne, Everglades and Big Cypress, 
particularly Biscayne and Everglades.
    The Secretary and I share the view that the alternatives to 
a commercial airport should be looked at very carefully in the 
environmental impact statement. And again, I mention that the 
Air Force is the lead agency.
    When it was deauthorized as a military base, the intention 
was to have it transferred to Dade County. And the original 
thinking was that it would be an airport. But that had to be 
evaluated as part of the environmental impact statement.
    Mr. Regula. Well, as I understand it, if it were to be 
transferred to the Secretary of Interior instead of Dade 
County, then in turn you could work out an exchange. Because as 
I understand it, there is a private group that has title to the 
mineral rights under the Big Cypress and Everglades. And you 
could trade off to extinguish those rights.
    Wouldn't that be a valuable thing, as we talk about the big 
picture development of the Everglades? I don't believe people 
want to see oil derricks out in the middle of the Everglades 
and Big Cypress. I welcome your comments on that.
    Mr. Stanton. Mr. Chairman, although I have not personally 
reviewed the draft document, the draft environmental impact 
statement, it would appear to me that all alternatives would 
have to be explored. I'm sure that, through the public 
involvement process, those kinds of alternatives have been put 
on the table. That involves taking a look at how the Government 
or the American people would benefit from the transfer of those 
properties from the Air Force either to Dade County, or to the 
Department of Interior. I think we would perhaps need stand-
alone legislation to transfer it to Interior; I'm not sure. But 
I would certainly agree that all alternatives need to be 
explored.
    Mr. Regula. Am I correct that there has been a reservation 
of mineral rights under Big Cypress and Everglades?
    Mr. Stanton. Yes, sir. When Big Cypress was authorized, the 
legislation stipulated that under certain conditions, the 
mineral rights would stay intact, and that the owner could 
extract oil or gas. And there are a number of wells in Big 
Cypress.
    Mr. Regula. There could be a lot more.
    Mr. Stanton. There could be a lot more. They have the right 
to extract the minerals, yes, or petroleum.
    Mr. Regula. Well, it would seem to me we're going to, along 
with the State of Florida, spend an awful lot of money on the 
Everglades restoration program, and we would want to 
contemplate trying to take care of that problem. Would you 
agree?
    Mr. Stanton. I think it has to be addressed. From my 
perspective, it has to be addressed.

                   natural resource learning centers

    Mr. Regula. One other question. You propose $900,000 for 
the establishment of learning centers in gateway parks and so 
on. Tell us what your mission or objective is for these 
centers.
    Mr. Stanton. This is a component of our resource efforts to 
provide opportunities for some educational benefit to accrue 
from park science and certainly from the kind of data that's 
available about parks. Again, Mr. Chairman, if I may, let me 
turn to those who have been really involved in this and who can 
give you a direct perspective, Mr. Galvin and Don Neubacher.
    Mr. Galvin. Well, I will turn it over to Don, because one 
of the learning centers requested in here, of the five that we 
would like to start, is going to be in Point Reyes. But the 
idea of a learning center is simply to combine the resource 
management work and the education function of a park under one 
roof.
    This is basically an idea that started at the Great 
Smokies, where we have this Discover America program going, 
which is really all taxonomy. They're trying to identify every 
species in the park. And this is done by outside researchers. 
It's not done by the National Park Service. But combined with 
that is a local grammar school program, where the kids, K-8 
grammar school, come into the park and assist the scientists in 
identifying these species. I was down there some months ago. 
The kids come into the park in the morning and empty the traps 
that are set out, and bring them to the scientists in this old 
log cabin that used to be the superintendent's house up on the 
hill, and then work with the scientists to say that this is a 
red footed salamander or a wood frog or something like that.
    So that's the core of the idea. The idea also would be to 
use existing buildings--Don can describe his building--to have 
a classroom, a lab and a place for people to sleep, so that you 
can combine these functions. I also noticed, in a clipping the 
other day, using Great Smokies as an example, that they've just 
accredited a high school biology class that occurs 90 percent 
in the park. Only 10 percent occurs in the high school. It 
seems to me that shows the real potential of National Parks to 
affect the education of this country. Learning centers are an 
opportunity to put them under one roof.
    And I'll let Don tell you about his roof.
    Mr. Neubacher. Thank you.
    We, by the way, did a national competition for the 5 
prototypes, and we got 39 proposals across the country. Point 
Reyes was one of the five that were selected. We had actually 
worked on our learning center for the last couple of years, and 
so we were ready to go. So we were selected as one of the five.
    We have a historic ranch, hasn't been used for ranching for 
20 years. It's a beautiful site, and it's got a main complex 
and barns, and actually through some repair and rehab money, 
we've actually renovated them into a lab, a classroom, 
accommodations for scientists. It prepares the setting for 
scientists to come in, that they'll have office space, too.
    So there's two purposes for learning centers. One is to get 
scientists in the parks to do research. And some of that's our 
backlog and some of it's the stuff that's being done at Great 
Smokies, where you're letting the scientists actually decide 
what they want to do in the park.
    So you're getting research accomplished, which is 
phenomenal for me. And the second part of this learning center 
is that you get something done with the school systems. In our 
case, we have 16 schools that have been engaged for the last 2 
years developing a curriculum inside the park. So we're going 
to build, in my mind, just what Deputy Director Galvin said 
about having young scientists take part in inventory and 
monitoring programs, we're going to build the next generation 
of scientists in this country. These will be natural 
classrooms.
    The Point Reyes National Seashore site, in the Olema 
Valley, is really fabulous. It's adjacent to the wilderness 
area. We've got tule elk, red legged frogs, we have all these 
projects that they can work on. So we should get great work 
accomplished over time.
    Mr. Regula. Sounds to me like a terrific idea. I assume 
this is a harbinger of things to come in other parks, as these 
systems develop, you'll incrementally expand these 
opportunities.
    Mr. Stanton. That's right.
    Mr. Galvin. The Natural Resource Challenge outlines 32 of 
these that would be all around the country and hooked in with 
all the educational systems.
    Mr. Regula. And I assume using fiber optics they could be 
plugged into long distance learning centers.
    Mr. Galvin. In fact, to go back to that Great Smokies 
example, in terms of identifying the critters that the kids 
take out of the traps, they go to the internet and pull up a 
web site that shows eight different kinds of salamanders. I did 
it with them; they hold the salamander up to the computer 
screen and say, aha, a striped salamander.
    Mr. Neubacher. And in our case, we'll be directly linked to 
our GIS information system. PacBell got so excited about this 
idea, they're bringing a T1 line in to wire our entire building 
with fiber optics, which is great. Scientists will come in, 
they'll have access to all your data, and so they can get good 
work accomplished fairly quickly over time.
    Mr. Regula. Mr. Dicks.

                 recreational fee demonstration program

    Mr. Dicks. Let me go back to the recreational fee program. 
You said you've taken in over $400 million in the past. How 
much came in in 1999?
    Mr. Stanton. It's $141 million, and we anticipate maybe a 
little increase to that in 2000.
    Mr. Dicks. How much has gone to overhead expenses?
    Mr. Stanton. About a million and a half a year, something 
in that range, for actual oversight, plus about $20 to $25 
million to collect the fees.
    Mr. Dicks. How many individual projects have been funded?
    Mr. Stanton. I have a report here, Mr. Dicks. Roughly, we 
have approved as of March 23, 2,564 projects.
    Mr. Dicks. Two thousand five hundred and sixty-four.
    Mr. Stanton. Right. And then we have other projects that 
are in the system that are subject to further review and 
approval.
    Mr. Dicks. Now, of these projects, are these mainly 
maintenance projects?
    Mr. Stanton. A large number are maintenance projects, 
right.
    Mr. Dicks. So you would say almost 100 percent maintenance? 
The projects that are actually done?
    Mr. Stanton. Maintenance and resource preservation, if you 
will, in a broader sense. Right. Some could be rather modest, 
such as trail rehabilitation, and some could be a major 
infrastructure repair or historic structure, as an example.
    Mr. Dicks. What suggestions do you have for improvements to 
the program?
    Mr. Stanton. Two, if I may. One is that we are continuing 
to improve upon the process for quick review and approval of 
the project, while making sure that the projects are in keeping 
with the intended use of the fee revenues. Next is that, based 
on our nearly four years experience with the Recreational Fee 
Demonstration Program, we are engaged, along with the other 
bureaus within the Department of Interior and the U.S. Forest 
Service, in looking at what type of recommendations may be made 
to Congress to give us a permanent authorization to further the 
Recreational Fee Demonstration Program.
    So it's improving our administration of the authority that 
we currently have, and then on the basis of that, determining 
what the future should be beyond the current authorization, 
which expires at the end of fiscal year 2001.
    Mr. Dicks. Now, the Committee is considering making the fee 
program permanent this year. Should the current 80-20 
allocation of funds be reconsidered?
    Mr. Stanton. That is one of the things we are looking at, 
Mr. Dicks, based on our three and a half years experience, that 
we would like to see, at least at this juncture, more 
flexibility. If you were to run a revenue stream weighed 
against the needs of a park that has an indefinite revenue of 
80 percent, it might prove that that park will have funding 
beyond its most critical needs, and there might be an adjoining 
park or a park within that same State that is not a fee park, 
but nevertheless does have needs; there may be a need for a 
little more flexibility.
    I'm not necessarily suggesting that it be 50-50 or 60-40, 
but based on our experience, we will be providing 
recommendations to the Secretary along those lines.

                   fee revenue and maintenance budget

    Mr. Dicks. Now, earlier I asked you, are we using this to 
substitute for the money that should be in the maintenance 
budget. Could we not argue that last year, in your five year 
plan, we were supposed to be at $264.3 million. We're at 
$163.9, or about $101 million below where we're supposed to be. 
Most of this money, if it's $181 million, it's 80 percent, or 
let's say the $141 million.
    So we're doing this, we're taking it away from here in 
maintenance, and then putting back direct fee money. This is 
what we did last time. And you guys swore up and down you 
would, oh, we'll never do it again.
    Now, I don't think it's you. I think it's OMB and the 
people downtown. But isn't this what we're doing? We're 
substituting rec fee money again, and you guys promised us you 
wouldn't do that. And here you're $100 million below where 
you're supposed to be on maintenance. That's what it looks like 
to me.
    Mr. Stanton. Mr. Dicks----
    Mr. Dicks. I think you're guilty before the trial. But I'll 
at least give you last remarks.
    Mr. Stanton. It is not. It is not.
    Mr. Dicks. It sure looks that way. Well, couldn't a 
reasonable Congressman think that's what's happening here? 
[Laughter.]
    Mr. Regula. Mr. Dicks is a reasonable Congressman.
    Mr. Dicks. Take it away in one hand, one of your best 
supporters. And you promised us you wouldn't let this happen 
again. And here we go again.
    Mr. Stanton. Mr. Dicks, Mr. Dicks----
    Mr. Dicks. Tell me it isn't true.
    Mr. Stanton. It isn't true.
    Mr. Dicks. But it sure as hell looks like it.
    Mr. Stanton. It is not our intent to substitute the 
revenues available to us from the Recreational Fee 
Demonstration Program from our request for direct congressional 
appropriations. That is not our intent.
    Mr. Dicks. Okay, did you request $264 million? And did OMB 
cut it $100 million? Or did the Department cut it $100 million?
    Mr. Stanton. There were considerations of our budget for 
fiscal year 2001 that----
    Mr. Dicks. Guilty. [Laughter.]
    Mr. Stanton. Well, let me die in peace, anyway. [Laughter.]
    Mr. Stanton. Obviously, our needs are great, and there were 
other demands competing with the budget for the National Park 
Service. Our budget request obviously had to be considered 
along with other demands for the Interior's allocation under 
the fiscal year 2001 allowance. I mean, I just said that 
straightforward, that it does not reflect, obviously, all our 
needs.
    Mr. Dicks. All right. So we could do better in that area, 
if Congress rescues you, as we always do. Is that why this is 
down? Is this one of those Washington Monument deals, we'll go 
low ball maintenance, because they know Chairman Regula and the 
Committee will put the money back in?
    Mr. Stanton. We have consistently been very appreciative of 
the efforts of this Committee. [Laughter.]
    Mr. Regula. So there.

                           natural resources

    Mr. Dicks. Tell me about your program to protect natural 
resources in the parks.
    Mr. Stanton. Well, we had commented earlier on some of the 
elements of the Natural Resource Challenge, as Mr. Galvin and 
our superintendent, Don Neubacher, had outlined. It has several 
facets. One, obviously, is inventorying and monitoring the 
resources entrusted to our care, from the smallest organisms to 
some of the largest, the bisons or the Sequoia trees.

                            invasive species

    But also, we're dealing with invasive species, as an 
example, both animals and plants. This is not only a national 
problem, but it has grown to be a universal problem with 
respect to non-indigenous species, or non-native species really 
proliferating in our National Parks.
    Here in our Nation's capital, as an example, the 
proliferation of kudzu strangles native plants. So we have a 
tremendous need to address the invasive species.
    Mr. Dicks. There is an interagency group that's trying to 
deal with this, isn't that correct?
    Mr. Stanton. Yes.
    Mr. Dicks. That Secretary Babbitt and Secretary Glickman 
chair?
    Mr. Stanton. That is correct. There is an executive order 
issued with respect to non-native species. And there is 
tremendous interest on the part of the private property owners, 
particularly the ranchers, the farmers, what have you. There 
are some plant materials that are really being snuffed out, 
such as native grasses that are important to the grazing of 
cattle.
    Mr. Dicks. We have the same problems out in the State of 
Washington with these little mussels. We're very concerned 
about this invasive issue.
    Mr. Stanton. We have outlined a five year program, and the 
program is definitive with respect to what we want to do based 
on the appropriation each fiscal year.

                       natural resource challenge

    And again, Mr. Chairman, Mr. Dicks, Mr. Hinchey, we'll be 
more than happy to provide a copy of our Natural Resource 
Challenge to each of you. We have assigned accountability to 
ensure that we're going to stay faithful to the challenge. Once 
we get the money we're not going to use it for other purposes.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. I want to endorse Mr. Dicks' comments on 
backlog maintenance. They are right on target.
    Mr. Peterson. I'll third the motion.

        operation and maintenance costs of lands to be acquired

    We're in the acquisition mode in all Federal agencies. Is 
there any requirement, and I'm not speaking of inholdings, 
because I don't think they have a significant cost on 
operations of a park. But when we acquire new sites, is there 
any requirement that the agency, like yourself, that they 
provide us a five year estimate of operation and maintenance 
costs?
    Mr. Stanton. That is normally provided as a part of the 
proposal. Proposals could originate with the Administration, or 
it could originate on the part of any member of Congress to 
introduce a measure, adding a new unit to the National Park 
System. Normally, there is background information not only 
describing the unit, but also what it would take to operate it, 
etc.
    Mr. Peterson. What length of time? Do you know?
    Mr. Galvin. It is actually now required by law that first, 
Congress authorize a study before we get a new unit. Then we 
have a program here in the budget called Special Resource 
Studies that looks at a candidate area. That study then comes 
before Congress and the expected operating costs are in that 
study.
    Mr. Peterson. We're not getting a pig in a poke, then?
    Mr. Stanton. No.
    Mr. Galvin. No.
    Mr. Peterson. We know what we're picking on?
    Mr. Galvin. And normally, if there is legislation 
introduced, then the Congressional Budget Office also estimates 
the long term costs.
    Mr. Peterson. That would be added to your long-term 
maintenance backlog?
    Mr. Stanton. It would indeed.
    Mr. Galvin. That's right.
    I would say, I was just looking at some numbers the other 
day, in terms of the 1990s, it's been a relatively low growth 
decade. In the whole history of the system, you can figure six 
or seven new units per year. In the 1990s, it's been about two 
and a half. We got 25 units in 10 years in the 1990s.
    Mr. Peterson. Because other agencies are picking up the 
slack. [Laughter.]

                            drug activities

    Mr. Peterson. The drug issue, you talked about, I was 
surprised at the figures, 30 percent of the arrests in 
Washington are by your police. The Forest Service has a huge 
drug problem, with drugs being grown there, labs being located 
there, and drug trafficking happening there because of the 
privacy. Is that a problem in your parks, too?
    Mr. Stanton. We have, unfortunately, the cultivation of 
cannabis plants on park land. We have Rangers, and here in the 
Nation's Capital the U.S. Park Police, who occasionally detect 
marijuana grown on public land. It is a problem.
    Mr. Peterson. Well, in talking with General McCaffrey this 
week, we thought, several suggested that our public land police 
be brought into and be funded partially with the anti-drug 
effort. Because the recent study shows that rural America is 
utilizing drugs more than urban-suburban America. And that's a 
change.
    And the utilization of our public lands is because of its 
being, you're out of the traffic, you can hide there, you can 
operate there. And there's very little anti-drug efforts going 
on in rural America. I mean, it's mostly an urban-suburban, 
because the problem didn't used to be there.
    Mr. Stanton. I should add, though, that again, thanks to 
this Committee, we have received some funding to deal with 
drugs on public lands, both the cultivation as well as the use 
and the trafficking in drugs. But it is still a problem.
    Mr. Galvin. We have been funded with drug money 
specifically with respect to cross border interdiction. 
National Parks or National Recreation Areas, units managed by 
the National Park System, comprise about 16 percent of the 
border between Mexico and the United States. So in places like 
Organ Pipe and Big Bend, there's a fair amount of illicit 
traffic coming through the parks, because as you point out, 
they're isolated and quiet.
    Mr. Stanton. That's right.
    Mr. Galvin. We've been funded at about $9.5 million to 
increase our staff and also to buy surveillance equipment and 
to work with the border patrol and others in cutting down on 
that traffic.
    Mr. Peterson. I'm sure the Committee would like to work 
with you on that, because it's one of the huge problems facing 
this country.
    Mr. Stanton. Thank you very much.

                   gettysburg national military park

    Mr. Peterson. If I can be parochial for just a moment, can 
you give me an update on Gettysburg? We had provided funds to 
acquire and remove the privately owned observation tower. What 
is the status, and will those funds be suspended this year?
    Mr. Stanton. Funds are available. However, we were not 
successful in reaching agreement on a purchase price with the 
owner. Consequently, we have taken another measure and have 
requested of Congress, this Committee and other committees 
dealing with Interior, authorization for the taking of the 
property, that, if ultimately approved by Congress, would allow 
the courts to make the tower available to the National Park 
Service and then subsequently, settle with the owner.
    We're optimistic that will happen and that the tower will 
soon be in our ownership, and then we will move expeditiously 
with its demolition.
    Mr. Galvin. And with the taking, the money would be 
obligated, and put in escrow.
    Mr. Stanton. Yes, and the money is available.
    Mr. Regula. That is the appraisal?
    Mr. Stanton. Yes, sir.
    Mr. Galvin. And then you adjust it when final judgment's 
made.
    Mr. Stanton. Right.
    Mr. Peterson. What's the time table for implementing the 
plan, including the new museum and the collection storage 
facility? Is that all contingent upon the new land?
    Mr. Stanton. The Record of Decision and general management 
plan for Gettysburg have been approved. The superintendent and 
the regional staff now are in the process of negotiating an 
agreement with the foundation that will be joining with us in a 
partnership, doing some direct finance as well as some 
partnership toward the eventual construction of a new complex, 
to meet curatorial needs, visitor needs and administrative 
needs.
    But we've also gone on record, Mr. Peterson, that we will 
not disrupt any of the current visitor facilities in 
anticipation that a new facility will come on line. We will not 
do that until in fact a new facility comes on line.
    Mr. Peterson. Would you furnish me a short document on 
that?
    Mr. Stanton. We certainly will. We'll give you an update 
and a projected flow chart.
    [The information follows:]

                 Gettysburg NMP General Management Plan

    The National Park Service completed a new General 
Management Plan for Gettysburg National Military Park by 
signing a Record of Decision on November 23, 1999. The land 
needed for the new museum and visitor center facilities was 
acquired in 1998 by the Gettysburg National Battlefield Museum 
Foundation, NPS' 501(c)(3) non-profit partner.
    Since signing the Record of Decision, NPS has negotiated 
two agreements with the Gettysburg National Battlefield Museum 
Foundation, which will secure the funds and construct the new 
facilities. A ``general'' agreement covers the scope of the 
project, design and development plans, the operations and 
maintenance plan, and insurance requirements for the new museum 
and visitor center facilities. The second agreement is a 
fundraising agreement. NPS expects to sign these agreements in 
the near future.
    Once the agreements are signed, the estimated timeline for 
completion of the new museum and visitor center facilities is 4 
to 5 years: 2-3 years for fundraising and design, and 2 years 
for construction. Construction will not begin until all funds 
necessary to complete the project are secured.

                 independence national historical park

    Mr. Peterson. In Independence Hall, another Pennsylvania 
one, there are several public-private partnership projects 
currently underway on the mall, including the proposed National 
Constitution Center. What is the current status of those 
efforts?
    Mr. Stanton. Fund raising is continuing, and the Park 
Service is to be a partner to that in a cost sharing way. The 
rough estimate for the National Constitution Center is 
approximately $130 million to $140 million. I'm not quite sure 
of the amount that has been raised to date.
    Mr. Galvin. What I wanted to add is that there are several 
other major facilities in design, a new Liberty Bell pavilion, 
a new regional visitor center. All of that's being funded 
virtually with private money from foundations or State 
appropriations. With the help of this Committee, we did put in 
about $4.5 million for landscaping.
    So actually, the National Constitution Center is the third 
piece of a major redo of Independence Mall. The first two, and 
in fact all three facilities are in design. While the 
construction of the regional visitor center is to start in May, 
the construction will actually start on the Liberty Bell 
pavilion after the Republican Convention, because we didn't 
want to have a lot of construction with all that going on in 
town.
    Mr. Peterson. Are there any anticipated future Federal 
funding needs?
    Mr. Galvin. If there are, they're on the National 
Constitution Center.
    Mr. Stanton. Right.
    Mr. Galvin. That's to be a 65-65 match. I think the Federal 
portion so far has been about 40.
    Mr. Peterson. Those are millions and not percentages?
    Mr. Stanton. Yes, right. [Laughter.]
    Mr. Galvin. My math may have slipped, but I knew 65 and 65 
is more than 100. $65 million each, Federal and non-Federal.
    Mr. Regula. Well, maybe in Washington it adds up.
    Mr. Stanton. We can get you a report on that.
    Mr. Peterson. Okay.
    [The information follows:]

      The National Constitution Center Philadelphia, Pennsylvania

    The privately-developed National Constitution Center (NCC) 
envisions a $130 million facility occupying all of Block 3 of 
Independence Mall, where exhibits, programs, and educational 
activities will be presented, focusing on the impact of the 
United States Constitution on the Nation. In addition to the 
Center itself, the project includes a bus drop-off/pickup 
facility, a multipurpose maintenance facility, and complete 
landscaping.
    Fund-raising efforts for this project are on-going. Private 
funding of $10.4 million has been collected to date. 
Appropriations from the National Park Service and the 
Department of Education, projected through Fiscal Year 2001, 
total $21.75 million each, or $43.5 million in total. In 
addition, the City of Philadelphia has provided $5 million, the 
Delaware River Port Authority $3 million, and Federal 
Congestion Management Air Quality (CMAQ) $2.3 million.
    Designers for the Center have been selected, and design 
development documents were complete as of November 1999. Final 
construction documents should be completed by June 2000. Plans 
call for the facility to be operational by September 17, 2002.

                      potential oil heritage site

    I'd like to have a discussion with you in the near future. 
We had a discussion last year on the potential of an oil 
heritage site. I'd like to renew that discussion if we could.
    Mr. Stanton. Okay, good.
    Mr. Peterson. Thank you.
    Mr. Regula. Thank you, Mr. Peterson.
    Mr. Hinchey.

            technical assistance for national heritage areas

    Mr. Hinchey. Mr. Chairman, thank you very much.
    Gentlemen, the National Heritage Area program, I think, is 
a very important one. It's a relatively new program but I think 
a very significant one. Among other things, it has the 
potential to at least act as a partial antidote to the Nation's 
historical amnesia. It's a way to remind people of our own 
history, which is something that we're not doing a very good 
job of, I think, presently, as a Nation.
    But in order for these Heritage Areas to work effectively, 
and they exist in a great many communities across the country, 
to work effectively, and to be elevated to the level where they 
ought to be, and gain the national and indeed, international 
prominence that they ought to have, they need the technical 
expertise of the Park Service. And the budget line this year is 
frozen at less than $900,000 for technical expertise and 
assistance for these Heritage Areas.
    It just isn't enough. And I hope that in the future, 
perhaps even in this budget, we might be able to do better. And 
I would just appreciate your comments on that.
    Mr. Stanton. Certainly we applaud the concept of National 
Heritage Areas. It provides an opportunity for communities, and 
organizations within those communities, to have a direct sense 
of stewardship for the heritage within the Heritage Areas.
    Our role principally is to provide technical assistance, 
and financial assistance when authorized. But one would 
certainly conclude that the needs for preservation, education, 
and interpretive services within the heritage areas, are things 
that need financing. We're able to make an adjustment within 
the budget request for fiscal year 2001 for two of the heritage 
areas, but obviously there are needs in others.
    Mr. Hinchey. I just hope that, maybe in this budget, and 
certainly in the future, the technical expertise budget for 
these programs will go up. These are very important programs. 
The potential I think is great, in the Cuyahoga Valley and the 
Hudson Valley and a whole host of other places around the 
country.
    Mr. Galvin. Mr. Hinchey, we have been discussing that very 
issue in terms of restructuring the assistance program so it 
becomes more of a mainstream sort of park planning activity, 
which would provide to heritage areas and communities adjacent 
to parks a sort of tailor made approach to assistance, so that 
if there was some particular kind of assistance that a heritage 
area wanted or an adjacent community, as an example, if they 
wanted the assistance of our interpretive design center in 
Harper's Ferry, they could go directly to it, and it would be 
funded out of our planning funds.
    We've been engaging in discussions internally in the Park 
Service about restructuring the budget to make the program more 
flexible and more effective.
    Mr. Hinchey. Thank you very much.

              Rivers, Trails, and Conservation Assistance

    The Rivers and Trails Conservation Assistance Program is 
one of the few programs that really benefits the northeast in a 
material way. Mr. Galvin, I extended an invitation to you to 
come up and see one of our examples of that in New York, the 
Delaware and Hudson Canal.
    Mr. Galvin. I still have that on my list.
    Mr. Hinchey. All right. Well, I hope you'll get a chance to 
come up and see us. There are a couple of dates that I 
suggested to you, and if you can do it, I would be very pleased 
to show you around. And Mr. Chairman, if you're free sometime 
this summer, I'd love to have the chance to show you this 
particular old canal that's being developed into a trail. I 
think you'd really enjoy it.
    Mr. Regula. Is this part of a heritage corridor, or is it 
being done by county-State?
    Mr. Hinchey. It's being done by county-State primarily, 
yes. And it is the case with this program, there are matching 
funds and it's a very efficient program that way.
    Mr. Regula. And it's on a towpath?
    Mr. Hinchey. It's an old towpath, an old canal, yes.
    Mr. Regula. That's what we're doing in our part of Ohio.
    Mr. Hinchey. I'd love to show it to you, if you get some 
time this summer. I know there's not a lot of time.
    Mr. Regula. I like trails, but there are a lot of them in 
this country.
    Mr. Hinchey. This is a particularly delightful one, Mr. 
Chairman. [Laughter.]
    I know it's just the kind of place that you would love. 
[Laughter.]

          Jacob Riis Park in Gateway National Recreation Area

    I wanted to ask you a question, about the Jacob Riis Park. 
This is an urban park, and one of the most popular and 
frequently used recreation facilities in and around the city of 
New York. I think around 2 million people actually go there 
every year. I'm happy to see that in the budget you have some 
money for improving some of the physical facilities there, 
which is very definitely and sorely needed.
    I wonder if you could comment on that, and also on the fact 
that this is a place that really serves a very diverse 
population. It serves an urban population, which is the kind of 
population that doesn't get much of an opportunity to take 
advantage of the National Park Service's contributions to the 
country.
    Mr. Stanton. I appreciate that very much. As you pointed 
out, we have Gateway National Recreation Area, which is almost 
in walking distance of 4 to 5 million citizens. And the 
opportunity to experience the out-of-doors in a park setting, 
in an informal or structured way, I think, is critically 
important in terms of fulfilling our mission. This project, for 
which we requested $4 million, would further that objective of 
making the facility usable, at least initially starting on a 
seasonal basis, with the objective of making it usable on a 
year-round basis.
    This is consistent with the legislation of the 1970s 
establishing Gateway National Recreation Area, not only to meet 
the preservation and interpretive educational needs, but also a 
recreational opportunity for millions and millions of visitors. 
So we're very excited about this project.
    Mr. Hinchey. I'm happy to hear that. Mr. Chairman, this is 
a project that affects people who really do not have very much 
opportunity.
    Mr. Regula. It's Gateway?
    Mr. Stanton. It's part of Gateway, it's in Gateway, yes, 
sir.
    Mr. Hinchey. They don't really get much of a chance to get 
any real recreational activities. And to interact with the 
National Park Service, which is something that they're provided 
here in this particular setting, I think is very important. It 
affects millions of people who will never see a National Park 
in all probability.
    Mr. Regula. That's true.
    Mr. Hinchey. They never get a chance to get out into a 
National Park environment. But here's a way in which we can at 
least provide this urban population some recreational 
opportunities and a way to see that the Federal Government, 
through the National Park Service, is acting in a way that 
benefits them in their particular lives and circumstances.
    Mr. Galvin. That reminds me, we went to see Senator Schumer 
and Congressman Weiner on this project. We took with us a young 
African-American woman who is a Ph.D ecologist at Joshua Tree 
National Park. She grew up in Brooklyn. She gained her love of 
nature and the outdoors at Gateway. So in the long run, it 
works.
    Mr. Hinchey. Am I through, Mr. Chairman, or do I have 
another minute or two?
    Mr. Regula. You can take another minute. I don't think the 
Director is in a big rush.
    Mr. Stanton. Certainly not, sir.

                Roosevelt Campobello International Park

    Mr. Hinchey. I'm thinking of sunrise at Campobello at the 
moment. The Roosevelt Campobello International Park is a unique 
setting, because it's a place where two countries recognize the 
contribution of an American President, Canada and the United 
States. And I believe it's actually in Canada?
    Mr. Stanton. Yes.
    Mr. Hinchey. In Nova Scotia. So can you comment a little 
bit about that? I know that this is a very small place with 
small needs, financially. But nevertheless, I think they've 
requested something in the neighborhood of $60,000 for the 
budget to do some upgrades at the facilities. This is a 
situation where for every dime that we spend, Canada spends an 
equal amount of money.
    Mr. Stanton. It is our direct responsibility, and it is an 
international program with our counterparts in the Canadian 
government. I was just given some information here that we have 
the Roosevelt Campobello International Park Commission, and 
that commission will be receiving an additional $20,000 in this 
year's budget in furthering their activities.
    I have not had any recent discussion with our Canadian 
friends with respect to their views about the level of 
operation of visitor services. Certainly we can pursue that.

          Ellis Island At Statue of Liberty National Monument

    Mr. Hinchey. There are some ongoing efforts at 
stabilization at Ellis Island. Last year there was $1 million 
that was spent, and that was money well spent to provide the 
stabilization that is necessary there. But that didn't 
accomplish the full job, by any means. But I noticed there is 
no request for funds in this year's budget for that program.
    Mr. Stanton. In the recent past, $3 million has been made 
available, as you mentioned, Mr. Hinchey, $1 million last year. 
We now have the benefit of a newly approved congressional 
authority to retain franchise fees paid by our concessionaires, 
and to dedicate those revenues to park improvements.
    The legislation is similarly tailored to that of the 
recreational fee program in that the park in which the revenues 
are generated keeps 80 percent. The franchise fees paid by our 
concessionaire, or our principal concessionaire, that services 
Ellis Island and the Statue of Liberty, generates a significant 
franchise fee. Those fees, under this new authority, would be 
dedicated in part to substantially improving the preservation 
of Ellis Island.
    I might mention that under the leadership of our regional 
director, Marie Rust, and our superintendent, Diane Dayson, 
they are conducting jointly with the States of New York and New 
Jersey a suitability-feasibility study to determine what should 
be the ultimate level of treatment, whether or not it should be 
just a question of preservation or adaptive use by some other 
entity. But preservation is the critical thing at this juncture 
stabilization and preservation.
    Mr. Hinchey. Stabilization is critical. And there is, as in 
any place, some ongoing deterioration there. It's a place 
that's important, I think, to every single American, so I hope 
that work will continue.

                Wilderness Designation and Preservation

    And if I may, one final thing, Mr. Chairman. The issue of 
wilderness and National Parks is one that I would like to just 
mention in this particular setting. I think 73 percent of the 
Nation's National Parks have lands that have either been 
designated or are suitable for designation as wilderness.
    Mr. Stanton. That is correct.
    Mr. Hinchey. Yet we have plans for such designation at only 
about 17 percent of the parks affecting that land. So I would 
just hope that together, our committee working with you, that 
we can advance the idea of developing wilderness plans on those 
lands that are suitable, have been designated as wilderness, or 
are suitable for designation in the future. I think it's a very 
important thing to do, prospectively, historically. People who 
come after us are going to be very grateful for any of the 
wilderness that we're able to preserve. And certainly, 
wilderness plans are essential to that preservation.
    Mr. Stanton. Thank you very much for that.
    Mr. Hinchey. Thank you, Mr. Chairman.

             Concessions Program Regulations and Management

    Mr. Regula. Thank you. Just a couple of quick questions.
    I know the authorizers have some concern about the 
concessionaire structuring. Are you getting it resolved in the 
regulations? You mentioned there's money coming back to the 
parks, which is a new approach like the fee program. Are you 
getting regulations worked out that the authorizers will be 
comfortable with?
    Mr. Stanton. Yes. There have been oversight hearings on the 
regulations, or the implementation of the law. There have been 
some individual discussions with members of the authorizing 
committee with respect to the concession regulations.
    The regulations were available for public review and 
comment. All the comments were evaluated and many of the 
suggested recommendations, in particular many from our own 
concessionaires, were incorporated in the revised regulations. 
The regulations are currently under review by the Secretary's 
office and the Office of Management and Budget.
    Mr. Regula. Do you anticipate we'll get fair market value 
for these facilities, prospectively?
    Mr. Stanton. I would think so. I would think so. And also, 
the return to the American public in terms of franchise fees I 
think will be a part of it.
    One of the major concerns, quite candidly, Mr. Chairman and 
Mr. Hinchey, is that we have a number of expired concession 
contracts. As soon as the regulations are in place, we have 
then a basis to renegotiate the conditions or the requirements 
under which a new concessionaire comes on line, with respect to 
franchise fees, quality of services, their interests and 
facilities.
    Mr. Regula. I hope we do a better job than we did on the 
original contracts.
    Mr. Stanton. I think this is going to be a great 
improvement. It really will.

                          Vandalism Reduction

    Mr. Regula. Has the fee program helped with vandalism? I 
understood that it does.
    Mr. Stanton. Yes.
    Mr. Regula. Because people have a sense of ownership when 
they pay a little something, and they aren't as quick to 
vandalize.
    Mr. Stanton. That's our sense, right.
    Mr. Regula. That's your experience.
    Mr. Stanton. Interesting psychology, but it's true.

                      Volunteers-in-parks program

    Mr. Regula. Are you still using a lot of volunteers?
    Mr. Stanton. Yes, sir. We have 110,000 to 115,000 
volunteers. And we're projecting an increase of 5 to 10 percent 
each year. It's just absolutely wonderful.
    Mr. Regula. Wonderful for the park and for the volunteers. 
I remember one volunteer out at Mount St. Helen's. He drove 60 
miles each way, each day to talk to the visitors. Fantastic.
    Mr. Stanton. That is great.

          Assistance From the United States Geological Survey

    Mr. Regula. And he was good. Are you getting adequate 
science assistance from USGS when you need it?
    Mr. Stanton. We have an excellent relationship with the 
USGS. And we provide input to their budget formulation, which 
they ultimately present to you and certainly to the Senate. 
It's a great partnership.
    Mr. Regula. So it's working out well?
    Mr. Stanton. Yes, it is. A lot of collaboration and 
cooperation there.

                            Foreign Visitors

    Mr. Regula. Are you still getting foreign visitors in our 
parks?
    Mr. Stanton. The statistics that I've seen recently, I 
think it's between 10 and 15 percent. It fluctuates with the 
international economy, obviously.
    Mr. Regula. The flagship parks probably attract a lot more 
than others.
    Mr. Stanton. That's right.

                              Partnerships

    Mr. Regula. Are, you using a lot of partnerships?
    Mr. Stanton. Yes, right. As I mentioned, one of our 
Congressionally mandated partners doing a magnificent job on 
our behalf is the National Park Foundation. But we work 
certainly with the National Trust for Historic Preservation 
under Dick Moe, and with a number of other organizations, non-
profit organizations and profit organizations, that are making 
available in-kind services as well as funds to carry out 
certain park programs. Partnerships are the wave of the future, 
Mr. Chairman.

                            Closing Remarks

    Mr. Regula. Well, I think we've covered most issues. It's 
been a good hearing. We appreciate your comments. I know that 
the public loves the parks, and feel fairly well served by and 
large. And we want to be part of the team. You have a great 
team of people. In my experience, talking to park people, has 
shown me they're very dedicated. Do you still get a lot of 
applicants for the available jobs?
    Mr. Stanton. No question about that, Mr. Chairman. We say 
it with a lot of humility, but we are the best agency in the 
Federal Government. [Laughter.]
    One of the great joys I have is to be associated with the 
finest men and women in the Federal Government, the men and 
women of the National Park Service. We do get a lot of 
applicants, but we're realistic too. We have to be competitive 
with other agencies, both public and private, because everyone 
is seeking the best in the young people, the talent. So we just 
need to be on the cutting edge of being competitive.
    Mr. Regula. Well, we're glad you are. Because I think the 
American people have a love affair with their parks.
    Mr. Stanton. No question about that.
    Mr. Regula. And we want to give them the best possible 
service, and we as a committee want to work with you and your 
team to accomplish that.
    Mr. Stanton. Well, again, Mr. Chairman, to you and Mr. 
Hinchey, I want to thank you on behalf of the National Park 
Service, and in a real sense, on behalf of the American people 
for your support of our National Parks, your National Parks. 
Thank you again.
    Mr. Regula. Thank you. We'll have questions for the record. 
We appreciate you and your team being here this morning. With 
that, the Committee is adjourned.
    [Additional questions for the record follow:]
    Offset Folios 683 to 789/1400 Insert here

<SKIP PAGES = 107>



 
                           W I T N E S S E S

                              ----------                              
                                                                   Page
Adams, Kevin.....................................................   253
Ashe, Daniel.....................................................   253
Babbitt, Hon. Bruce..............................................     3
Benna, Lawrence..................................................   161
Clark, J. R......................................................   253
Frazer, Gary.....................................................   253
Fry, Tom.........................................................   161
Galvin, D. P.....................................................   447
Guertin, Stephen.................................................   253
Hatfield, Nina...................................................   161
Haze, Pam......................................................161, 447
Henne, Paul......................................................   253
Jones, Marshall..................................................   253
Lowey, J. M......................................................   447
Masica, S. E.....................................................   447
Melius, Tom......................................................   253
Neubacher, Don...................................................   447
Sheaffer, C. B...................................................   447
Sheehan, Denise..................................................   253
Short, Cathleen..................................................   253
Stanton, R. G....................................................   447
Trezise, J. D....................................................3, 253

 
                               I N D E X

                              ----------                              

                       Secretary of the Interior

                                                                   Page
Across-the-Board Reduction.......................................    50
Additional Committee Questions Submitted for the Record..........    69
    From Congressman Dicks.......................................    93
    From Congressman Kingston....................................   148
    From Congressman Moran.......................................   155
    From Congressman Skeen.......................................   131
Amphibian Disappearance..........................................    46
Audit of FWS Federal Aid Programs................................    52
Biographical Summary of Bruce Babbitt............................    21
BLM Roads Maintenance Backlog....................................    60
Budget Increases.................................................     6
Cooperation on Catskill Watershed................................    57
Cumberland National Seashore.....................................    47
Dam Issues:
    Glen Canyon Dam..............................................    44
    Environmental Review.........................................    45
    Platte River Dam FERC Relicensing............................    46
Deferred Maintenance Five-Year Plan..............................    25
Economic Development in the Territories..........................    62
Ellis Island.....................................................    24
Elwha River Dams................................................. 5, 59
Examples of Secretary's Accomplishments..........................     3
FTE Increases.................................................... 6, 50
Habitat Conservation Plans.......................................     5
Historic Properties..............................................    66
Homestead Air Force Base Development.............................    58
Indian Affairs...................................................     6
Land Acquisition Criteria........................................    30
Land Acquisition Study...........................................    48
Lands Legacy.....................................................     8
    Lands Legacy Program.........................................30, 47
Las Cienegas NCA.................................................    43
Maintenance Backlog..............................................    24
Maintenance Needs vs. Land Acquisition...........................    51
Managing the Maintenance Backlog.................................    53
Many Glaciers Hotel..............................................    24
New York City Reservoir System...................................    56
Notice to Committee on Land Purchases............................    52
Okefenokee Swamp Mining Company..................................    66
Opening Statement, Summary.......................................     6
Pacific Northwest Forest Plan....................................     5
Policing in Parks and Wilderness Areas...........................    67
Preserving Forest Health.........................................    61
Public vs. Private Land Ownership................................    54
Salmon Recovery Initiative.......................................    61
Sonoran Desert Conservation Plan.................................    31
    Development of the Plan......................................    32
    Role of the States...........................................    43
Statement of Bruce Babbit........................................    10
Stateside Funding................................................    22
Taking Care of What We Have......................................     7
USGS Science Budget..............................................    58
Vieques in Puerto Rico...........................................    58
Washington State Monuments and Land Purchases....................    44

                       Bureau of Land Management

GAO Report--Fire.................................................   204
    GAO Report--Fire (insert)....................................   204
Grazing..........................................................   174
Grazing Permits..................................................   178
Introductory Remarks.............................................   161
Inholdings.......................................................   202
Land Acquisition...............................................182, 201
Land Disposal....................................................   180
Land Inventory (insert)..........................................   186
Land Use Plans...................................................   191
    Proposed Planning/NEPA Actions Fy 2001 (insert)..............   192
Law Enforcement..................................................   176
Maintenance......................................................   165
National Monuments...............................................   175
Off Road Vehicles................................................   178
Open Space.......................................................   177
Planning.........................................................   162
Public Treasures.................................................   163
Questions Submitted for the Record:
    From Chairman Regula.........................................   206
    From Congressman Kolbe.......................................   240
    From Congressman Moran.......................................   247
    From Congressman Nethercutt..................................   243
    From Congressman Skeen.......................................   241
Recreations Fees.................................................   164
Resource Advisory Councils.......................................   164
Road Maintenance.................................................   203
Safe Visits......................................................   164
Statement of Tom Fry, Acting Director, Bureau of Land Management.   166
Timber Harvests................................................174, 203
Total Maximum Daily Load.........................................   205
Visitor Centers..................................................   202
    Visitor Center (insert)......................................   202
Volunteers.......................................................   202
    Volunteers Information (insert)..............................   174
Watersheds.......................................................   176
Watershed Restoration............................................   163
Wild Horses......................................................   179
Willing Sellers..................................................   190

                       Fish and Wildlife Service

Additional Questions Submitted for the Record:
    From Chairman Regula.........................................   380
    From Mr. Dicks...............................................   385
    From Mr. Kingston............................................   434
    From Mr. Kolbe...............................................   389
    From Mr. Moran...............................................   436
    From Mr. Nethercutt..........................................   431
    From Mr. Ose.................................................   439
    From Mr. Skeen...............................................   392
Aircraft Replacement.............................................   343
Alabama Sturgeon.................................................   317
Alaska Subsistence...............................................   332
Audubon Society Proposal for Refuges.............................   436
Bear River National Wildlife Refuge..............................   338
Comprehensive Conservation Plans.................................   431
Concho Water Snake...............................................   319
Cooperative Endangered Species Conservation Fund.................   359
Cost of Maintaining Refuges......................................   438
Deferred Maintenance Backlog.....................................   385
Delhi Sands Flower Loving Fly....................................   318
Emergencies Under the Endangered Species Act.....................   442
Emphasis on Health and Safety....................................   379
Habitat Conservation Plans.......................................   436
Habitat Conservation.............................................   319
International Affairs............................................   342
Invasive Species.................................................   363
Klamath River Flow Study.........................................   331
Law Enforcement................................................327, 392
Leslie Canyon and Buenos Aires National Wildlife Refuges.........   389
Midway Atoll National Wildlife Refuge............................   347
Minimum Staffing Needs on Refuges................................   321
National Conservation Training Center............................   337
National Wildlife Refuge Fund....................................   361
National Fish and Wildlife Foundation............................   334
New Refuges......................................................   440
North Delta NWR...........................................439, 442, 443
North American Wetlands Conservation Act.........................   357
North American Waterfowl Management Plan.........................   383
Overview of Budget Process.......................................   316
Pacific Salmon Restoration.......................................   348
Recreation Fee Demonstration Program.............................   362
Refuge Operations and Maintenance................................   321
Refuge Support Groups..........................................378, 438
State-Non Game Wildlife Grants............................322, 380, 385
Tern Island Seawall..............................................   337

                         National Park Service

Alaska subsistence...............................................   555
Alexandria waterfront in Virginia................................   611
Arlington boathouse in Virginia..................................   611
Automobile collisions............................................   467
Backlogs for construction and maintenance:
    Facility Management System...................................   562
    Maintenance backlog..........463, 464, 467, 475, 506, 507, 561, 580
    Prioritization of construction and maintenance backlogs......   470
Belle Haven Marina in Virginia...................................   612
Big Cypress National Preserve offroad vehicles...................   576
Budget:
    Increases..................................................447, 577
    Priorities...................................................   604
    Request......................................................   448
    Request history..............................................   506
Business plans in parks........................................458, 522
Carlsbad Caverns National Park...................................   485
Closing remarks..................................................   504
Concessions program regulations and management.................503, 566
Construction:
    Accountability directive.....................................   481
    Backlog prioritization.......................................   470
    Budget request.............................................462, 580
    Program management...........................................   525
Cumberland Island National Seashore..............................   605
Denver Service Center..........................................481, 525
Drug activities..................................................   496
Easements, land..................................................   477
Ellis Island at Statue of Liberty National Monument............502, 571
Elwha River Dams acquisition and removal at Olympic National Pa460, 569
Employees, number of, in the National Park Service...............   472
Everglades National Park: See South Florida
Facility Management System.......................................   562
Foreign visitors.................................................   504
Gateway National Recreation Area: Jacob Riis Park................   500
George Washington Memorial Parkway land exchange.................   477
General budget questions submitted for the record................   577
Gettysburg National Military Park..............................496, 539
Glacier National Park............................................   540
Government Performance and Results Act (GPRA)....................   519
Grand Canyon National Park transportation system.................   569
Historic Preservation Fund.....................................580, 604
Historically Black Colleges and Universities...................475, 564
Home of Franklin D. Roosevelt National Historic Site land 
  acquisition....................................................   488
Housing for employees and related construction.......472, 480, 481, 582
    Yellowstone National Park....................................   473
Independence National Historical Park and the National 
  Constitution Center..........................................497, 573
Introductions....................................................   447
Invasive species.................................................   494
Land acquisition..........................................581, 590, 600
    Easements....................................................   477
    Operation and maintenance costs of land to be acquired476, 480, 495
    Priorities.................................................476, 590
    South Florida park areas.....................................   487
Lands Legacy Initiative..........................................   476
Law enforcement in parks (also see U.S. Park Police).............   556
Learning centers for natural resources...........................   490
Maintenance...............................................462, 493, 588
    Backlog: See backlogs for construction and maintenance.
Major improvements...............................................   450
Martin Luther King, Jr., National Historic Site..................   570
Museum collections...............................................   542
National Heritage Areas technical assistance.....................   499
National Park Passport...........................................   567
Native American graves protection and repatriation...............   602
Natural Resource Challenge................................495, 511, 593
Natural Resources (also see Natural Resource Challenge)..........   494
    Learning centers...........................................490, 517
New budget emphasis..............................................   506
Offroad vehicles.................................................   577
    Big Cypress National Preserve................................   576
Oil heritage site, potential.....................................   498
Olympic National Park, Elwha Dams acquisition and removal at.....   460
Opening remarks of Robert G. Stanton, Director...................   447
Opening statement of Director Robert G. Stanton, for the record..   452
Overflights and air tourism......................................   558
Overutilized parks...............................................   457
Part operations base increases...................................   592
Partnerships and private sponsors..............................504, 597
Pay increase costs...............................................   582
Point Reyes National Seashore....................................   458
Questions submitted for the record:
    Additional Committee questions...............................   506
    From Congressman Dicks.......................................   588
    From Congressman Kingston....................................   604
    From Congressman Moran.......................................   611
    From Congressman Skeen.......................................   602
Recreational Fee Demonstration Program...............447, 492, 523, 599
    Fee revenue used for maintenance.............................   493
    Procedure for use of fee revenues............................   470
    Public input to use of fee revenues..........................   469
    Vandalism, effect on.........................................   503
Regional offices.................................................   510
Rivers, Trails, and Conservation Assistance....................500, 581
Road construction................................................   463
Roosevelt Campobello International Park..........................   501
Snowmobiles......................................................   575
    Yellowstone National Park..................................461, 574
South Florida park areas
    Homestead airport............................................   489
    Land acquisition.............................................   487
    Mineral rights...............................................   489
Special resource studies of potential new park units.............   595
State grants from the Land and Water Conservation Fund...........   591
Statue of Liberty National Monument: Ellis Island..............502, 571
Transportation systems...........................................   533
    Grand Canyon National Park...................................   569
    Yosemite National Park.......................................   461
U.S. Park Police (also see Law enforcement in parks).............   479
Underground Railroad (National Underground Railroad Network to 
  Freedom).......................................................   548
Underutilized park areas.........................................   457
Urban Park and Recreation Fund...................................   581
Vandalism reduction..............................................   503
Vanishing Treasures preservation program..................485, 486, 546
Visitation and services..........................................   595
Visitor use passes, multi-agency.................................   468
Volunteers-in-Parks program......................................   503
Watercraft, personal.............................................   575
Wilderness designation and preservation..........................   502
Witnesses list...................................................   447
World wide web sites, park information on........................   457
Yellowstone National Park:
    Bison brucellosis............................................   601
    Housing for employees........................................   473
    Snowmobiles................................................461, 574
Yosemite National Park restoration and transport461, 532, 586, 588, 602

                                <greek-d>
</pre></body></html>
